<html>
<title> - DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 2021</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




  DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                                  ______

   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
                URBAN DEVELOPMENT, AND RELATED AGENCIES

                 DAVID E. PRICE, North Carolina, Chairman

  MIKE QUIGLEY, Illinois                  MARIO DIAZ-BALART, Florida
  KATHERINE M. CLARK, Massachusetts       STEVE WOMACK, Arkansas
  BONNIE WATSON COLEMAN, New Jersey       JOHN H. RUTHERFORD, Florida
  BRENDA L. LAWRENCE, Michigan            WILL HURD, Texas
  NORMA J. TORRES, California
  PETE AGUILAR, California


  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

       Joseph Carlile, Winnie Chang, Josephine Eckert, Angela Ohm,
              Sarah Puro, Rebecca Salay, and Gladys Barcena
                            Subcommittee Staff

                                  _______

                                  PART 5

                                                                   Page
                                                                   
  Department of Transportation Budget Request .....................   1

                                  ------                                
                                                                      
                                        
  Department of Housing and Urban Development Budget Request ...... 155

                                  ------                                
                                                                   
                                        
  Federal Aviation Administration Budget Request .................. 235

                                  ------                                
                                                                    
                                        

                                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                               __________

          Printed for the use of the Committee on Appropriations

                        

                           

                                

Part 5--TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND RELATED 
                           AGENCIES FOR 2021
                           
                           
                           

 
  DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND URBAN DEVELOPMENT, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2021

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              SECOND SESSION

                                  ______

   SUBCOMMITTEE ON THE DEPARTMENTS OF TRANSPORTATION, AND HOUSING AND 
                URBAN DEVELOPMENT, AND RELATED AGENCIES

                 DAVID E. PRICE, North Carolina, Chairman

  MIKE QUIGLEY, Illinois               MARIO DIAZ-BALART, Florida
  KATHERINE M. CLARK, Massachusetts    STEVE WOMACK, Arkansas
  BONNIE WATSON COLEMAN, New Jersey    JOHN H. RUTHERFORD, Florida
  BRENDA L. LAWRENCE, Michigan         WILL HURD, Texas
  NORMA J. TORRES, California
  PETE AGUILAR, California


  NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.


       Joseph Carlile, Winnie Chang, Josephine Eckert, Angela Ohm,
              Sarah Puro, Rebecca Salay, and Gladys Barcena
                            Subcommittee Staff

                                 ________

                                  PART 5

                                                                   Page
                                                                   
  Department of Transportation Budget Request ......................  1
.................................
                                  ------                                
                                                                      
                                        
  Department of Housing and Urban Development Budget Request ...... 155
..............
                                  ------                                
                                                                   
                                        
  Federal Aviation Administration Budget Request .................. 235
.................................
                                  ------                                
                                                          
                                        

                                   


          Printed for the use of the Committee on Appropriations
          

                    U.S. GOVERNMENT PUBLISHING OFFICE
43-030                        WASHINGTON : 2021
                           



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio                  KAY GRANGER, TEXAS
  PETER J. VISCLOSKY, Indiana         HAROLD ROGERS, KENTUCKY
  JOSE E. SERRANO, New York           ROBERT B. ADERHOLT, ALABAMA
  ROSA L. DeLAURO, Connecticut        MICHAEL K. SIMPSON, IDAHO
  DAVID E. PRICE, North Carolina      JOHN R. CARTER, TEXAS
  LUCILLE ROYBAL-ALLARD, California   KEN CALVERT, CALIFORNIA
  SANFORD D. BISHOP, Jr., Georgia     TOM COLE, OKLAHOMA
  BARBARA LEE, California             MARIO DIAZ-BALART, FLORIDA
  BETTY McCOLLUM, Minnesota           TOM GRAVES, GEORGIA
  TIM RYAN, Ohio                      STEVE WOMACK, ARKANSAS
  C. A. DUTCH RUPPERSBERGER, Maryland JEFF FORTENBERRY, NEBRASKA
  DEBBIE WASSERMAN SCHULTZ, Florida   CHUCK FLEISCHMANN, TENNESSEE
  HENRY CUELLAR, Texas                JAIME HERRERA BEUTLER, WASHINGTON
  CHELLIE PINGREE, Maine              DAVID P. JOYCE, OHIO
  MIKE QUIGLEY, Illinois              ANDY HARRIS, MARYLAND
  DEREK KILMER, Washington            MARTHA ROBY, ALABAMA
  MATT CARTWRIGHT, Pennsylvania       MARK E. AMODEI, NEVADA
  GRACE MENG, New York                CHRIS STEWART, UTAH
  MARK POCAN, Wisconsin               STEVEN M. PALAZZO, MISSISSIPPI
  KATHERINE M. CLARK, Massachusetts   DAN NEWHOUSE, WASHINGTON
  PETE AGUILAR, California            JOHN R. MOOLENAAR, MICHIGAN
  LOIS FRANKEL, Florida               JOHN H. RUTHERFORD, FLORIDA
  CHERI BUSTOS, Illinois              WILL HURD, TEXAS
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

                 Shalanda Young, Clerk and Staff Director

                                   (ii)
                                   
                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Carson, Hon. Ben, M.D., Secretary, U.S. Department of Housing and 
  Urban Development..............................................   155
    Answers to submitted questions...............................   191
Chao, Hon. Elaine L., Secretary, U.S. Department of 
  Transportation.................................................     6
    Answers to submitted questions...............................    32
Dickson, Hon. Steve, Administrator, Federal Aviation 
  Administration.................................................   238
    Answers to submitted questions...............................   261


DEPARTMENTS OF TRANSPORTATION, HUD, AND RELATED AGENCIES APPROPRIATIONS 
                                FOR 2021

                              ----------                              

                                        Thursday, February 27, 2020

              DEPARTMENT OF TRANSPORTATION BUDGET REQUEST

                                WITNESS

HON. ELAINE L. CHAO, SECRETARY, DEPARTMENT OF TRANSPORTATION
    Mr. Price. The subcommittee will come to order. Good 
morning, everyone. I am pleased to kick off the subcommittee 
hearing season for this and other subcommittees, by examining 
the fiscal year 2021 budget request for our Department of 
Transportation.
    Secretary Chao, welcome back. And thank you for joining us. 
Glad to have you here.
    The infrastructure serves as a foundation for our economy 
and our quality of life. It facilitates the flow of goods and 
services, connects people to employment and educational 
opportunities, and it plays a significant role in our Nation's 
overall welfare.
    There is no question our country requires a massive 
infusion of investment to repair deficient bridges, restore our 
transit systems to a state of good repair, improve our ports, 
build new runways for our airports. We must also make forward-
looking investments in new services across all modes, including 
projects that expand inner city passenger rail, and improved 
options for cyclists and pedestrians, with the renewed focus on 
safety, on environmental sustainability, and on resiliency in 
the face of climate change and other perils.
    On this front it is especially disappointing to see the 
Department continue to push a deeply flawed rule making seeking 
to roll back fuel efficiency standards developed under the 
previous administration. If finalized the proposal would 
increase pollution and emissions resulting in higher public 
health expenditures, and cause consumers millions at the pump. 
I urge the Department to reverse course.
    After seemingly endless Trump administration infrastructure 
weeks that have failed to materialize into meaningful action, 
this subcommittee has done its part to boost investment under 
both the Republican and Democratic House majorities.
    During the past 3 years, beginning out of the chairmanship 
of my good friend, Mario Diaz-Balart of Florida, we have 
appropriated nearly $16 billion above authorized levels for 
highways, transit, rail, maritime and aviation infrastructure 
programs.
    I am proud of what the subcommittee and its members have 
achieved, at the same time, you know, we often call this a down 
payment, I think that is inadequate, and an apt metaphor, it is 
a down payment, but it is not the comprehensive infrastructure 
approach we need. We all know that. We need to find real pay 
force to balance the Highway Trust Fund, and to put us on a 
more sustainable path forward.
    As part of the budget's submission, the administration has 
put forward $810-billion 10-year reauthorization proposal. This 
is certainly an improvement over previous plans that relied on 
unrealistic assumptions about private investment, and sought to 
push cost onto cash-strapped states and localities. But it 
falls short still of the levels proposed by transportation 
leaders in the House and Senate, and the plan lacks significant 
details about policy programs, and most importantly, how all 
this is going to be paid for.
    It is one thing to keep our options open, although the 
expiration of the FAST Act already upon us, the President needs 
to get serious about negotiating with Congress and finding new 
revenues for the infrastructure that virtually everyone agrees 
is necessary for our shared prosperity.
    Turning now to the administration's fiscal 2021 budget 
request, the Department proposes roughly $89 billion in total 
budgetary resources which is $2 billion or 2.3 percent more 
than the fiscal 2020 enacted level.
    However, the request for discretionary budget authority is 
$21.9 billion which is $2.9 billion, or 12 percent below the 
current year. That is a strange move for a President who has 
posed as the champion of infrastructure.
    There are some bright spots, including another robust 
request for the oversubscribed TIGER/BUILD Grant Program. I am 
also especially pleased to see funding for new transit projects 
in the Capital Investment Grant pipeline.
    I will note, however, that the CIG Program at the end of 
the 2019 fiscal year had roughly $1.2 billion in unallocated 
and unobligated carryover funds. Combined with the fiscal 2020 
funds that we just appropriated, that total rises to about $2 
billion, essentially a full year of CIG appropriations.
    We know there are many worthy transit projects across the 
country seeking this funding. We need additional assurances 
backed by action that the Department will administer this 
program in an expeditious manner, consistent with congressional 
intent.
    I also have serious concerns about the treatment of rail 
programs in the budget, which would slash investment in 
Amtrak's busy Northeast Corridor, eliminate the Federal-State 
Partnership for State of Good Repair, and shift the cost of 
long-distance service onto the states.
    These proposals were roundly rejected on a bicameral, 
bipartisan basis this year. We had hoped they wouldn't recur in 
the budget request. Unfortunately, the budget also eliminates 
the popular Port Infrastructure Development Program, it cuts 
NHTSA's vehicle safety programs by nearly 10 percent when we 
were grappling with new safety challenges posed by automatic 
vehicles, large trucks, and distracted driving.
    And finally, while their request would eliminate 
supplemental airport grants, it does propose $35.5 million to 
augment FAA aviation safety activities in the wake of the 
Boeing MAX disasters. There are new talents with critical 
skills, to increase oversight, and to bolster data analysis. We 
provided similar investments in the Fiscal 2020 Omnibus 
package, to ensure that our skies remain safe for the flying 
public. We need to learn more about this proposal, and how the 
agency plans to use these resources.
    So, Secretary Chao, we look forward to your testimony 
today, in working with you to ensure that DOT has the funding 
that it needs to carry out its critical mission. I would now 
like to turn to our distinguished Ranking Member Mr. Diaz-
Balart for any remarks he wants to make.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. And 
thank you for holding this hearing today. This is the first of 
our fiscal year 2020-21 budget hearings. And if this is 
anything like last year, it will be a great hearing season 
under the chairmanship of Mr. Price. I would like to say, Mr. 
Chairman, you are the second-best chairman of this 
subcommittee.
    All kidding aside, he has done a phenomenal job and this 
has been an attitude of working together, it has really been a 
partnership, and I am grateful for the way that you have 
handled your chairmanship, sir.
    Secretary Chao, look, I just need to thank you again, and 
welcome you back to the subcommittee. This is the fourth 
appearance before the THUD subcommittee of this remarkable 
public servant. Since your first appearance before us in 2017, 
together we made some significant progress, improving our 
Nation's roads, railways, seaports and airports.
    In recent years when we have had these budget negotiations, 
dealing with the budget caps, they have emphasized 
infrastructure investments, and the largest portion of new 
infrastructure investments have been at Department of 
Transportation, that you so ably, frankly, lead.
    And I have to tell you, you have been a remarkable partner 
in this effort. I have said this to you privately, and I 
expressed it publicly before, but I think it merits being 
repeated. As well as your team, by the way, and your staff, 
they have done a remarkable job working day in and day out to 
get those resources to our states, and to our localities, but 
doing so while protecting the taxpayer in an efficient manner. 
And so, both you and your staff I think have done a remarkable 
job.
    Our communities are already seeing the results. As you 
know, Madam Secretary, that these investments improve 
transportation networks that help our businesses create jobs, 
and improve the quality of life of the folks that we represent.
    Madam Secretary, you help to celebrate one such example. 
Just earlier this month in Florida, when you announced a grant 
for Port Miami, which will dramatically, dramatically increase 
the capacity of the port to, again, provide the economic 
benefits for the entire region.
    And I want to paraphrase it, you have said it many times, 
my staff reminds me all the time. At another hearing here, you 
talk about how ports are the engine of economic growth in our 
country, and it is so true. Again, thank you for your vision 
and leadership on this project, Madam Secretary, and for 
working with this subcommittee to roll out what is really a new 
port program, infrastructure port program development that was 
created by this subcommittee.
    And so again, no surprise, you have done a great job in 
rolling out that new program. I am pleased to see that your 
budget's request, it places very high priority on DOT safety 
mission, the request of the Federal Aviation Administration of 
$17.5 billion, including full support for the Air Traffic 
Controller workforce, and targeted investments for aviation 
safety.
    The FAA facilities and equipment programs would receive $3 
billion in that budget, which will help us continue to 
modernize air traffic control system. Again, this will improve 
both safety and efficiency which has a high priority of both 
the chairman, and myself, and clearly it has been your priority 
as well, Madam Secretary.
    Transit Capital Investment Grants are slated to receive 
$1.9 billion in our request to meet all commitments on 
currently-funded grant agreements, and an additional $775 
million for new projects that are expected to be ready for a 
grant agreement in 2021.
    Now, I will tell you that working with my constituents in 
Southern Florida and parts of Miami, I have seen firsthand how 
complicated transit projects are to come together, and I am 
pleased that we have such a strong, strong Federal partner in 
that effort.
    I believe this subcommittee has a special role to play in 
advancing our shared priorities for transportation 
infrastructure. In fact, I have said repeatedly that the THUD 
bill, and Mr. Chairman, you have said it as well, right, and 
you mentioned it a little while ago, frankly is the 
infrastructure bill until something else may hopefully come 
along. This is evident in the major investments that we have 
made in recent years through this subcommittee.
    Now I, however, recognize that there is a major task ahead 
of us, as we face the expiration of the FAST Act at the end of 
this fiscal year.
    Madam Secretary, you have outlined a really bold proposal, 
of in essence a trillion dollars in new surface transportation 
investments over the next 10 years. I know you are working 
through the details of this legislative proposal, and I look 
forward to hearing about those efforts today, and in the months 
that come, and working with you on, again, what is a very, 
very, very bold proposal.
    Our infrastructure investments over the next decade will 
help determine America's role in the world for the next 
century. The task clearly will not be easy. So, I will again, 
as we always have, call on my colleagues and the administration 
to come together, and do this jointly for the good of the 
American people, again, to get this job done.
    I am grateful, Madam Secretary, for the attitude that you 
have always had of inclusiveness, of thinking outside the box, 
of looking at things in new and fresh ways, and not just assume 
that because they were done some way for so many years, that 
that is the best way to do that, and I have no doubt that that 
tradition that you have brought to the leadership of your 
position will continue to bear fruit for the American people.
    So, again, thank you, Secretary Chao, for your appearance 
today, but more important for your service to our Nation. And 
with that, Mr. Chairman, I yield back.
    Mr. Price. Thank you. And now we turn to the chairwoman of 
our full committee, Mrs. Lowey.
    The Chairwoman. Thank you very much, Chairman Price, and 
Ranking Member Diaz-Balart for holding this important hearing. 
And welcome, Secretary Chao, and thank you for being here 
today.
    Secretary Chao, you and I had a very productive meeting 2 
weeks ago, and I was very impressed with your candor, your 
knowledge, your willingness to work in partnership. It is my 
hope that we can maintain and grow this very positive 
relationship; and thank you for being here today.
    However, I must note several gross inadequacies in the 
budget, including a $374.5 million decrease for Northeast 
Corridor grants to Amtrak, a $90 million decrease to capital 
investment grants, elimination of Federal State partnership for 
state of good repair grants. No proposal to pay for crucial 
spending for roads, bridges and transit that comes from the 
highway Trust Fund.
    These decreases and eliminations would seriously jeopardize 
safety of the traveling public. These proposals are posed by 
the American people, and bipartisan majorities in both 
chambers. While this proposal was better than in previous 
years, the committee will continue prioritizing safety.
    As I mentioned during our meeting, I am very pleased that 
the Department has made the Portal North Bridge eligible to 
advance toward funding. And I look forward to seeing that 
happen soon, and I thank you very much for your efforts.
    However, neglecting to advance the Hudson Tunnel project is 
a political decision that endangers the safety of travelers who 
pass through the tunnel every day. Our current infrastructure 
is in such desperate need of repair, by preparing for the 
future must also mean ensuring continuity of service, 
sustaining safety and increasing capacity.
    An unplanned closure of the Hudson Tunnel would be 
disastrous for our economy, and disrupt the lives of hundreds 
of thousands of daily commuters. In fact, closure of one of the 
2 tubes in the existing tunnel, a partial shutdown, has been 
estimated to cost the national economy $16 billion. The bottom 
line is that while the Hudson Tunnel project, an entire gateway 
program, is integral to New York and New Jersey, it is so much 
more than that.
    If we don't make the necessary investments in the gateway 
program today, our Nation's greatest economy and security will 
suffer. So, I look forward to a productive discussion today. 
This budget request, however, does not reflect the good work 
that I know we can do together.
    Congress has consistently rejected the administration's 
proposed cuts that would shortchange our national 
infrastructure, instead passing responsible funding levels.
    So, I want to thank you again, for being here today. I look 
forward to your testimony and I look forward to working 
together. Thank you.
    Mr. Price. Thank you. I now recognize Ms. Granger, the 
Ranking Member of the full committee.
    Ms. Granger. Thank you very much. I would like to thank 
Chairman Price and Ranking Member Diaz-Balart for holding this 
hearing on the Department of Transportation's fiscal year 2021 
request.
    Welcome, Secretary Chao. It has been a great honor to work 
with you over the years, and particularly as your role as 
Secretary of Transportation. But I remember beginning as a 
first year member of Congress bringing an almost impossible 
request for my district and you made it possible. And I never 
forget that ever, nor does my district.
    I live in the fourth largest metropolitan region in the 
country, and transportation is greatly important to my 
constituents.
    I appreciate the work that you and your staff have done to 
make life better for the people who live and work in my 
district. I appreciate this Administration's emphasis on 
reducing regulatory burdens and cutting red tape, and I look 
forward to hearing what you have to say about those efforts.
    I also appreciate the safety of our highways and our 
railroads and air traffic system. It remained a major priority. 
I know you personally focused on DOT safety mission. I look 
forward to hearing more about your achievements in that area as 
well.
    We all know there is much work to be done to build our 
infrastructure and ensure the safety of our roads and our 
railways and our skies. I look forward to hearing from you and 
how we can continue to work together to achieve these goals, 
the responsible investment in our Nation's infrastructure, 
Secretary Chao. Thank you for your continued work and the help 
you give to people like me. I look forward to hearing from you.
    Mr. Price. Thank you. Madam Secretary, please proceed. We 
will of course place your entire statement in the record, but 
we will look forward to your presentation for 5 minutes or so 
and then we will have plenty of questions, so please proceed. 
Thank you.
    Secretary Chao. Thank you Chairman Price, Ranking Member 
Diaz-Balart, chairman and ranking of the full committee for 
being here, members of the subcommittee. Thank you for the 
opportunity to discuss the President's Fiscal Year 2021 budget 
request for the Department of Transportation.
    The President is requesting a total of $89 billion to 
support transportation programs, an overall 2 percent increase 
above funds provided in the Fiscal Year 2020 Appropriations 
Act. This represents the largest increase in the budget of the 
U.S. Department of Transportation.
    This funding will enable the department to continue our 
important work in providing Americans with safe and dependable 
transportation, help deliver infrastructure more quickly, and 
prepare for the future in an era of rapid innovation.
    The President is requesting $1 trillion to rebuild, 
restore, and renew our Nation's infrastructure. And this 
request includes 2 parts. First, the President's budget 
envisions a 10-year surface reauthorization proposal that will 
provide a historical $810 billion for surface transportation.
    And then secondly, $190 billion for other infrastructure 
improvements, including bridges and freight bottlenecks. And 
this comprises the $1 trillion infrastructure proposal that 
this Administration has.
    In this proposal we recommend an authorization that 
provides for more flexibility for the states and other 
stakeholders, it includes program and policy changes that will 
help deliver modern infrastructure more rapidly while ensuring 
that both rural and urban areas receive the assistance that 
they need.
    In addition, it provides significant investments for 
rebuilding and repairing highways and bridges by using flexible 
grants and modern innovative finance tools that will help to 
get projects moving more quickly. It is also time to end the 
unreasonable delays that are keeping communities from getting 
the infrastructure that they need.
    So the department's discretionary grant programs address a 
wide variety of infrastructure needs benefiting both urban and 
rural areas. And towards this end the President's discretionary 
budget includes $1 billion for the Infrastructure for 
Rebuilding America, or the INFA Grant Programs. And it includes 
an additional $1 billion for the better utilizing investments 
to leverage developments or build grant programs.
    And with respect to transit, the President's budget 
includes nearly $1.9 billion for the Federal Transit 
Administration Capital Investment Programs, the CIGs. This 
request funds the current portfolio of transit projects that 
have signed full funding grant agreements. And in addition, it 
provides another $925 million for new projects that may become 
eligible for funding during fiscal year 2021. Again, this is 
one of the highest funded budgets for Federal Transit 
Administration.
    Turning to aviation, the President's budget recommends 
$17.5 billion for the Federal Aviation Administration. This 
includes nearly a billion dollars across the programs to 
support the ongoing work of NexGen.
    The President's budget also commits $1.5 billion for 
aviation safety. And this includes an increase of $37 million 
to fund targeted investments to improve FAA's ability to 
respond to specific issues, like Boeing 737 MAXs, analyze 
safety trends, and improve accountability. These funds will 
also be used to establish a centralized organization 
designation authorization office.
    And the President's budget, once again, includes $300 
million for the National Security Multi-Mission Vessel 
Replacement Program. And this program continues the 
administration's effort to replace the aging school ships for 
our State maritime academies.
    Turning to rail, I also want to highlight some key actions 
that the department is taking to advance the restoration of 
assets in the northeast corridor. First, the FRA will release 
an environmental assessment for the replacement of the Sawtooth 
Bridge in the near future. This bridge, a component of a 
Gateway Program, is a key choke point for the northeast 
corridor, transiting about 350 trains each day.
    Second, due to a lot of hard work on the part of New Jersey 
Transit, the Portal Bridge Project Proposal just achieved a 
medium/high rating for the first time. And the Federal Transit 
Administration has been working closely with the project 
sponsors since the new rating makes it eligible to advance. And 
they are working to resolve final details in order to move the 
project into engineering.
    Finally, I'm pleased to report that the department is 
working closely with Amtrak to advance rehabilitation work on 
the existing Hudson Tunnel, also known as the North River 
Tunnel. Given the time, the cost, and the complexity of 
building an entirely new tunnel, the department is working with 
Amtrak to design and validate a faster and more cost effective 
method to improve safety and functionality in this tunnel as 
the first order of business. So beginning rehab work in the 
near term is a right move, and not waiting years for the 
construction of a new tunnel beforehand.
    So new and innovative methods for repairing the North River 
Tunnel, the Hudson Tunnel, while still in operation, could 
allow Amtrak to commence repairs in this tunnel as much as 10 
years ahead of schedule.
    So these are some of the key programs included in the 
President's fiscal year budget request.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you today, and I will be happy to answer any questions 
that you and other members may have.
    Mr. Price. Thank you very much. And I want to lead with a 
question of some urgency.
    It involves the coronavirus outbreak and your department's 
role in the response effort. There are a number of aspects of 
this that I would appreciate your touching on.
    How is the department coordinating with other Federal 
agencies, including the CDC and the State Department, to 
respond to the outbreak? How are you engaging with airports, 
airlines, mass transit agency and other transportation 
providers to ensure that the right data is collected and 
shared? How are you engaging with your international 
counterparts? And most importantly, how are you communicating 
with the traveling public?
    Secretary Chao. Mr. Chairman, thank you for the opportunity 
to answer those questions because they are certainly very 
important. And as you mentioned, the department is a member of 
the coronavirus Taskforce, the main responsibility for 
coordinating response and efforts on this issue is DHS, 
Department of Homeland Security, and of course Health and Human 
Service Department, along with CDC, Center for Disease Control.
    So for the Department of Transportation, that coordinating 
role is one that deals primarily with, as you mentioned, 
airlines, both domestic and international, and working with DHS 
at ports of entry, and also working with the international 
agencies.
    So that coordination role has included being involved in 
the air bridge to bring thousands of American citizens, 
nationals, safely home from China and Japan, to continue air 
and cargo traffic between the United States and China, free 
health screening at 11 designated airports in the United States 
for American passengers who have traveled in coronavirus 
stricken areas. Four, we have been involved in health protocols 
to protect the crews of aircrafts continuing to fly between the 
United States and foreign designations. And five, health 
messages about the coronavirus for airlines to inform their 
passengers.
    And as the President says, these containment measures have 
been effective, but we must be vigilant and plan for the 
possibility of community-based transmission in the United 
States. We will be coordinating similar efforts with transit 
stakeholders as part of this whole of government plan as well.
    Mr. Price. Will you say something about the international 
community, the international counterparts that you are working 
with?
    Secretary Chao. We work with our counterparts, 
international counterparts. DHS, and of course HHS and CDC work 
with theirs as well. But we work with the aviation industry 
internationally to work on screening incoming passengers at 
foreign airports, so this means that we have to deal with 
international aviation authorities overseas. And to date 
approximately 15,000 returning American nationals have been 
vetted.
    And we have also DOT transportation department, has also 
worked with international health agencies to distribute health 
information, placards, brochures to passengers and cargo 
airlines that continue to provide services between the U.S. and 
China.
    We also work with international maritime organizations as 
well, although that is not our main equity. The Coast Guard and 
DHS has the bulk of the responsibility in dealing with cruise 
ships, for example, that come into the United States.
    Mr. Price. Well thank you. We appreciate that update and 
those efforts. And I think we are all coming to realize what we 
have got to prepare for here. We hope for the best of course, 
but prepare for the worst. And your department is going to be 
on the front lines of the effort, as are the transportation 
providers that you work with.
    I will turn to Mr. Diaz-Balart next. I have of course other 
questions, but we will defer and move on with our Ranking 
Member.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. You are putting 
me on the spot by speaking less, not taking a lot of your time, 
right?
    And again, thank you, Mr. Chairman, for bringing up the 
coronavirus issue. And again, Madam Secretary, obviously for 
the fact that you are clearly on top of it.
    Let me just switch the conversation to a totally different 
area, which is the South Florida Air Space Redesign, known as 
Metroplex. So I understand that the FAA is about to undertake 
an air space Metroplex resign in Southern Florida with 
potential airplane noise impacts on communities around Miami 
International Airport. So let me throw 3 questions at you, 
Madam Secretary, if I may.
    In essence, what is the schedule for this air space 
redesign, if you have that? What are the FAA's plans to engage 
the community on the noise impacts of this redesign? And also, 
will the FFA dedicate staff potentially to engage with affected 
communities in the greater Miami area?
    Secretary Chao. Mr. Ranking Member, anything in Southern 
Florida is a priority for us.
    Mr. Diaz-Balart. Can I interrupt you? By the way, you have 
demonstrated that and I am very grateful. Thank you.
    Secretary Chao. Currently the South Central Florida 
Metroplex is in the evaluation stage with the draft EA, 
Environmental Assessment. We expect, hopefully, later this 
spring, early summer, around, hopefully, May 2020. And then the 
final EA and corresponding record of decision, which is 2 very 
important co-joined events on the project, is tentatively 
scheduled for early fall, 2020.
    Implementation procedures are expected in April, June, and 
August 2021. So we are working closely with South Central 
Florida Metroplex. If everything goes according to schedule I 
think you can expect that.
    And as for needed personnel, we have assigned, we believe, 
the needed staff to pay attention to this and make sure that it 
is on track.
    Mr. Diaz-Balart. And again, your staff has been amazingly 
accessible, as you have personally. So obviously I look forward 
to, as that process continues, to stay in touch with you.
    And I am glad the ranking member of the full committee is 
here because in the 2020, again, totally different issue, 
dealing with China now.
    In the 2020 National Defense Authorization Act it included 
the Transit Infrastructure Vehicle Security Act. This 
legislation prohibits Federal Transit Administration funds from 
being used to purchase rolling stock from China state-owned or 
supported companies. That probation takes in effect on 2021.
    The reason that I am glad that the ranking member is here 
is because that is an effort that you started in the 
Appropriations Committee, and low and behold it started getting 
more and more support, for obvious reasons. So I am grateful to 
you for your efforts. I put it in the subcommittee here with 
the chairman's help and everybody else. But that was your 
effort and, again, a very important effort.
    This legislation obviously received bipartisan support. And 
it will provide, you know, critical economic national 
securities protections for the rail industry in our transit 
system and infrastructure. Obviously I have had long-standing 
concerns about that issue is well, and which is why I worked 
again with Ms. Granger and the members of the subcommittee on 
that issue.
    So now 2 months have passed since the NDA enactment, and I 
am hearing concerns that transit agencies are unaware of how 
this law will affect their current and future procurements.
    Just, Madam Secretary, have you had an opportunity to look 
at that, and what steps is DOT taking to comply with this 
legislation, what has the department done to date to inform 
those transit agencies of the prohibition? Because obviously 
some might get impacted. This is a national security issue. And 
I am glad that took place, but I want to make sure that the 
transit agencies around the country are aware of it.
    Secretary Chao. We are very much aware of this issue. 
Obviously this is an important issue with implications that you 
have just mentioned. The FTA is currently working with the U.S. 
Trade Representative's office to confirm which countries are 
impacted by NDA language, and develop direction and guidance to 
inform FTA grantees of these procurement restrictions. So we 
are in the process of preparing that plan.
    And then FTA will likely use its certification and 
assurance processes to enforce this provision as well. So this 
is a top of center issue, we are very much aware of it. And 
obviously it is very much in the press as well.
    Mr. Diaz-Balart. Thank you, Madam Secretary. Mr. Chairman, 
in the 8 seconds that I have left, I am also concerned about 
airports purchasing passenger bridges from, again, state-backed 
enterprise from the Chinese regime. And I will spend some time 
with you, Mr. Chairman, on that as well.
    Thank you for your help and your leadership. And, Madam 
Secretary, it is an issue that I will also bring up to you and 
your staff when we have a little bit more time. Thank you so 
much. Thank you, Mr. Chairman.
    Mr. Price. Thank you. Mrs. Lowey.
    The Chairwoman. Thank you, Mr. Chairman. Secretary Chao, 
good to see you again. I want to make it clear that no one 
disagrees that the existing Hudson Tunnel is in need of 
rehabilitation. The tunnel opened in 1910, that's 110 years 
ago, and was damaged during Super Storm Sandy. But 
rehabilitating the existing tunnel does not increase capacity. 
It is important, and I thank you for your work, but it does not 
increase capacity on the northeast corridor. So, without a new 
tunnel and two new tracks, bringing the system to four total, 
the bottlenecks will continue to limit Amtrak and commuter rail 
which prevents economic growth throughout the northeast. So, as 
we have discussed, just rehabilitating the current tunnel is a 
non-starter.
    So, Madam Secretary, I am pleased the Portal North Bridge, 
a key component of the Gateway program to remove rail 
bottlenecks along the northeast corridor, is now eligible to 
move forward in the Capital Investment Grant process. However, 
in the last year, FTA has finalized only two full-funding grant 
agreements for new start projects, none for core capacity 
projects. Key projects like Portal North and Trans Bay in 
California are waiting. There are more than $600 million in 
core capacity funds that this committee has appropriated which 
FTA has not even allocated to projects. We increased FTA's 
budget last year so it could process these projects more 
quickly.
    So, Madam Secretary, what concrete steps is FTA undertaking 
to hasten the approval of new starts and core capacity projects 
other than small starts projects?
    Secretary Chao. Thank you very much. Thank you for giving 
me the opportunity to clarify that point. I did not say that we 
do not need a second tunnel. Right now, the plan is to build a 
second tunnel, which will take 7 to 10 years, and then go back 
and rehabilitate the current tunnel. And what we are suggesting 
at the Department is can we not do this concurrently, take a 
look at the existing tunnel, repair that while we are preparing 
for the second tunnel. Having said that, the Hudson Tunnel 
still has not been able to earn more than a medium-low rating. 
It has got to get higher. New Jersey did it; and I know the 
competition between New Jersey and New York is fierce; and so, 
New Jersey beat New York to this one, and I am sure New York is 
not very happy about that, but they have got to get their 
rating up to at least a medium-high for us to be able to talk 
about further financing. So, if I can clarify that. Thank you.
    The second thing about FTA, I think the situation is better 
than what you just painted. The Department was allocated all of 
$2.5 billion in fiscal year 2017. So, there is, literally, no 
dollars that is unallocated. Fiscal year 2018, we had $2.6 
billion, and we have allocated everything except for 40.7 
million; and then in fiscal year 2019, we had a $1.57 billion, 
and we have allocated all of that, basically; and just last 
week, we allocated $865 million in fiscal year 2020 CIG Grants. 
So, since January 2017, this administration has awarded 22 CIG 
construction grant agreements; advanced 23 projects into CIG 
project development; and advanced 9 projects into CIG 
engineering.
    So, I think, we are accelerating. In the beginning, we were 
a little bit slow because we were a new team getting into 
place; but, I think, we can take a look at the figures here. I 
think you are pretty pleased with what we have done.
    The Chairwoman. Oh, I see, I am running out of time. I do 
hope that your plans to continue to repair the current tunnel 
move forward because it is essential.
    Secretary Chao. Yes; absolutely.
    TheChairwoman. I worry about and realize it.
    Secretary Chao. Absolutely. We are not saying----
    The Chairwoman. As I look forward--I appreciated that last 
meeting we had--and I look forward to talking to you and the 
Governors of New York and New Jersey and see what we can do to 
move the whole plan, the project, for the new tunnel as quickly 
as we can because we know it is essential. So, I thank you.
    Secretary Chao. Look forward to working with you.
    Mr. Price. Thank you. Ms. Granger.
    Ms. Granger. Secretary Chao, regulatory requirements, 
environmental reviews often delay State and local plans to 
rebuild infrastructure. I appreciate that the Trump 
administration is committed to reducing these burdens. Can you 
outline steps that you have taken to reduce these burdens for 
DOT's grantees; and what are your plans to make further 
progress in this area?
    Secretary Chao. I am so sorry; I did not hear the question. 
Oh. This is a huge issue, obviously, for all of us; for anyone 
of us who care about infrastructure. When I go into different 
communities, I am just horrified sometimes to learn how long it 
takes for new projects to be moved along and finished. So, this 
administration has made it a priority to reduce the regulatory 
burden and streamline the environmental standards without 
comprising safety or environmental protection. So, the 
President's one federal decision was an unprecedented level of 
cooperation and collaboration within the Federal Government 
Executive Branch itself. And late last year, the Department 
announced our rule-on-rules that would codify a series of 
important reforms to the Department's Rulemaking Guidance and 
Enforcement Practices.
    As you have heard, the Hoover Dam took 4 years to build. I 
recently, just last year, 2 years ago, went up to Alaska to 
give one of the final approvals for construction for the 
Sterling Highway. It took 37 years. Clearly, that is 
unacceptable. Communities are not able to function and have the 
quality of life that they deserve when so many of these 
projects are so terribly delayed. So, permitting reform and 
regulatory reform are top priorities of this administration.
    Ms. Granger. That is wonderful. In an area like I live, the 
City of Fort Worth is twice the size it was when I was mayor of 
Fort Worth; and so, that enormous growth, and it has happened 
all over the Dallas, Fort Worth area, and so to wait for the 
highways to catch up without a program like you have got would 
just be impossible to work with. So, thank you very much for 
that; and I appreciate the explanation. Thank you.
    Secretary Chao. Mr. Chairman, I also ask that since there 
is a little lull here, there is also the notice of proposed 
rulemaking on NEPA reform. I think all of us who care about 
infrastructure, we will all agree that there can be 
improvements in NEPA reform without compromising, again, 
environmental standards, without compromising safety. So, it is 
a notice of proposed rulemaking, and public comment is welcome.
    Mr. Price. All right. We will scrutinize that carefully. 
Thank you. Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. Thank you to 
Secretary Chao for being here. Secretary, you were very public 
in your criticism, objections, that is, to the FCC's proposal 
to change how 5.9 gigahertz spectrum can be used. The proposal 
would shrink the amount of spectrum in the band for our 
transportation use from 75 megahertz to 30 megahertz, and 
increase the amount of spectrum available for Wi-Fi. You said 
that the transportation industry needs all 75 megahertz. Can 
you explain in a little more detail why the industry requires 
all of this dedicated spectrum, and what will the operational 
impacts be to the industry if they have to operate with only 30 
megahertz?
    Secretary Chao. This is a really controversial topic; and, 
obviously, the real estate on the spectrum is very precious. 
All I am looking out for is safety; and I just want to make 
sure that as we enter a new world in which technology takes a 
greater role in helping us achieve greater safety when there is 
vehicle-to-vehicle communications going on with Wi-Fi; when 
there is vehicle-to-buildings, vehicle-to-infrastructures; 
vehicle-to-everything communications going on with the Wi-Fi 
that the safety aspect not be compromised and forgotten; and 
that we have the full real estate that is required. I am not 
wed; the Department is not wed to any particular technology. 
There have been technologies that have been talked about in the 
past. We are not wed to any one technology. We believe that the 
consumer should decide.
    Mr. Quigley. And if I could, critics have said that the 
auto industry has had 20 years to use this and just a little 
bit now. How do you respond to those criticisms?
    Secretary Chao. Well, I wonder the same thing as well. I 
think we should be planning for this; and I want to make sure 
that the mistakes in the past are not being repeated in the 
future. And, again, the pace of innovation and technology is 
occurring very rapidly. I want to reserve the real estate.
    May I also say, the other thing also, there is some talk 
about breaking up the real estate, you know, using 
transportation and safety on this spectrum, 5.9, part of it, 
and then move on to take another piece of real estate in the 
spectrum. The problem is we do not know what the ancillary 
impact would be. The Defense Department and the Commerce 
Department all have concerns about adjoining real estate for 
different purposes, uses, what that will do. Will there be 
bleeding of certain impacts from another use of spectrum 
bleeding into their sector, whatever it may be. For us, it 
would be transportation safety issues.
    Mr. Quigley. So, following that though, if technology is 
getting so essential, why has not DOT, at this point, moved 
forward with mandating the use of vehicle-to-vehicle 
communications technology?
    Secretary Chao. I do not think mandating will fulfill the 
goal because the technology is changing so rapidly. Again, we 
are not wed to any particular. The technology is changing so 
rapidly; so, I do not think that the Government should be the 
one deciding what technologies to use; and right now, it is not 
yet set which technology is best. So, we cannot mandate any 
particular technology. All we can do, I think, is to reserve 
the, you know, the spectrum that is deeded. We have an ongoing 
study. I realize that it is taking a lot longer than we ever 
expected, but it is a complicated issue.
    Mr. Quigley. Have you been briefed as to how quickly these 
services could be rolled up to a significant number of 
vehicles?
    Secretary Chao. Yes.
    Mr. Quigley. And?
    Secretary Chao. And I am not--I have been briefed by many, 
many parties, stakeholders. I see no clear answer; I guess is 
what I am saying.
    Mr. Quigley. What is the range that you have been told; how 
long it would take?
    Secretary Chao. We talked to scientist and they will not 
even say how much. Some people think 5 years ago that it would 
have been available 5 years hence, which means today; and 
clearly we are not. I think one of the largest factors is 
consumer acceptance. The technology can be there but if there 
is not consumer acceptance of this new world that we are 
talking about, then the technological pace was slow. But in any 
case, there is no set or superior technology that is 
universally accepted that the Government can say this is the 
best technology, this is what we will deploy.
    Mr. Quigley. Thank you.
    Mr. Price. Mr. Rutherford.
    Mr. Rutherford. Thank you, Mr. Chairman. Secretary, thank 
you so much for being here today. I want to start with the 
safety operations appropriation language dealing with the FRA. 
There is 225 million committed there, but in 1995, the 
Republican Congress at that time actually eliminated this user 
fee that has now been brought back; and we were relying on the 
private sector safety-related investments in rail 
infrastructure technology and equipment. Can you give me an 
idea why the decision was made to bring this fee back now?
    Secretary Chao. I know that you do not like this fee, and I 
know that there are others as well; so, as you mentioned, the 
President's budget does proposed to impose a $50 million user 
fee that would reimburse the Federal Railroad Administration 
for the operational cost of rail safety, inspectors, and 
activities.
    I think the thinking was that, like other regulated 
industries, you know, railroads benefit directly and indirectly 
from the Government's efforts to assure high safety standards 
and so, therefore, it is appropriate for the railroads to bear 
some burden, some of the cost structure of ensuring that 
safety.
    Mr. Rutherford. OK; thank you. I want to shift gears now 
and go to some of the traffic safety grants, and I want to 
thank you, as a first responder myself, for the announcement of 
the Department for the first responder's safety technology 
pilot program, the D2X. Long time coming; love to see that it 
is here. I appreciate that, knowing particularly the number of 
officers and citizens that we lose every year as a result of 
high-speed response. And so, I would like to ask, in last 
year's budget we had asked for the high-risk vehicle events 
study that would really kind of go along with this, I believe. 
Any idea where that study is at right now? It was to look at, 
you know, the fact that we had a 22 percent spike in officer 
fatalities and citizen fatalities.
    Secretary Chao. I am not quite sure. I know that we are 
working on this. In fact, we have a $38 million multi-modal 
first responder's safety technology pilot program. So, let me 
take a look at that for you because, obviously, I----
    Mr. Rutherford. I was not sure if the program grew out of 
that study or not because I have not seen the study. But it 
would make sense.
    Secretary Chao. Let me take a look at it because I 
certainly talk about this a lot, about the need to protect our 
first responders who are putting themselves in harm's way.
    Mr. Rutherford. Absolutely; and we really do appreciate 
that.
    Secretary Chao. Oh, I think--OK.
    Mr. Rutherford. And, if I could, I want to talk a little 
bit about our maritime industry and the tremendous support that 
Florida has received from your office, and recognize, 
specifically the Jones Act. The fact that $154 billion in total 
economic output annually from this program $41 billion in labor 
income for American workers every year. And in addition to 
that, the Jones Act ensures that our defense capabilities in 
readiness are not being outsourced to foreign nations. And in 
my district alone, you know, a $2 billion annual impact from 
our maritime industry because not only do we have the vessel 
operators, the marine terminals, the shipyards, all the workers 
that are engaged in moving the cargo as well. My question is do 
you see any risk or sense that the Jones Act is in jeopardy of 
being weakened or dismantled?
    Secretary Chao. Well, from our point of view, the Jones Act 
is the law, and we need to comply with it. So, there may be 
disagreements from time-to-time within the inter-agency work 
task force on this and, I think, you would know which 
departments would be at odds; but from our point of it, we are 
strong supporters of the Jones Act.
    Mr. Rutherford. Thank you. With that Mr. Chairman, I yield 
back.
    Mr. Price. Thank you. Ms. Watson Coleman.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. It is good to 
see you, Madam Secretary; and it certainly is good news about 
the Portal Bridge Project. I would like to know what sort of 
the next steps, and if you could give us any indication what 
the timeframe would be for us to see money, to dig a hole, and 
to make a new bridge?
    Secretary Chao. Right now, the FTA Administrator, Jane 
Williams, is talking with the Portal Bridge people and, I 
think, the details are important. I think it is a very, very 
positive development that the rating for Portal Bridge has been 
changed to medium-high.
    Mrs. Watson Coleman. Right.
    Secretary Chao. And I have to give New Jersey a lot of 
credit----
    Mrs. Watson Coleman. Absolutely.
    Secretary Chao [continuing]. because they worked with us on 
this, and they were listening. So, that is why the rating 
dropped. So, now it is poised; and Jane is talking with them on 
some of the details. So, they are on the path to engineering if 
all goes well with the discussion of those details. And to book 
engineering, that is a path to financing.
    Mrs. Watson Coleman. Mm-hmm. There is no way of telling us 
if we are talking a year in advance, 2 years in advance? This 
has been such an important project, and it is such a dangerous 
bridge.
    Secretary Chao. Well, they have crossed that hurdle. So, it 
will not be a lack of trying on our part.
    Mrs. Watson Coleman. From time-to-time it would be helpful 
if we could, at least the New Jersey delegation, get an update 
on where we are in this project.
    Secretary Chao. Of course.
    Mrs. Watson Coleman. Thank you; thank you. And thank you 
for the information regarding this sort of new thinking as it 
relates to the Hudson Tunnel. I really have a couple of 
questions. Number 1 is I do not understand how the tunnel could 
be repaired while it is still in service so I don't understand 
what would be happening. And I really believe that this is new 
to us and I am going to ask if you would provide a detailed 
briefing on your plans to the New York and New jersey 
delegations as soon as possible.
    Secretary Chao. Of course.
    Mrs. Watson Coleman. And the third question is, since we 
are not fully embracing your idea that this one tunnel is 
sufficient, one of the problems with the issue for the Hudson 
Tunnel, well, there were two.
    One was that there was a contention that the financing 
wasn't in order but thank you, New Jersey is doing its fair 
share. But the other issue is that the environmental impact 
statement has been waiting forever and ever and the last time 
we had an update there were like 27 items that were supposedly 
identified that needed to be completed in order to have the EIS 
done appropriately. I would like to know when we are on that as 
well.
    Secretary Chao. Of course. We wanted to be responsive on 
the Hudson Tunnel, even though the Hudson Tunnel, despite a lot 
of discussion, has not been able to amend or work on their plan 
so that it meets the medium high rating.
    This is not a rating that the non-career people do. It 
really is a career process.
    Mrs. Watson Coleman. Yeah, I understand that.
    Secretary Chao. OK. So we are not talking about one tunnel 
either. So please, I want to if there is anything that I don't 
want to come out of this hearing it would be that Secretary 
Chao said there is only one tunnel. No, that's not. We are not 
saying that at all.
    Mrs. Watson Coleman. OK, what are we saying.
    Secretary Chao. OK. So we are still in support of what 
ever----
    Mrs. Watson Coleman. A second tunnel.
    Secretary Chao. Of course, yes. Because we, as Chairwoman 
Lowey mentioned, we need to increase the capacity. But right 
now that plan is to fund the second tunnel which would take 7 
to 10 years to build, assuming good conditions and we know the 
projects are always delayed so that's actually a pretty 
optimistic viewpoint.
    Mrs. Watson Coleman. Yeah.
    Secretary Chao. Then come back and fix the existing tunnel. 
We actually took a page from Governor Cuomo's plan. He has a 
project called Canarsie and he hired, he asked the Dean of the 
Schools of Engineering of, I'll wrap it up, Cornell and 
Columbia.
    We want to piggy back on his idea, get those experts to 
come and look at the Hudson Tunnel to see how we can in the 
interim repair it and so because the safety is a major issue.
    Mrs. Watson Coleman. OK. I have 31 seconds.
    Secretary Chao. OK. Sorry.
    Mrs. Watson Coleman. With that in mind, we very much want a 
briefing.
    Secretary Chao. Yes.
    Mrs. Watson Coleman. On what that means.
    Secretary Chao. Yes.
    Mrs. Watson Coleman. How that would be accomplished, when 
it would start, how long it would take. But at the same time, 
we really want to understand our outstanding obligation with 
regard to the EIS on the tunnel, on the Hudson Tunnel and so we 
need a briefing on that as well.
    Because there were specific things that were laid out that 
were not sufficient but we have gotten no update and I think we 
need to have the information in order to know when and where we 
need to go next.
    Secretary Chao. Well, there seems to be great disagreement 
as to what the status and so we will be pleased to update you 
because from our point of view we can't do anything unless and 
until that rating by Hudson Tunnel gets improved.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman. If 
I had more time I would ask about positive train control but I 
hope that if I don't get a chance, someone else will. Thank you 
very much.
    Mr. Price. And if you can stay around that is good. If not 
submit a question for the record, we will cover it one way or 
the other.
    Mrs. Watson Coleman. Thank you. Thank you, Mr. Chairman.
    Mr. Price. All right. Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman. Thank you, Madame 
Secretary, for your service to your country and your 
leadership.
    I am going to kind of throw just a general question out on 
the table. As you know, Interstate 49 runs through my district 
and we were the beneficiaries of a $25 million build grant in 
the last couple of years that was critical to getting the 
Missouri portion of this interstate connected with the Arkansas 
portion of it. Still much more work to be done in the southern 
part of the area where there is some unmet needs and a major 
bridge over the Arkansas River.
    Help me understand the President's policies toward and his 
interest in making sure that we get funding out in the rural 
parts of our country. I know he has made it a priority, it is a 
priority of your administration.
    What can we do to ensure that rural American which is in 
desperate need of having the vitalization to build economies 
and those kinds of things, and there is a lot of good things 
going on in rural America, but what more can we do?
    Secretary Chao. You know, I come from rural America. I 
actually used to be from New York but I am a, now a Kentuckian, 
a proud Kentuckian. And rural America is not looking for a 
handout. Rural America is just looking for equity and parity.
    And in previous administrations, the rural areas of our 
country have been long neglected. Prior to 2017, 70 percent of 
transportation dollars went to urban areas. 19 percent of our 
population live in rural America and yet 46 percent of 
fatalities and accidents occur on rural roads. Even though 
they're in rural America, 44 percent of urbanites, urban 
residents travel on rural roads and the majority of our freight 
movements occur on rural roads.
    So it is absolutely essential that the needs of rural 
America be addressed plus bridges that are in poor condition, 
the predominance, the preponderance of them are in rural 
America. Bridges with weight limitations are in rural America 
predominately. So we need to be making sure that rural America 
is not overlooked.
    So for the first time and since the last decade, we are now 
ensuring that rural America is not overlooked and that there is 
parity and attention and resources.
    Mr. Womack. Well, I appreciate the fact that the 
administration is putting a premium on getting these funds out 
into the rural parts of the country because they desperately 
need them.
    I have a real quick question about contract tower program. 
It continues to be I think one of the FAA's most successful 
cost effective government industry partnerships, especially for 
rural America that we just talked about. And that is the case 
in my district.
    As you know I have got Northwest National Airport and I 
have got some other smaller airports that have contract tower 
partnerships going on. Will this continue to be a priority of 
the administration?
    Secretary Chao. Absolutely. The FAA has fully funded all 
towers participating in this program and they have also 
received six additional applications, all of which are being 
evaluated. So this is a very important part of the FAA's rural 
America----
    Mr. Womack. And may I assume that it fits within the safety 
umbrella of the administration. Well, again, I want to thank 
you for your time here today and for the opportunity to visit 
with you personally in the office and look forward to continued 
dialogue as we work together to make these issues possible.
    Secretary Chao. Absolutely. Thank you.
    Mr. Womack. Thank you. I yield back, Mr. Chairman.
    Mr. Price. Thank you. Ms. Lawrence.
    Mrs. Lawrence. Thank you, Madame Secretary. When we last 
met, I discussed the importance of the build grants to urban 
areas which I represent. I appreciate the equity that we talk 
about but there should never be a preference put on rural or 
urban because America's all of that.
    While I am pleased with the Department's recent $1 billion 
budget request, I remain disappointed with the Department's 
administration of the overemphasis on rural projects.
    In fiscal year 2019, the State of Michigan which includes 
rural sections, did not receive any, that's zero build grants, 
and only received funding for rural projects in fiscal year 
2017 and 2018, while other states received multiple awards in 
both urban and rural communities.
    Additionally, in fiscal year 2018 and 2019, the Department 
opted to not distribute any planning grants. Time and time 
again, cities in my district have told me how difficult it is 
to prepare for large projects and often ask for help in 
securing funds to assist in the initial staging.
    Madame Secretary, can you briefly discuss why the planning 
grants were not utilized in the past and discuss the 
Department's strategy to ensure that communities are well 
equipped to take advantage of these in the future?
    Secretary Chao. It has been this administration's position 
not to have planning grants. There have been so many entities 
which have been receiving planning grants for such a long time 
so we would like to see more action versus them planning, 
hoping that the local entities, State and local entities, can 
also step up to the plate. But I'm always willing to talk more 
about that with you because there are certainly areas that do 
have specific needs.
    Mrs. Lawrence. And challenges.
    Secretary Chao. And challenges.
    Mrs. Lawrence. Yes.
    Secretary Chao. On the issue of grants, I wish that it were 
as--well let me just say the grants are very competitive. So we 
never have enough money. And in most of the grants, the monies 
that we are allotted forms only $1 out of like $11 requested.
    Mrs. Lawrence. If I can ask, Madame Secretary, if we have 
50 states and we have a limited amount of money, how is it that 
certain states and I don't want to start beating a horse here, 
but certain states get multiple grants and other states get 0.
    That is very hard for me to understand how the 
administration is placing a priority on a certain State and 
other States just get totally nothing.
    Secretary Chao. We don't actually place priority on states.
    Mrs. Lawrence. Well, you do have on your administration one 
person assigned to your home state----
    Secretary Chao. That's not true. I don't know how the 
newspapers made that up. I certainly didn't ask that person.
    Mrs. Lawrence. That is not true.
    Secretary Chao. That's not true.
    Mrs. Lawrence. OK.
    Secretary Chao. He happens to be from that State but I 
never asked him to be that, to do that.
    Mrs. Lawrence. OK.
    Secretary Chao. So I think there is--so that is not true.
    Mrs. Lawrence. But they have reaped the benefits of him 
being on that, on your advisory board or commission or 
whatever.
    Secretary Chao. No, I mean, he's----
    Mrs. Lawrence. Well, Kentucky has been the highest 
recipient of grants.
    Secretary Chao. That's not true. Kentucky is 29th in 
population and it's received like 32 ranking in terms of 
grants.
    Mrs. Lawrence. And Michigan has gotten none.
    Secretary Chao. Well, this is a process. I don't want to--
this is a very competitive process. What Kentucky gets, what--
if you look at Illinois for example, Illinois is 12th in the 
Nation in terms of population.
    Mrs. Lawrence. Yes.
    Secretary Chao. They're No. 3 in terms of grants.
    Mrs. Lawrence. OK.
    Secretary Chao. So there are many examples of where there's 
disproportionate share. And a lot depends on the, I don't want 
to say this, a lot depends on, you know, the quality of the 
project, whether it's supported by the entire delegation, how 
it rates through the--what is truly a meritorious process. So 
we are always interested----
    Mrs. Lawrence. Well if I can make my plea then, the 
planning part grants that has been not a focus of this 
administration, obviously Michigan is not doing something right 
because for us to not get anything.
    And even the planning grants, even my rural community 
projects, we only received them in 2017 and 2018. And so I will 
be aggressive in seeking to sit down with you, Madame Secretary 
to discuss this issue. Because for me to answer to my 
constituents how this entire State of Michigan has received no 
grants from this and we celebrate and say we fund the build 
grant and there is nothing left. Thank you.
    Secretary Chao. Well, let's continue talking.
    Mr. Price. Mr. Hurd.
    Mr. Hurd. Thank you, Chairman. Secretary Chao, it has been 
good, great working with you especially on some national 
security issues like in West Texas, the build grants that Texas 
has received has helped a part of Texas that has a 
disproportionate number of traffic fatalities. And it is a 
region that has truly allowed us to be energy independent and 
that goes along way for our national security.
    As you are aware, my home State, the ranking members home 
State, we only get 95 percent of the rate of return from the 
Highway Trust Fund. And that means Texas is the only State year 
to year that is consistently a donor State.
    I know the Texas Department of Transportation and most of 
the Texas delegation if not all of the Texas delegation would 
love to see that 100 percent rate of return like every other 
State is getting. Can you--I am--welcome some thoughts on how 
we can work together to remedy this unfair burden that Texas 
has to share or shoulder.
    Secretary Chao. I understand your concern and your concern 
with Texas being a donor State. The FAST Act basically 
determines all of that. And the current appropriations formulas 
are all in the FAST Act so we don't really have very much 
discretion in setting those formulas.
    And then also with--but within our surface reauthorization 
coming up, that will be our opportunity to relook and 
reconsider all of that.
    Mr. Hurd. So I will work with Chairman Price on that.
    Secretary Chao. It's a very contentious issue.
    Mr. Hurd. I am sure our ranking member will have an opinion 
on this topic when that reauthorization comes. Secretary Chao, 
you also know, most of us select people for the Merchant Marine 
Academies. Texas A&M Galveston, has purchased a new Merchant 
Marine or is looking to purchase a new Merchant Marine ship. 
Part of that is going to be for training for disaster 
preparedness which the Merchant Marines are having an 
increasing role and we have seen that effectiveness.
    My understanding is that in the President's fiscal year 
2021 budget that $300 million is allocated to Texas A&M 
Galveston for that. I just wanted to confirm, is that your 
understanding as well?
    Secretary Chao. The $300 million is for the fourth ship 
which should go to Texas.
    Mr. Hurd. And my last question--I think my last, maybe my 
second to last question, Ms. Secretary, you know the San 
Antonio International Airport, my hometown, my home airport is 
slot constrained. It is a slot constrained airport and in 
giving the, given San Antonio's Military City, USA it is also 
the point from which most of, a lot of our border security men 
and women travel to and in from Texas and from the border 
through the fact that we are restricted from flying directly 
into Ronald Reagan Airport is difficult.
    And to rectify this, we are not going to be able to address 
this issue with--unless the projectionist beyond perimeter slot 
rule is changed. Do you have any suggestions on how we can go 
about addressing this issue without hamstringing current 
operations?
    Secretary Chao. Thank you for raising this. I know that 
it's an issue that's often raised by Congress. Unfortunately, 
DOT's authority in this regard, in this area is limited and it, 
you know, we have historically deferred to Congress on the 
appropriate number of slot exemptions for service to and from 
that airport.
    Mr. Hurd. Are you aware of if some of these rules were 
changed whether that would have impact on the pensions of 
airlines--companies that have previously worked for airplanes 
are receiving pensions from airlines? Is that anything that you 
are aware of?
    Secretary Chao. No, I'm not aware of that.
    Mr. Hurd. OK. That is something that in previous iterations 
of this debate, you know, changing these rules have been 
implied and I haven't been able to confirm that information 
whether that is the case but I appreciate your perspective. 
And, Chairman, I yield back my remaining 18 seconds.
    Mr. Price. Thank you. Mrs. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. And, Secretary Chao, 
it is really great to see you. Welcome to our committee. I want 
to thank you for the call that you made to me a week and a 
half, 2 weeks ago regarding the grants that were funded to the 
Port of LA and Long Beach.
    As you know, the Port of LA and Long Beach are not in my 
district, however, they are a critical infrastructure to my 
district. If we care about foreign trade, I think that we 
should very much pay attention not only to the ports but to the 
35th congressional district that I represent as I host all for 
the infrastructure as it relates to logistics.
    So imagine the impact that the ports have in the quality of 
life for my constituents that are driving 40, 50, 60 miles one 
way to work and the congestion that they have to go through and 
competing and inching their way home or to work with big, big 
trucks, right.
    I want to paint a picture to you. In the morning there is a 
mass exodus in my district at 5 or 6 a.m. Parents are going to 
work. That means children are being left at the front door of 
their school, often unattended because schools don't open until 
about 8 a.m. Two or 3 hours spent on the highway one way to 
work is too much to ask of a community that hosts this huge 
economic engine for our entire country. And that is why I was 
delighted to receive your call that you are looking to the 
community and you are looking to helping to fund port activity.
    I am disappointed, you know, that funding was zeroed out 
and that we are now going to look at the bill and the Infagrant 
to fund that. I think losing focus on specific port funding is 
a mistake. That is my opinion, and I hope that you will not 
lose that focus on inland ports or marine ports.
    I also want to tell you that TOD funding is critically 
important as we connect communities. We do not want to create 
these desert communities like the suburbs that I represent 
where there is very little economic activity and TOD grants are 
critically important to that.
    I represent a very poor working class community, planning 
grants are critically important to us. My cities do not have 
the staffing that is required to adhere and apply for many of 
these grants. You have to have full-time staff in order to 
report back on how they spent the money. I mean it is this huge 
government bureaucracy. We have to figure out a way to 
streamline some of those process to ensure that communities 
like mine are able to apply for that funding and be able to 
access that funding.
    Finally I just want to say that this committee has made it 
really clear that urban sprawl and overwhelming traffic in 
areas like my district are challenges that should be directly 
addressed by our national transportation priorities. Can we 
expect the pilot programs that have been authorized under both 
MAT 21 and the Fast Act to encourage transit planning that 
connect housing, jobs, and mixed use developments with major 
transportation projects, specifically the $10 million that was 
provided for a competitive pilot program to be stood up and to 
be available for communities to apply for?
    Secretary Chao. I don't know too much about the timetable.
    Mrs. Torres. OK.
    Secretary Chao. So I will look into that for you. Clearly I 
understand your concern.
    Mrs. Torres. Right.
    Secretary Chao. And also it is very common sensical. You 
need to have transit to be able to supply communities with the 
resources with which to get jobs, go to school, send their kids 
to school.
    Mrs. Torres. Right. Right. A railroad, although that grant 
was for the Alameda corridor, railroad is important in the 
district. But we have had many, many, many cases of death as a 
result of people not adhering to signs or the lack of signs, 
and railroad safety is a huge problem in the district. So I 
think I am going to stay here and come back for my other 
questions, but I hope that you will stay focused on that.
    Secretary Chao. Thank you. I will.
    Mr. Price. Thank you. Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman. And nice to be with you 
Secretary Chao. Thank you for coming.
    I want to quickly echo Chairman Lowey's concerns about the 
capital investment grants, and note that I am also glad to see 
the funding for the program in your request.
    Yesterday I had meetings with Governor Baker's staff, and I 
know he shared in the recent meeting with you, that MASS DOT is 
going to be applying for core capacity grants for green line 
transformation. And we are very much hoping to engage in that 
process with you and your staff.
    Here are some not so fun facts. Boston is ranked eighth 
most vulnerable to floods among the world's coastal city. 
Boston's low income neighborhoods, where public housing 
projects were built on landfill, are particularly vulnerable to 
flooding. And this is not just Boston, but neighborhoods and 
communities in my district as well.
    Entire neighborhoods in my district could be under water, 
including Logan Airport. And we know that super storms have 
tremendous flooding, can be subject to tremendous flooding and 
significant damage to our infrastructure.
    This committee provided a million dollars in fiscal year 20 
appropriations for the department to work with transportation 
research board on effective ways to measure the resilience of 
the transportation systems. This is an area we take very 
seriously, and we hope that you do as well.
    Can you share how you have used that million dollars and 
how you have tied Federal transportation funding to resiliency 
efforts?
    Secretary Chao. In our current budget we actually have, let 
me correct that. In our surface reauthorization, which is 
undergoing Agency clearance right now within the Executive 
Branch, we actually include provisions for resiliency and 
infrastructure. So that is the first time that it has ever been 
included, and I think that's a very positive development.
    On the $1 million grant, I'm sorry, I do not have that 
handy, and I will certainly look into it for you.
    Ms. Clark. OK. Are there any other areas you can point to 
where you are working to build resiliency and leveraging your 
grant programs?
    Secretary Chao. I am sure there are a lot. I was briefed on 
this, and I just cannot remember.
    Ms. Clark. All right. Well I am sure you will get back to 
me.
    Secretary Chao. If I can, thank you.
    Ms. Clark. Moving on to natural infrastructure. Nature 
based solutions is a great way to help us build resilience, 
whether that is reefs, beaches, use of vegetation. And when 
they are used alongside great infrastructure such as roads and 
bridges, they're very much a cost-effective and sustainable 
solution. I am pleased to see that you released guidance on 
nature based solutions for coastal highways back in August. And 
how can we support you in the amplification and promotion of 
these solutions? And how is Federal highways incorporating them 
into its own projects?
    Secretary Chao. I will be pleased to answer that. I 
actually found the answer to your $1 million. It was in the 
fiscal year 2020 appropriations bill.
    Ms. Clark. Right.
    Secretary Chao. And so it was directed for the 
transportation research board, as you mentioned. And actually 
that effort is currently in development, and the funds are 
being transmitted to TRB for their use.
    We also have a resiliency work group, working group, to 
answer your other parts of the question, established to kind of 
collaborate across all modes, because that was always an issue. 
Each mode kind of dipped their thing in their own silos, but 
obviously this issue requires the overall cooperation and 
collaboration of all the modes, an intermodal basis.
    And then the University Transpiration's Grant Program, we 
have got 37 designated centers involving over 150 colleges and 
universities in excess of $70 million annually to carry out 
research on resiliency. And then, as I mentioned, the surface 
transportation reauthorization proposal will include resiliency 
language for the first time.
    And your question was, if you can just repeat the second 
part.
    Ms. Clark. Well, you gave a partial answer, and I have 30 
seconds left.
    I just want to return to the U.S. Merchant Marine Academy. 
Every year we talk about this with sexual assault. 
Unfortunately, 2 most recent surveys shows 70 percent of sexual 
contact occurs on the grounds of USMMA at Kings Point, New 
York. There is a request to have concurrent criminal 
jurisdiction with New York State. Can you tell me the status of 
that?
    Secretary Chao. We are very concerned about that as well. 
We are glad that you brought it up. Kings Point is now working 
with the Nassau County District Attorney and also the Nassau 
County Police Commissioner in reaching out to discuss what are 
their responsibilities and extending existing co-current 
Federal/State jurisdiction, which is what you were talking 
about. So that effort has been initiated and it is ongoing.
    Ms. Clark. Do you have any timetable for completion?
    Secretary Chao. That is a good question. We will look into 
that.
    Ms. Clark. OK. Thank you. I yield back.
    Mr. Price. Thank you. Madam Secretary, I want to return to 
the question of your oversight role with respect to FAA 
decisions which you referenced, for obvious reasons, in your 
opening statement.
    I realize the relationship because FAA predates the 
department, there are some unique features here. But 
nonetheless, you clearly are the head of the department within 
which FAA is housed.
    Could the department challenge the FAA to integrate the 
work of aircraft certification and flight standards? Could the 
department require the FAA to justify its use of Organization 
Designation Authorization, ODA? What actions has the department 
taken to foster a safety first culture at the FAA?
    And specifically, when the FAA makes the decision to return 
the MAX to service, what questions do you intend to ask of the 
FAA? I realize those are very broad questions, I hope they give 
you a chance though to elaborate the approach you are taking 
and plan to take on this matter.
    Secretary Chao. First of all there is no timeline for 
returning the Boeing MAX, 737 MAX to service. Our number one 
priority is safety, and the FAA has the statutory 
responsibility to ensure that its review of the airplane is to 
its satisfaction before any action is taken on this.
    My responsibility is to ensure that the FAA process is one 
that is free from outside influences, that they are paying 
attention, which they are. To this the FAA is responsible for, 
you know, issuing the air worthiness directives, for example, 
that will be used to address the safety concerns that led to 
the grounding of the MAX.
    The FAA is also the agency responsible for rescinding the 
grounding order, determining minimum training requirements and 
working with the international community.
    I fully expect the FAA to conduct a thorough review of the 
MAX aircraft prior to its un-grounding. And this will include 
examining the recommendations from the various task forces and 
review boards which have been studying this issue. And then as 
Secretary of Transportation I reserve the right to require that 
the FAA take any additional safety action that is needed.
    Mr. Price. Thank you, that is helpful. We will of course 
monitor this very, very carefully, and want to work with you to 
make certain these decisions are responsible, that they are 
adequately justified, and that when it comes to the FAA's 
needs, oversight needs, enforcement needs, that the budget 
fully reflects that.
    Let me quickly turn to the question of budget execution. 
For the past 3 years, in partnership with my friend Mr. Diaz-
Balart, we have appropriated nearly $16 billion above 
authorized levels for highway, transit, rail, aviation, and 
maritime infrastructure programs. As you well know, a 
significant portion of these resources are provided through 
competitive grants to help communities address their 
challenges.
    In fiscal 2019, the committee provided $670 million for 
four passenger rail and other road improvement grant programs, 
including CRISI, and the Federal State Partnership for the 
State of Good Repair Programs. Because the department and FRA 
have been unable to award these grants in a timely manner, the 
Fiscal 2020 Bill directed you to make these awards by May 1, 
2020. So my first question is are you on track to meet that 
deadline?
    Secretary Chao. I sure hope so. We certainly are very much 
aware of that.
    Mr. Price. All right. Well we hope so too. I will take that 
to be an affirmative answer.
    It is imperative that you complete work, of course, on the 
2019 awards, because we have to move forward with the 2020 
awards.
    Secretary Chao. Right.
    Mr. Price. Here we are talking about $2 billion the 
committee provided in the 2020 bill for 10 competitive grant 
programs, including CRISI and the State of Good Repair 
Programs.
    I appreciate that the DOT has initiated the six grant 
cycles, you know, over these 10 programs. But I am concerned 
with the pattern of FRA grant programs lagging behind. So my 
question here has to do with the way these rail investments are 
going to be expedited.
    What does the department and the FRA need in order to 
improve the grant process? Do you need more, does FRA in 
particular, do they need more resources, do they need more 
staff, do they need more prodding and oversight? I mean what is 
your assessment? We are hopeful that we will meet this 
statutory deadline, but there is a broader problem that we need 
to address.
    Secretary Chao. There are so many grants now in the 
Department of Transportation. I was here 27 years ago. We did 
not have so many grant programs. We now have 69 different 
programs, grant programs, discretionary. So it has really 
required agencies to respond in a way they have not before. FRA 
was primarily just a safety organization. Now they are a grant 
making organization. So we just got CRISI grants out this week, 
the NOFO on that. So we are making a priority to be responsive, 
understanding that the committee wants all this out, and we do 
too. We make it a top priority to get all these NOFOs out, 
Notice of Funding Opportunities, and that is very important 
because that sets a perimeter for how applications are to be 
submitted. And if we write them badly, then it creates havoc, 
uncertainty, confusion, with the grant application community. 
And since December of 2019 the department has issued 30 already 
out of 48 total possible funding opportunities.
    So based on our progress to date, I am pretty confident, I 
never want to over promise, that the department's ability to at 
least complete this first phase, which is a NOFO, is proceeding 
according to schedule. And again, we have a very tight 
timeline, and we hold the modes, all the modes, not only FRA, 
very tightly to all these Notice of Funding Opportunities.
    Mr. Price. Thank you for that expression of determination. 
Your perception is absolutely right, that this subcommittee 
puts great stock in this. I personally put great stock in the 
CRISI program. I have been grateful for what that program has 
meant to my home State, I know firsthand. The State of Good 
Repair Grants is also critically important. So, yes, the 
activities have stepped up, the activities have changed over 
time. There needs to be adaptation on the part of FRA and other 
agencies to take on this role. And we need to know if what is 
at the root of some of these challenges is staffing, is 
funding, we need to know that and deal with it sooner rather 
than later.
    Secretary Chao. I understand.
    Mr. Price. Thank you. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Mr. Chairman, thank you so much. Before my 
question, I want to make 2 points. First is on, I know that 
Congressman Torrez, my dear friend, and also I believe it was 
Rutherford, mentioned the ports. And I think others did as 
well. And I would be remiss because I thanked you, Madam 
Secretary, as you need to be thanked, but I also need to thank 
the chairman. Because I would just remind folks that that was a 
program that started in this subcommittee when I chaired it. 
However, it has continued under the leadership of Chairman 
Price. So thank you. I think all of us, by the way, owe you 
also a debt of gratitude, Mr. Chairman, for that.
    Second place, and I think it was Congresswoman Lawrence, 
and she mentioned something which I am glad she did because, 
you know, she is a very knowledgeable person in this 
subcommittee and a great member of this subcommittee, and yet 
there have been so many press reports out there that we kind of 
read and we assume they are true. And so I want to thank her 
for bringing up the issue and the fact that you clarified, 
Madam Secretary, some of the facts on some of the things that 
we have read.
    I mean I just learned now for the first time that Illinois, 
12th in population, 3rd in grants, I hope there is not like a 
distant relative of somebody who may have worked for somebody 
who's a third cousin who once drove by the door of maybe one of 
your staffers and, I don't know, it may be Adam, it may be Ann, 
because if there is, who happens to be from Illinois, then 
you're probably going to get a story saying that you've got 
bias towards Illinois because of that distant cousin who is a 
relative of somebody who drove by your door or somebody who 
knew somebody. And I am glad you had the opportunity, Madam 
Secretary, to clarify that because I read that and it has been 
highly irresponsible reporting. So thank you.
    Secretary Chao. In fact, a senior senator from Kentucky 
complained as to why Kentucky was not getting more.
    Mr. Diaz-Balart. I am not going to go there because I 
imagine that you, right, you must have heard that right.
    Let me talk a little bit about in your budget request you 
highlight a major new large truck crash study to be conducted 
jointly between the Federal Motor Carrier Safety Administration 
and the National Highway Traffic Safety Administration. I 
understand that the last such study was done nearly 2 decades 
ago.
    Madam Secretary, what led you to decide to undertake this 
new major study? You know, what do you hope to learn how that 
might benefit road safety? Just give me some thoughts about 
that because that is a very important and a new major 
undertaking----
    Secretary Chao. Thank you for that question. You are right, 
it has been more than 15 years since the original study. And 
there have been a lot of changes in technology, vehicle safety, 
driver behavior, roadway designs that impact how a driver 
performs.
    So, this new study will help FMCSA identify factors that 
are contributing to the growth in large truck crashes. And on 
January 14, 2019, FMCSA published, in fact, a request for 
information soliciting public comment about how best to design 
and conduct the study. So, thank you for bringing that up.
    Mr. Diaz-Balart. Well, and have you had an opportunity yet 
to figure out, I mean, if anybody knows yet, you know, how long 
that might take and what the cost may be or is that still 
premature?
    Secretary Chao. We do not really, I do not really know yet 
but I will go back and ask that.
    Mr. Diaz-Balart. Well, I am just grateful because, you 
know, and I can't speak for anybody else but clearly this 
subcommittee. But also, the full committee chairwoman is one 
who constantly reminds us of the importance of safety. And so, 
it is something that I am interested in and if you can stay in 
touch with us as you progress and as things move forward on 
that. It is something that I think is important. I want to 
commend you for bringing that up. I didn't realize until I saw 
this recommendation, this thing that you are looking at that it 
had been that long since--and you are absolutely right, 
technology is totally different than it was, again, you know, 
almost 2 decades ago. So, I thank you for that. Mr. Chairman, I 
yield back.
    Mr. Price. Thank you. Ms. Lawrence.
    Mrs. Lawrence. Yes, thank you again, Madam Secretary for 
being here. As you know, the automotive market is beginning to 
shift toward electric vehicles. The State of Michigan is home 
to several auto makers. And the discussion about, even in my 
district, there is a ground breaking announcement that local 
communities are going to start building just electric vehicles.
    Can you in detail discuss the Department's strategy to 
develop a robust EV infrastructure that expands the electric 
grid, designate proper charging signage, improve supporting 
technologies. And please discuss how you are working with the 
Energy Department to ensure that this infrastructure is a 
priority.
    Secretary Chao. Well, I think it is a matter of consumer 
choice. And electric vehicles are currently 1 percent of the 
total cars sold. So, this is an issue in which infrastructure 
is being talked about. We will have to deal with it and perhaps 
a surface reauthorization proposal is the proper place for 
that. We discuss this with the auto makers all the time and 
other interested stakeholders on this. But it is a huge and 
major part of infrastructure development that I think needs 
national consensus.
    Mrs. Lawrence. And I just wanted to emphasize that we all 
have to work together on this. Because we manufacture the cars 
and we can't support them. And so, just to make sure that that 
is a priority. Mr. Chairman, I would like to yield the 
remaining of my time to my colleague, Ms. Torres.
    Mr. Price. Thank you, Ms. Torres.
    Mrs. Torres. Thank you, so much, Mr. Chairman. And 
Secretary Chao I know your time is almost up.
    Secretary Chao. Not at all.
    Mrs. Torres. I really appreciate you being here. As part of 
the FAST Act, the Regional Infrastructure Accelerator 
Demonstration Program was authorized to assist entities in 
developing their infrastructure priorities and financing 
strategies for projects eligible for funding under TIFIA. After 
fighting for funding over the last few years, I secured $12 
million in the fiscal year 2020 to stand up this program.
    Can you tell me what the timeline is for the NOFA to be 
issued so that we can take advantage of that? My concern is 
that California has passed a gas tax so we have some money 
where we could utilize with matching funds if necessary. So, 
this is a critically important program for my district.
    Secretary Chao. We recently went out with the request for 
information to get ideas from stakeholders and I think that was 
important. Because we wanted to get information about how the 
Regional Infrastructure Accelerator Program can best be 
structured so that it is relevant. So, that was done, that is 
positive. And now, we are anticipating doing the NOFA probably 
this spring. So, that took a lot of time but we had to get that 
in place first. So, probably this spring and probably with 
award selection announcements later this year.
    Mrs. Torres. Is it possible for my office to participate in 
that input that you have received or get some information on 
that input that you received?
    Secretary Chao. Sure.
    Mrs. Torres. And then just quickly going back to railroad 
trespassing safety. According to the national strategy to 
prevent trespassing on railroad property, the Department plans 
to conduct trespassing prevention summits. To help develop 
mitigation strategies specifically to the local surrounding 
communities and issues related to deaths on railroad property. 
Can you tell us what the timeline is for those community 
meetings or stakeholder meetings that will eventually happen?
    Secretary Chao. You may remember that I was Deputy 
Secretary of Transportation way back, you know, almost 30 years 
ago. And this was highway rail grade crossing safety issues 
were a huge issue then. And I was always very concerned about 
that. And one of my first priorities coming back as Secretary 
is to focus attention on this.
    So, we have actually done--we continuously try to get 
information out to engage in educational programs to have the 
FRA work with railroads, State DOTs, local governments, 
individual, you know, communities to focus on this issue. And I 
think that has actually reduced fatalities by about 60 percent 
but it is still too high.
    Mrs. Torres. Right.
    Secretary Chao. So, we have about 400 annually. So, we want 
to work with you on this. Because obviously for certain 
communities, it is a huge issue.
    Mrs. Torres. I am going to yield back her time.
    Mrs. Lawrence. Just, Madam Secretary, just wanting you to 
know that I will be following up on what we can do better in 
Michigan. And thank you so much for showing up, it means a lot. 
Thank you.
    Secretary Chao. Not at all, thank you.
    Mr. Price. Thanks. Ms. Watson Coleman.
    Mrs. Watson Coleman. Well I was just wondering whether or 
not the whole issue of positive train control had been 
addressed, Madam Secretary.
    Secretary Chao. No, it has not.
    Mrs. Watson Coleman. Because I know that there is a 2020, 
December 2020 expectation of completion. But I don't think all 
the transit agencies, including the one in New Jersey, are 
necessarily poised to complete in that amount of time. I am 
wondering what you all are doing to either get them there or 
what can we expect in terms of having the time necessary to it 
because it is such an important issue. Thank you.
    Secretary Chao. Oh, we have been very focused on this. In 
fact, we actually have a pretty good report card. The FRA is in 
charge of doing this so we want to work with you. If you have 
any particular entity that is having problems----
    Mrs. Watson Coleman. New Jersey. Well, I don't think that 
we have done everything that we are supposed to do in New 
Jersey.
    Secretary Chao. Right. So, the President's budget requests 
$3 million to support FRA's continued monitoring of PTC 
operations in fiscal year 2021. And all 41 railroads either met 
the December 31, 2018 deadline for fully implementing the PTC 
systems or certified that they will implement an FRA certified 
interoperable system no later than December 31, 2020.
    Upon initiating the commuter rail service in 2019, a 42nd 
railroad, TEXRail is no included in all of this. And PTC is in 
operation in 92 percent of the 57,855 required route miles. And 
only about 25 percent of 236 tenant railroads achieved the PTC 
inoperability. So, challenges remain. But this is a very 
important focus.
    Mrs. Watson Coleman. Yeah, so will we achieve the 100 
percent, all the 58 some odd miles?
    Secretary Chao. It is certainly our goal but there will be 
railroads and short lines that will not be able--entities that 
will not be able to do so. So, we will----
    Mrs. Watson Coleman. So, we will be able to--I am sorry, go 
ahead.
    Secretary Chao. So, the FRA is watching and we are looking 
at it very closely.
    Mrs. Watson Coleman. And so, the other question, I guess 
the concern is that when they are not meeting the deadline, if 
we then impose a civil penalty upon them, it takes the sort of 
money that could possibly accomplish the intended goal of being 
in compliance. So, are we able to waive that as well?
    Secretary Chao. Gosh, I don't know. I am going to have to 
ask the FRA.
    Mrs. Watson Coleman. It seems counterintuitive.
    Secretary Chao. Because actually we have assessed, FRA has 
assessed nearly $400,000 in civil penalties for schedule 
related PTC violations.
    Mrs. Watson Coleman. Yes, I know. Thank you. I yield back. 
Thank you, Madam Secretary.
    Mr. Price. Thank you. We appreciate your appearance, your 
time here this morning, Madam Secretary. And I know we do have 
a hard stop which we have arrived at. I want, on the way out, 
to signal a concern of my own regarding truck safety. Maybe you 
can give me a quick answer on this and if not, we will await 
your answer.
    This has to do with truck underrides. And our fiscal 2020 
bill did direct the Department to implement the 2019 GAO 
recommendations with respect to truck underrides and to 
complete a rulemaking to improve rear guards. I wonder if you 
have any timeline you can report on this morning as to when you 
are going to be able to comply with these requirements. If not, 
we will await your answer for the record.
    Secretary Chao. Yes, we actually have just talked about 
this just yesterday. So, this is a priority. We understand that 
we do have a timeline but let me get that over to you.
    Mr. Price. All right, all right, very good.
    Secretary Chao. May I just add, I couldn't believe--I will 
talk with Representative Lawrence personally about this. But, 
in fact, Michigan has received other grants. So, I will talk to 
her. They have received $533 million in discretionary grants 
including info grants. And so, I will talk to her about some of 
this.
    Mr. Price. Please do that. And that is pertinent to what I 
am going to say right now.
    Secretary Chao. OK.
    Mr. Price. Because if there is more information of that 
sort, clarifications, we will welcome that as we compile the 
hearing record. The staff will be in contact with your staff 
regarding any questions for the record. And if you could return 
that information to the committee within 30 days from next 
Thursday, we will be able to publish a complete transcript of 
today's hearing. So, we would appreciate your cooperation in 
that regard. Mr. Diaz-Balart, do you have any final comments?
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman, I 
don't. Thank you.
    Mr. Price. All right. Well with that, thank you Madam 
Secretary and the hearing is adjourned.
    Secretary Chao. Thank you so much.
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
                     Wednesday, March 4, 2020
                           ----------                              


       DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT BUDGET REQUEST

                                WITNESS

HON. BEN CARSON, SECRETARY, DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT
    Mr. Price. The hearing will come to order. Good morning, 
everyone. Good morning, Mr. Secretary. We are happy to have you 
here.
    We are going to examine the President's fiscal year 2021 
budget requests for the Department of Housing and Urban 
Development. Pleased to have Dr. Carson, the secretary of the 
department here to testify. So welcome back and we will look 
forward to what you have to say.
    Stable housing is a basic human need and the foundation 
upon which people build their lives. Absent a safe, decent, 
affordable place to live, it is next to impossible to achieve 
good health, positive educational outcomes, or reach ones 
economic potential.
    That is why we have said on this subcommittee that we need 
in this country to appreciate the importance of housing, to 
make housing a front burner issue, fully as important as public 
education, as healthcare, as the other building blocks of human 
dignity.
    Across this country, both urban and rural communities are 
struggling to address an affordable housing crisis. Many of the 
people affected are the most vulnerable among us, seniors, 
people with disabilities, low income families with children, 
veterans. Meanwhile, only 1 in 4 families eligible for Federal 
rental assistance can receive it because of budget shortfalls.
    Of course the problem isn't just the quantity of affordable 
housing units, it is also about the quality of those units and 
preserving what we have.
    The threat of carbon monoxide, lead, radon, and other 
hazards continue to pose major challenges for landlords, 
including cash strapped public housing authorities as well as 
HUD's oversight capacity and physical inspection process.
    Residents of the Durham Housing Authority in my home State 
are only the most recent high profile example of the human cost 
of deferred maintenance of public housing stock. We simply must 
do better.
    In the last three fiscal years under both Republican and 
Democratic House majorities and in partnership with my friend, 
the former chairman and current ranking member, Mario Diaz-
Balart, we have provided billions in new resources for public 
housing, for vouchers, for homelessness programs, and grants to 
states, localities, and nonprofits to address housing and 
community development needs.
    But let us be clear. This subcommittee knows that the unmet 
needs in our community our communities are immense. The 
challenges facing HUD and its dedicated employees are vast and 
absent a major infusion of new resources and policy 
interventions, we are not going to be able to effectively 
address this national housing crisis.
    This brings us to the Department's Fiscal 2021 budget 
request which proposes $448 billion in total budget authority, 
that is a cut of $8.6 billion or 15 percent compared to the 
current enacted funding level. This is woefully inadequate to 
the task at hand and honestly, we had hoped for better.
    Mr. Secretary, for several years in a row, you, the 
administration have proposed to eliminate community development 
block grants, the HOME program, the SHOP program, the Public 
Housing Capital Funds, and CHOICE neighborhoods. Not cut, but 
eliminate.
    All of these programs either create new housing or preserve 
existing units. The cuts to the Capital Fund are especially 
baffling given the acute challenges faced by public housing 
communities nationwide.
    There has been a fair amount of presidential posturing 
about homelessness in California and other states but the 
budget proposes a $4 billion reduction to homeless assistance 
grants, precisely the opposite of what we might expect given 
all the rhetoric.
    I also find it troubling that despite a highly touted 
initiative to end HIV in America, the budget request would 
slash funding from HOPWA, the Housing Opportunities for People 
With AIDS, the only program designed to address the housing 
needs of low income people living with HIV, AIDS.
    Despite the overwhelmingly grim picture painted by this 
budget request, there are a handful of bright spots. For the 
first time you do include some funding for new construction 
under 202, housing for the elderly, 811, housing for people 
with disabilities. That is good news and it builds on 
investments this subcommittee has prioritized in previous years 
to address accusing--acute housing shortfalls for the elderly 
and disabled.
    The request also seeks increased funding for lead hazard 
control grants, radon testing, and lead risk assessments, 
carbon monoxide alarms, and a boost for several self-
sufficiency programs.
    Unfortunately, these modest investments are more than 
offset by the draconian cuts and the unrealistic program 
eliminations I mentioned earlier, including funds essential to 
reducing that public housing maintenance backlog in the first 
place.
    As disaster recovery also remains an important area of 
focus for this subcommittee. On December--on January 27, the 
Department issued the long awaited mitigation notice for CDBG, 
DR funding, 145 days after the 90 day statutory deadline. We 
will continue to conduct oversight into the Department's action 
on disaster recovery.
    We also need more information about the new Federal 
financial monitor for Puerto Rico. I reiterate that the HUD IG 
found no major deficiencies with the island's housing 
department that administers these programs. Survivors of 
natural disasters need assistance and support, not rhetoric 
about how messed up their government is, not politics, not 
bureaucracy.
    When it comes to policy proposals to the budget, I would 
like to once again register my serious concerns with the 
Departments so called rent reforms which would essentially 
shift HUD program costs onto residents. These proposals have 
been consistently rejected on a bipartisan basis, I expect that 
will occur again this year, yet the budget includes nonexistent 
savings based on the assumed enactment of these work residents 
and rent increases.
    I am also concerned with HUD's administrative attempts to 
roll back fair housing regulations including the affirmatively 
further fair housing rule and their proposed disparate impact 
rule. These actions represent a fundamental abandonment of our 
obligations under the Fair Housing Act.
    The Department has withdrawn guidance and is considering 
harmful changes to the equal access rule that ensures shelters 
and other homeless providers that accept Federal funds will 
treat individual with dignity in accordance with their gender 
identity. Rolling back these protections would threaten an 
already vulnerable population with additional barriers to vital 
services.
    Finally, I urge the Department to reverse course when it 
comes to the cruel and misguided attempts to block assistance 
to families with mixed immigration status. By the Department's 
own admission, this policy would not save money but it could 
result in the potential eviction and displacement of 108,000 
people including U.S. citizens and legal permanent residents as 
well as the separation of children from their parents.
    So the current state of housing in America should force us 
to ask tough questions about our national priorities. 
Unfortunately this budget proposal would make that affordable 
housing crisis even worse. So we need to work on this.
    And, Mr. Secretary, we look forward to working with you to 
ensure that HUD has the resources necessary to carry out its 
crucial mission.
    I would now like to recognize my good friend and the 
ranking member of the subcommittee, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Chairman Price, thank you so much for 
holding this hearing and for your leadership.
    It is always great to welcome you, Mr. Secretary, back to 
the committee. I would note that 3 years ago this week, March 
2, 2017 is when you were first sown in as Secretary of the 
Department of Housing and Urban Development. I know for you it 
has probably been dog years, right, but again, it is a 
privilege to have you back here today.
    So while obviously we can all have our differences in this 
town, and there are a lot of differences in this town, and we 
can have heated debates about the proper role of the Federal 
Government, for example, I think that we should all commend 
you, Mr. Secretary, for your exemplary leadership of HUD during 
these 3 years. Really kind of turning a department around in a 
way that I think is significant and major improved.
    We have placed new responsibilities on you, Mr. Secretary, 
and your staff and your team to execute nearly $40 billion in 
community development block grant disaster recovery funds. This 
program continues to help communities recover from the 
devastating, whether it is hurricanes or fires.
    But I just want to mention in 2017, we had Harvey, Irma, 
and Maria as well as again more hurricanes and floods and 
wildfires in 2018 and 2019. You have undertaken this task with 
a common sense approach while again, never seeking the 
limelight. It has never been about you, Mr. Secretary, it has 
been about those that, the American people that are struggling 
out there.
    I especially thank you for your work and I have seen it 
first hand, the work that you have done in Florida, in Texas, 
in Puerto Rico to help those communities recover and rebuild 
and make sure that they are stronger than they were before 
those events.
    As part of this recovery effort, we have provided $416 
billion for a new mitigation program. A new mitigation program. 
This program was initiated right here as you know, Mr. 
Secretary, in this subcommittee by Chairman Price, by myself, 
by Joe and Doug and I know that you are working hard and your 
team is working hard to stand up this new program.
    Look, if we can together, together if we can get together 
and do this right, you know, the human and financial cost of 
future events, whether it is hurricanes, wildfires, floods, 
will decline sharply. It is something that has been talked 
about for such a long time but because of the leadership of 
this subcommittee and I am grateful to the chairman, we have 
finally got those funds.
    And again, we are hoping if done right we know that it 
actually can save not only lives but also save taxpayer money. 
This effort to make the communities more resilient is not just 
our business during the supplemental appropriations, but it is 
becoming more and more a part of the base frankly THUD bill. It 
is a major priority as I again as I mentioned for the chairman 
and I want to thank you, Mr. Chairman, for your leadership on 
that issue and you, Mr. Secretary, for working to make sure 
that our community are more resilient.
    I would also note that we entrusted you with major new 
housing investments made possible by the recent budget caps 
deals. This includes CDBG, home and investments in new elderly 
and disabled housing which obviously are a special priority to 
the chairman and to myself.
    The chairman and I have worked to include housing 
investments in our infrastructure initiatives on this 
subcommittee and I thank you again for being a partner, Mr. 
Secretary, in those efforts.
    I am pleased the President's request for fiscal year 2021 
includes and builds frankly on some of these investments, 
including the lead in healthy homes, elderly and disabled 
housing, homeless programs which receive historic, historically 
high requests in your budget.
    Now there is some reductions again proposed, like the 
elimination of community development block grants that the 
chairman just mentioned. And I am, you know, I am pretty 
certain that I know what the House and this committee will do 
with those recommendations.
    However, Mr. Secretary, your track records shows and again, 
this is not words, it is your track record shows that when we 
exercise the power of the purse here in Congress, you prove to 
be a trusted partner, executing those programs to the benefit 
of our constituents and our communities and you do that and you 
do it frankly in a very effective way.
    Mr. Secretary, you know, you know what it is like to not be 
born with everything going your way. You grew up under 
difficult circumstances. You did not grow up with wealth and 
yet, you rose to become one of our nation's top neurosurgeons, 
a successful business man, and now a government leader. And, 
Mr. Secretary, I hope you know that your story is a true 
inspiration to the country and I think all of us and those of 
us who have gotten to know you.
    So however, what stands out for me more than your 
achievements is your dedication to serving others. And you have 
shown that throughout your life, Mr. Secretary, whether as a 
surgeon in the operating room or as a Cabinet secretary working 
to expand opportunities for over 6 million citizens who are 
directly served by HUD's programs, is your again, your 
willingness to serve, to help others, and to do so with 
conviction, but with absolute humility. And I think nobody 
could argue with what I have just said.
    So thank you for your service, Mr. Secretary, I look 
forward to your testimony today and as always, I look forward 
to continuing to working with you as we go through this process 
to serve those folks who truly need help. So thank you and I 
yield back.
    Mr. Price. Thank you. Mr. Secretary, we will of course be 
happy to print your full statement in the record, whatever or 
any attachments you want to include. Ask you now to speak for 5 
minutes or so and then we will turn to questions.
    Secretary Carson. Great. Chairman Price, Ranking Member 
Diaz-Balart, and members of the subcommittee, thank you for the 
opportunity to appear before you today and discuss the 
President's proposed fiscal year 2021 HUD budget. And also 
thank you for the tremendous help that you've been to me over 
these last 3 years and for our organization.
    This is my fourth time testifying before this subcommittee 
to update you on the important work being performed by HUD's 
immensely talented and dedicated staff.
    Our funding plan for the upcoming fiscal year seeks $47.9 
billion, an increase of 8.6 percent over last year's request. 
It proposes increased funding to help our fellow citizens who 
are homeless.
    It calls on Congress to provide a record amount of funding 
to make homes safer by reducing lead-based paint and other 
hazards like carbon monoxide and radon.
    And our budget will continue providing critical resources 
to support for more than 4.6 million low income families HUD 
serves though our rental assistance programs.
    In short, our budget supports HUD's combined efforts to 
provide safe, decent, and affordable housing for the American 
people, while being good stewards of taxpayer dollars.
    In the time I have, I would like to summarize the most 
critical aspects of our budget. First, homelessness has been 
foremost on our minds for recent--in recent months. HUD's most 
recent point in time count found a sharp increase in 
homelessness in California.
    This is stemming the progress we are seeing across the rest 
of the Nation where homelessness was actually down. Our budget 
requests $2.8 billion for homeless assistance grants which 
allows communities to serve vulnerable individuals and families 
who are homeless or at risk of homelessness through a variety 
of proven approaches.
    And in the coming months, HUD will be targeting unspent 
funds to areas of the country experiencing high levels of 
unsheltered homelessness.
    Our budget includes $425 million for one of my top goals, 
reducing home health hazards. In addition to our continued 
focus on lead, this request includes $35 million for carbon 
monoxide detectors and $5 million for radon testing and 
mitigation. Our goal is not simply healthy homes, it is healthy 
people living inside healthy homes. Across our rental 
assistance programs, HUD has requested $41.3 billion to ensure 
all currently served households continue to receive assistance.
    Our budget includes $853 million for housing for the 
elderly and $252 million for housings for persons with 
disabilities. These two programs assist approximately 125,000 
elderly residents and 32,000 people with disabilities pay their 
rent.
    While we are here to talk about our budget requests, I 
would like to point out that not every challenge can simply be 
resolved with more financial resources.
    One of my priorities as Secretary and chairman of President 
Trump's White House Council on Eliminating Regulatory Barriers 
to Affordable Housing is working with Federal, State, local, 
and Tribal partners on eliminating regulatory barriers 
unnecessarily increasing the cost of America's housing supply. 
Not only do these barriers increase cost for consumers, they 
also place a higher burden on taxpayers who shoulder increased 
costs.
    Turning to FHA, I am pleased to report that the most recent 
actuarial report found the Mutual Mortgage Insurance Fund had a 
healthy capital ratio of 4.84 percent, the highest level since 
before the financial crisis. FHA's economic net worth stands 
north of $62 billion, nearly double from last year.
    I want to express to this subcommittee our deep gratitude 
for your support for updating FHA's technology. FHA is 
digitizing portions of its claim process which reduces 
processing time from months to minutes. We are requesting $20 
million to continue this modernization initiative to help FHA 
properly manage risk and completely digitize the loan life 
cycle.
    To support HUD's fair housing mission, our budget proposes 
$65.3 million to continue fighting housing discrimination and 
fund a wide range of services related to equality and fair 
housing.
    HUD is also addressing fair housing through regulatory 
reform and legal cases. We have a new proposed disparate impact 
rule designed to provide plaintiffs with a roadmap for pleading 
stronger cases and an improved Affirmatively Furthering Fair 
Housing rule, which is aimed at increasing affordable housing 
options for families.
    HUD also filed a discrimination charge against Facebook and 
entered into a landmark agreement requiring Los Angeles to 
improve housing accessibility for disabled individuals.
    Finally, I want to turn to the increased role HUD has been 
performing to help communities recover from natural disasters. 
During my tenure, Congress has appropriated more than $40 
billion for long-term recovery needs.
    As we administered this dramatic increase in funding, we 
found the unpredictable nature of the program does not allow 
grantees to plan responsibly or act quickly. In fact, we found 
it takes 2\1/2\ years for the first dollar to reach disaster 
survivors and another 2 years before the community has spent 
most of its funding. By beginning a conversation regarding the 
inadequacies of the current program, we hope to work with 
Congress on reforms that will speed the pace of recovery.
    Mr. Chairman, to conclude, our budget advances the 
administration's key priorities by providing shelter to the 
homeless, making homes safer from health hazards, and 
continuing to assist Americans in need with their rent 
payments. Our budget does this while recognizing difficult 
choices need to be made in order to prevent future generations 
from inheriting a mountain of debt.
    I am proud of the tireless work being done by HUD's nearly 
7,500 employees and are serving every community of this great 
Nation every day. I often say we have the ugliest building, but 
the best people. Thank you.
    Mr. Price. Thank you, Mr. Secretary. Well, let us begin our 
questioning and I want to start with the topic of the hour 
which is critically important, and that is the work we have 
undertaken with the coronavirus, the possible impending 
pandemic. It was announced Sunday that you have been appointed 
to the Coronavirus Task Force. I expect that appointment has as 
much to do with your medical expertise, your career history, as 
it does with your present position. But I want to ask you a 
couple of questions that perhaps will illuminate the 
administration's approach to this and what your role will be.
    First of all, what do you--how do you envision your role on 
the task force? What is HUD's role in the response effort? In 
particular, what is HUD's role in communicating to residents in 
HUD assisted housing and the general public on the coronavirus 
response?
    And then another question I think it is essential to 
highlight and that is, your assurance, I hope you can assure us 
as a health professional, can you assure us that you and the 
task force will be supporting the recommendations of public 
health professionals and ensure that our national response and 
the public communications about the response are based on the 
facts and on sound science?
    Secretary Carson. Yes, thank you. It is obviously a serious 
situation that impacts our country. And the task force that has 
been put together has many extremely capable people that I have 
known for decades. And we are considering all possibilities 
because viruses can be unpredictable.
    And we meet every day and, you know, we all ask, including 
myself, very pertinent questions and seek the advice of all the 
other members as well as people who are outside of the 
committee. We have access to a lot of information.
    And, you know, as far as the housing of the people that we 
serve is concerned, we have sent out information to all of the 
PHA's around the country, thousands of them, regarding best 
practices for keeping people safe. And we will continue to do 
that and update that on a regular basis.
    Mr. Price. Can you say something about messaging and on the 
kind of reliance you anticipate on the best expertise you can 
muster?
    Secretary Carson. Yeah. Well, you know, this is a virus and 
it is transmitted in a way that viruses are, particularly 
respiratory viruses, which means that we have to exercise the 
same kind of precautions that we would for something like a flu 
epidemic. The consequences of this can be more severe than the 
flu, but the same kind of precautions are important. And people 
can still go about their normal lives.
    This is not going to impact most people. And even if people 
were affected, 80 percent or more of them would not have any 
significant consequences from this. It is mostly the elderly 
and people who have underlying conditions that are most at 
risk.
    And we are working with medical experts to come up with 
treatments that will help to ameliorate a lot of the symptoms. 
Because when you are dealing with a viral illness like this, 
you don't necessarily have something that kills the virus right 
away, but you can impact the symptoms and improve the condition 
of the patient. And also, we are working on a vaccine at record 
speed. And all that looks very promising.
    Mr. Price. Well, thank you. I would expect that you 
personally and others on the task force will be involved in 
conveying a message that, in some respects, puts things in 
perspective, provides some larger view of what we are dealing 
with, but also doesn't sugarcoat or minimize the dangers, the 
possible worse-case scenarios.
    Secretary Carson. Absolutely.
    Mr. Price. That is truthful and balanced in that respect.
    Secretary Carson. And that is something that we talk about 
on a daily basis. We want to make sure that it is absolutely 
transparent, it is not sugar-coated, it is not used in any way 
as a political tool.
    Mr. Price. Thank you for that answer. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Mr. Secretary, I 
want to talk a little bit about lead in healthy homes. I would 
like to commend you first for your focus, the focus that you 
have placed on ensuring that Americans are living in healthy 
homes. I assume that your background as a neurosurgeon informs 
this interest. I know you are uniquely aware of the link 
between, frankly, health and a good positive social outcome.
    You have more than tripled the budget for these programs in 
your recommendation. But also, you have done so in your tenure, 
and from just $110 million when you first arrived at HUD to 
$360 million in next year's budget request. This happens to be 
an area where the full committee chairwoman has been a leader 
in for many, many years.
    There are several recent news reports on the hazards 
tenants face in public multifamily project-based housing. These 
hazards include carbon monoxide, lead, and radon and gas, 
radon. So, what is new about this year's budget proposal 
regarding healthy homes that might be different from previous 
years, Mr. Secretary?
    Secretary Carson. Thank you. This has obviously been an 
area of tremendous interest to me having served in Baltimore 
for 36 years in the medical profession, and particularly in 
East Baltimore, there are a lot of children who are impacted by 
lead. And what you discover very quickly is that the 
deleterious effects are long term and are extraordinarily 
expensive. And that is why it is so important to deal with it 
before those consequences become a reality.
    This year's budget contains dedicated funding for carbon 
monoxide detectors for the first time, dedicated funding for 
radon detection and mitigation for the first time. And 
obviously, there is a very intense interest in providing a 
healthy environment, particularly for children who are growing 
up, but also for elderly people.
    When we talk about our Healthy Homes Initiative, we are 
also talking about providing the appropriate type of access for 
elderly and disabled people. We are talking about putting in 
appropriate types of railing in homes for elderly people 
because falls and the results of falls cost us tens of billions 
of dollars each year. And some of that are things that can be 
avoided.
    Mr. Diaz-Balart. Oh, it was on, but I just have to be 
louder. I was pleased to see that you signed the grant 
agreement with Puerto Rico. Again, $8.2 billion for their 
continued recovery after Maria. And you appointed a former HUD 
general counsel to serve as the Federal financial monitor for 
Puerto Rico. Mr. Couch has been in place for over a month now.
    And obviously, we have had conversations about Vivienda and 
Puerto Rico. And so, can you update us on the steps that Mr. 
Couch has taken in his new oversight role to not only help 
Vivienda succeed, which is crucially important, while obviously 
also making sure that we are a good steward for the taxpayer 
money?
    Secretary Carson. Yes. First of all, Robert Couch is an 
extremely talented individual. Served as the general counsel 
for HUD in the past, also has been the president of Ginnie Mae 
and advisor in financial governmental relationships for 
multiple institutions. He has been there for a little more than 
a month now, has established very excellent working 
relationships with the governor there as well as with Vivienda.
    And instead of what some people have said which is another 
layer of bureaucracy, what he really does is act as a point 
person. And that actually facilitates things, allows things to 
get done much faster. You know, he obviously is looking over 
the procurement procedures which, in the past, have been 
different than what we generally expect, let us just put it 
that way, and making sure that things are done according to the 
action plan in real time. So, that we don't wind up a year 
later saying, well, why didn't you do this and why didn't you 
do that, why didn't it get done?
    We have also, you know, put the money in there. They have 
had access to a lot of money, $1.5 billion for more than a 
year. Recently another tranche of $1.7 billion has been made 
available to them. So, there has never been a time when they 
needed money and it hasn't been available.
    But we have to be absolutely sure on the basis of the 
history of that place that we do not voluntarily put money in 
jeopardy. And that is why we put the financial controls in, 
that is why we have the Federal monitor, and that is why we 
have put unprecedented measures in place. And I suspect if we 
hadn't done that, there would come a time when the committee 
would ask us to come here and explain why we put all that money 
into a place without making sure that it was going to be 
appropriately spent for the benefit of the people.
    Mr. Price. Ms. Clark.
    Ms. Clark. Thank you so much, Mr. Chairman, and thank you 
for being with us, Secretary Carson. I first want to address 
the $50 million in homeless assistance grants for domestic 
violence survivors. And tell you a few short stories about the 
critical support that it has meant to survivors not only in my 
district and State, but across the country.
    One of the survivors we have heard from was literally 
living on the streets, sleeping in woods, under bridges because 
she just couldn't get the money together to secure housing. 
With the domestic violence set-aside, it gave her that rental 
assistance to reclaim her life and pave a new future.
    We also heard from a young mom with two children. This mom 
and her 3-year-old actually ended up in the ICU from abuse. And 
after sleeping in her car while 5 months pregnant with her 
other small children, she was connected through the set-aside 
to counseling, housing services, found a full-time job and was 
just approved for an apartment last week.
    And finally, we had an older survivor who had survived 20 
years of physical abuse. She fled her relationship with two 
dogs. The dogs made it very hard to find an appropriate place 
to go. Also ended up sleeping in her car. The DV set aside 
helped her get into her apartment. Yet in your budget, you have 
eliminated this vital lifeline. I wonder if you could tell me 
how you came to this priority?
    Secretary Carson. Well, in the continuum of care package, 
we were able to create 2,800 more units for people who are 
victims of domestic violence. So, you know, there are different 
ways to be able to do this. We are extremely concerned about 
that statistic and will in no way shrink away from the 
responsibility of taking care of abused individuals.
    Ms. Clark. Well, in a related topic, and I think we both 
know that 75 percent of the need is still unmet with this 
particular population, there are also requirements for HUD to 
comply with VAWA, the Violence Against Women Act. And it 
requires you to clarify two housing providers. Their 
responsibilities under VAWA to establish policies and 
procedures for victims requesting an emergency transfer as well 
as really important recordkeeping requirements.
    Given that you have cut this other program, you are trying 
to make do with the other resources you just mentioned. I think 
it is really important that HUD comply with those requirements.
    In January, our staff asked you, asked the Department for 
an overview. We are still awaiting a response. Are you familiar 
with these responsibilities and can you tell me how HUD is 
fulfilling them?
    Secretary Carson. I am familiar with those responsibilities 
and I know that our staff is also very concerned about that 
issue. I will inquire as to why they haven't responded to you 
yet.
    Ms. Clark. That would be great. And I would really 
appreciate a response in writing on how that is being complied 
with and make sure that we continue the care that is needed. I 
appreciate the shout-out for your staff. We all do better when 
our staff is doing better.
    But I am concerned that in the employee viewpoint survey 
morale in your Fair Housing Office, which has lost 10 percent 
of its staff, 35 percent have responded that they are 
anticipating leaving HUD next year. That is a startling number. 
And I think that some of it may come from recent policies that 
especially affect Fair Housing, whether that is the proposed 
rule to reverse shelter access for transgender individuals, 
your personal disparaging comments about transgender people, 
and their quest to search for housing do not help. How do you 
plan to boost morale, retain and recruit staff, especially who 
are there to combat injustice, and can you continue to issue 
discriminatory policies and offensive comments, and expect to 
be able to have the staff you need to complete your vital 
mission?
    Secretary Carson. Well, I am not sure that I agree with the 
premise of your question. I do not disparage anyone. I think 
everyone gets equal rights. No one gets extra rights, and 
somebody--sometimes people interpret that as being against 
someone, number one.
    Number 2, this year, we have a positive balance in terms of 
people coming into HUD versus leaving HUD for the first time in 
10 years, and that will continue to be the case. You know, 
people are free to come and go as they wish, but we try to 
engage everybody in these policies, you know, not just the 
politicals, but the career people, as well, and try to get 
people engaged in conversations about what we are trying to do.
    Ms. Clark. My time has expired, but I would just leave it 
with this, that when you state that big, hairy men, referring 
to transgender women trying to enter women's shelters----
    Secretary Carson. That is not what I was referring to.
    Ms. Clark. Well, that is----
    Secretary Carson. And I made that very clear to the media 
people like to repeat it, but it is not true.
    Ms. Clark. All right. My time has expired. Thank you, Mr. 
Chairman.
    Mr. Price. Thank you. Mr. Rutherford?
    Mr. Rutherford. Thank you, Mr. Chairman. Mr. Secretary, 
thank you for all your service, and thank you for being here 
this morning. Recently, organizations within my district that 
provide housing to the homeless have faced problems with the 
Continuum of Care grant under the HUD after they made their 
Tier 1 announcements for funding, and these programs have made 
no changes in their operations, none whatsoever, and yet, for 
some reason, they have fallen off that list. And we, actually, 
I think increased, what, 6.7 percent to $2.8 million, the 
funding for these homeless programs, and I have been told that 
this cannot be. And so, we are trying to find out why and I 
have been told that this cannot be remedied until the Tier 2 
announcements come out, which these organizations have really--
I mean, this is essential funding for them and, without that, 
what is going to happen is a lot of the folks in these programs 
are going to wind up homeless, on the street, cycling back 
through our jails, and, you know, in a horrible situation. In 
fact, one of these programs of whom--that is--it goes all the 
way back to 2006, and they have been receiving those funds for 
14 years. In fact, they are the only Envision Center in the 
State of Florida.
    A couple questions. Are there differences in today's 
standards for the qualifications versus last year or previous 
years? Did something change in the qualifications? They cannot 
even find out why they fell off.
    Secretary Carson. Right. Yes, I can tell you the answer to 
that. I, personally, have wanted to change the criteria, so 
that we look not at some type of philosophy, such as they have 
to comply with Housing First, but rather what kind of results 
have they gotten? How successful have they been? My hand has 
been slapped by Congress, saying, no, you cannot do that. You 
have to abide by the 2018 rules, which place Housing First at a 
premium. I am still trying to change that because everything we 
do should be based on evidence, not on ideology. That is how we 
get into cycles like this and problems like this. It makes 
absolutely no sense whatsoever.
    Mr. Rutherford. Yep. Look, I would agree if you made an 
assessment to change the standards and rules, but, so, I guess 
my question is was anybody put on notice that these changes 
were going to take place? Because this was really a surprise to 
many when they did not come out on that Tier 1 list.
    Secretary Carson. Well, we are looking at ways that we can 
work around the system, but, in the meantime, we could use a 
lot of help from Congress in doing things that actually make 
sense. And it makes much more sense when dispersing these 
grants to do it on the basis of what kind of results people are 
getting rather than on the philosophy that governs that 
organization.
    Mr. Rutherford. Well, I agree with you on that. The 
outcomes are what matter.
    Secretary Carson. Absolutely.
    Mr. Rutherford. If funding for the organizations that were 
omitted on Tier 1 are not included in the second round of 
announcements, are they going to be informed of what these 
changes might be or----
    Secretary Carson. Well, we are still working to ameliorate 
that situation.
    Mr. Rutherford. Thank you. And do we know when the Tier 2s 
are coming out?
    Secretary Carson. I don't know, specifically, no.
    Mr. Rutherford. Oh, OK.
    Secretary Carson. We can find out for you, though.
    Mr. Rutherford. OK. Is there a process to notify folks when 
they are not going to be on these things or is it just when the 
list comes out, you just see that there is no--there is no 
explanation that goes with that?
    Secretary Carson. I am not aware of a process to notify 
them.
    Mr. Rutherford. To do that?
    Secretary Carson. No.
    Mr. Rutherford. Oh, OK. Let me switch over to FHA for just 
a moment, if I could, very quickly. The volume of manufactured 
home loans being supported by FHA continues to go down, with 
the Title I being almost nonexistent now. The industry, MHI, 
has provided your team with a long list of suggestions on how 
to improve the program, so that FHA can be used by consumers 
seeking to purchase a manufactured home. Where are the updates 
to the FHA's financing program for manufactured homes, housing 
on HUD's overall priority list? And is there anything being 
done to kind of update that and get it out?
    Secretary Carson. Yes. That is a high priority, and we have 
adopted many of those recommendations from the Manufacturing 
Housing Institution, and we have communicated that to them.
    Mr. Rutherford. Thank you. I yield back.
    Mr. Price. I want you to get the specific answer you want, 
so, please.
    Mr. Rutherford. Well, I just wanted to follow up. So, they 
have already been notified now, you are saying?
    Secretary Carson. Yes.
    Mr. Rutherford. And those changes have been made?
    Secretary Carson. We have adopted many of the suggestions 
that they have made, absolutely, and that is very high priority 
because you are talking manufactured housing. You are talking 
10 percent of the population of this country.
    Mr. Rutherford. Especially in Florida.
    Secretary Carson. Absolutely.
    Mr. Rutherford. Thank you, sir.
    Mr. Price. Ms. Watson Coleman?
    Mrs. Watson Coleman. Good morning, Mr. Secretary.
    Secretary Carson. Hi.
    Mrs. Watson Coleman. We know that today's segregated 
communities are the result of discrimination against minorities 
throughout the country's history, and simply combating present 
day intentional discrimination will not undo that segregation 
any time soon. Last year, I asked you about the Affirmatively 
Furthering Fair Housing after you surprisingly suspended the 
2015 rule process. At the time that HUD withdrew the assessment 
tool, that localities were using to analyze fair housing issues 
and set out fair housing goals, and it was stated that your 
agency's intent was to revise the assessment tool and to 
restart the process. However, HUD has now drastically revised 
the regulation, including by revising the definition of the 
Affirmatively Furthering Fair Housing rule so that it no longer 
includes both desegregation and community investments. 
Currently, the rule only focuses on housing availability.
    Can you tell me why HUD changed its reasoning and why it 
is--what is the reason for revising the entire regulation 
rather than the assessment tool, as originally suggested? And 
what is the reason for changing the regulatory definition?
    Secretary Carson. Yes. We were, in fact, concerned about 
segregation and unfairness in housing. So, we looked back over 
the history and we looked at the tools that had been used to 
address it and looked at how effective and efficient they were. 
That current rule that you talked about was completely 
ineffective and just created a lot of bureaucracy, and we said 
what is really creating the segregation? Are there George 
Wallace-type people standing in doorways saying you cannot come 
in here? No. What is happening is that people are segregated 
because they can only afford to live in certain places. They 
only have availability in certain places.
    So, we said let us address that issue and let us use the 
tool because, you know, there were many who suggested we just 
get rid of AFFH altogether, but I believe in the concept of 
Affirmably Furthering Fair Housing. I just want it to be 
effective. So, therefore, we said let us use it to remove the 
barriers to creating affordable housing and putting housing in 
different places and giving people choice.
    Mrs. Watson Coleman. Thank you. That is a good point there 
because that is about--it is about, A, disbursement of poverty; 
and, B, providing of housing, affordable housing, in other 
places, but the rule does not provide a definition of 
affordable housing. That is number one.
    And, number two, what is it that you are doing then that 
advances these opportunities for housing outside of 
concentrated poverty areas or traditional areas? Where is the 
affirmative action that is taking place to counteract the 
generational housing discrimination that has taken place?
    Secretary Carson. By giving the various jurisdictions the 
ability to identify three things in their area----
    Mrs. Watson Coleman. What jurisdictions are you talking 
about?
    Secretary Carson. Every jurisdiction.
    Mrs. Watson Coleman. What, specifically, are you talking 
about when you say ``jurisdiction?''
    Secretary Carson. Every city, every place that----
    Mrs. Watson Coleman. You are talking about local 
municipalities that have been under fair housing discrimination 
complaints?
    Secretary Carson. Yes. The very places that you are talking 
about.
    Mrs. Watson Coleman. So, you are giving them the tools to 
decide to do right when they are in court, most of the time, 
because they have not done right? I am a little confused on 
that, sir, but I need you to answer that pretty quickly because 
I have got a question that is very local-focused that if I do 
not get in, I cannot go home.
    Secretary Carson. Go ahead. Instead of a top down 
government tells you you have to do this according to this set 
of rules, which is going to be different in every single 
community.
    Mrs. Watson Coleman. You are going to go bottom up.
    I am going to tell you what I told Betsy DeVos about 
education. The reason that the Federal Government got involved 
in fair housing and in education was because it was not 
happening on the local levels, and we needed to ensure that 
there was accountability and equity of opportunity, and that is 
what you should be doing.
    I want to ask you about a question about Princeton, New 
Jersey's Public Housing Authority because that is in my 
district. Last October, payments to Princeton were 10 months 
late. Currently, in March, one property has an 8-month delay in 
payments from HUD and another has a 4-month delay. And it seems 
like one of the underlying issues in this is inconsistent 
guidance from public housing and multifamily offices. Can you 
tell me what you are doing to ensure that public housing 
authorities receive timely payments, so that they can continue 
to operate? And would you ensure that the Multifamily Division 
gets proper training and support to process claims for 
reimbursement? Because one of the things that you did do was 
send some technical assistants to Princeton, but the technical 
assistants that you sent to Princeton, multiple occasions, did 
not know how to do what needed to be done, as well. So, I need 
to know hen they are going to get their payments, and when are 
we going to be able to straighten out the system?
    Secretary Carson. That is news to me. We will look into it.
    Mrs. Watson Coleman. Oh, fine. Thank you. Will, then, will 
you get back to us with some writing on that?
    Secretary Carson. I would be happy to.
    Mrs. Watson Coleman. OK, in rather short order because we 
do have a 4-month delay and a 8-month delay.
    Secretary Carson. I am always anxious to hear about things 
that are not going well. Thank you for that.
    Mrs. Watson Coleman. Thank you. Thank you. I yield back. 
Thank you, Mr. Secretary.
    Mr. Price. Thank you. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Mr. Secretary, the President has talked a great deal 
about the growing number of people in California who do not 
have access to housing, but, after all that talk, the new 
budget does not include new funding to address homelessness, 
and, in fact, cuts the Emergency Solutions grants by $10 
million and provides nothing for a program to address the 
specific needs, as Katherine Clark mentioned, for domestic 
violence survivors. On top of that, we have already talked 
about the fact that your budget eliminates programs to increase 
affordable housing stock. So, how do you envision solving 
homelessness with these kinds of reductions and eliminations?
    Secretary Carson. Well, first of all, I would say that the 
President's budget on homelessness requests $2.8 billion, which 
is an advance on last year's enacted budget. So, I am not sure 
it is accurate to say that we are trying to decrease the 
homelessness grants.
    Mr. Aguilar. Well, the chairman mentioned it in his opening 
comments, and we can give you a list of some of the specific 
reductions.
    Secretary Carson. But the numbers are there, though.
    Mr. Aguilar. The budget justification that HUD gave 
references a new initiative to address unsheltered 
homelessness, but it did not have any details. Last year, this 
committee included a provision in the bill that redirects 
unused recaptured funds for homelessness, homeless assistance 
grants, back into the program to ensure that those dollars can 
be used for the purpose that we all intended. You may not agree 
with some of our intent. You may call it bureaucracy, as you 
have mentioned, but that is the legislative intent and that is 
the focus of why we are directing these dollars and that is our 
constitutional obligation. Do you plan to use those funds for 
this new initiative? When can we expect to see a proposal in 
more detail on that?
    Secretary Carson. You will notice, in my opening statement, 
that I did include that, the recaptured funds. And, yes, we 
would, obviously, like to use them for the unsheltered 
homelessness, that--which is the greatest need.
    Mr. Aguilar. I think we would like to see a lot more detail 
than just what was in your written comments. That is fine, if 
that is your answer. I think that we can and should be doing a 
lot more.
    Secretary Carson. That process is in the--as we speak, is 
being worked out, how to best recapture and reallocate those 
funds.
    Mr. Aguilar. OK, and I know--I would hope that you do it 
for the intent of the program. I was a little shocked to hear 
in your response to Sheriff Rutherford that you want to work 
around the system. You know, when we give legislative intent, 
when we give allocations of funding, and then we describe how 
it should be spent, we are not always asking, you know, for you 
to work around the system, to--now, you are free to suggest 
ideas, you are free to work through the administration, through 
the Chairman, obviously, on new initiatives and new programs. 
That is your right. That is your obligation, but it just--it 
shocks me a little when I hear you say that you want to work 
around the system.
    Secretary Carson. It is because I feel an obligation to 
take care of the many people who would be left homeless when we 
neglect to be able to take care of the programs that are taking 
care of them. That is why.
    Mr. Aguilar. And you do not feel we share that same 
obligation to protect our communities and to take care of 
folks?
    Secretary Carson. Well, obviously, some people do not 
because they have tried to handcuff us and say you can only 
take care of people who abide by a certain philosophy.
    Mr. Aguilar. No, well, that is just not--that is just not 
true.
    Secretary Carson. But it is true.
    Mr. Aguilar. I think that is a gross oversimplification of 
the legislative intent, which, by the way--
    Secretary Carson. Well, maybe you will be willing to work 
with us on how to do that.
    Mr. Aguilar. And, Mr. Secretary, you and I have sat down 
for dinner. We sat down with Congresswoman Torres. You know, we 
have talked about, you know, some of these issues before in the 
past. I appreciate having an opportunity, but I think that we 
are doing a disservice, and it just----
    Secretary Carson. Well, let us work on it.
    Mr. Aguilar. And it grossly oversimplifies the 
conversation. If you want to have policy conversations, like we 
did over dinner, and work on some things, you know, that is 
fine.
    Secretary Carson. I would love to.
    Mr. Aguilar. But I think when, in a bicameral, bipartisan 
way, we give guidance on policy, I think it should be followed. 
I think the American public feels it should be followed.
    Secretary Carson. Well, when I say work around it, I mean, 
ways that we can follow it and still take care of the people 
who need to be taken care of.
    Mr. Aguilar. Sure. We are happy to work with you on ideas 
and initiatives in the future. Again, I just hope that--and it 
is something that we have not just seen in this agency, but, 
obviously, throughout the administration, what folks might 
think is working around the system, whether it is diverting 
money to something that was not congressionally designated 
gross changes to transfer in reprogramming authority. Those are 
things that we are trying to work through, and I think that we 
owe it to the taxpayers and the public, in order to get that 
right. So, I appreciate it. Thank--
    Secretary Carson. I think you would agree that the people 
that the congressmen were talking about should be taken care 
of, as well.
    Mr. Aguilar. I agree and when we have bipartisan, bicameral 
language, I believe that the agency should follow it, too. 
Thank you, Mr. Chairman.
    Mr. Price. Thank you. Ms. Lawrence.
    Ms. Lawrence. Thank you. Thank you. It is good to talk to a 
fellow Detroiter. How are you today?
    Secretary Carson. Doing well, thanks.
    Ms. Lawrence. Mr. Secretary, over the years, the Home 
Program has done so well that, actually, in your budget and 
brief you tout the success of it. You named a woman named Jenny 
in Colorado, who received down payment assistance through the 
program, so she can fight homelessness that she had 
experienced, and that she could be transformational. But 
despite this success, you eliminated the Home Program in that 
same budget request. How do you justify that?
    Because since 1992 the HOME Program have invested over $34 
billion to bill and preserve more than 1.6 million affordable 
homes. That seems like a great accomplishment which you should 
be highlighting, and one that I support.
    On a local level, Detroit, our hometown, would lose 7.3 
million in affordable housing assistance if this program is 
eliminated. Could you, please, help me to understand how 
eliminating this program would fulfill the President's pledge 
to strengthen growth and increase the supply of affordable 
housing.
    Secretary Carson. OK. Well, first of all, I don't think it 
is a bad program, I think it is a good program. I think the 
intentions of CDBG are good. Those are good programs. The 
question is, who should fund them, and can they be better 
funded and taken care of at the local level, as opposed to the 
Federal level, when the Federal Government are ready has a $23-
trillion national debt and growing?
    If we don't at some point begin to recognize that, we are 
going to hand to the next generation an untenable situation. So 
it is not that we think they are bad. And I will tell you that 
we are working on revising the CDBG Program.
    Ms. Lawrence. I am troubled to figure out why you eliminate 
something that is working. As a former Mayor, I know that those 
dollars, after we sweep the streets, pay the police and fire, 
keep the lights on, do all the things that we need to do, that 
money was extremely critical, it was like a lifeline. Not only 
in just my community, but in America, across the country.
    I also want to talk about the EnVision Center. In 2017 in 
our hometown of Detroit, you announced the initiative. In 2018 
HUD broke ground for the first EnVision Center in our local. It 
is my understanding that these new centers are meant to connect 
HUD assistant families with tools, but quite frankly, I took a 
tour, and I was a little surprised of what the EnVision Center 
was. It was an empty room with no kiosk, with no pamphlets, or 
anything, it was just an empty room.
    In detail, can you please discuss how the administration is 
using or prioritizing the EnVision Center? Are they adequately 
staffed, funded, and are they promoting the services to local 
communities?
    Secretary Carson. OK. Good question. And thank you for 
visiting the EnVision Center. You know, there are multiple 
EnVision Centers that have popped up over the last year. Some 
of them are doing extremely well, vastly populated with all 
kinds of things, and some of them are more sparse, like the 
ones that you visited in Detroit.
    It is in the process of getting more organizations in it, 
in fact just last week SBA joined there with some programs. And 
if you would like to see an EnVision Center that is functioning 
at high level, we can make that available to you. And it will 
be a good thing because when you see one that is functioning at 
a very high level, I think you would be inspired to go back to 
the Detroit one at Durfee and help make it even better.
    Ms. Lawrence. Is it your intent that local government will 
make it better?
    Secretary Carson. Yeah, it is a local process. You know, 
basically, these things that exist already, and have existed 
for a long time, what the EnVision Center does, is brings it 
together in a place where it is accessible to the people who 
actually need it. And it adds to that some of the government 
agency--
    Ms. Lawrence. How much money is being allocated to the 
EnVision Centers?
    Secretary Carson. I don't think any money is being 
allocated to, it is done locally, and it is owned locally. We 
just help facilitate it.
    Ms. Lawrence. I yield back.
    Mr. Price. Thank you. Mr. Hurd?
    Mr. Hurd. Thank you, Chairman. Secretary Carson, it is good 
to see you again. And I have got to start off by saying thanks 
for coming to my hometown in San Antonio. I was stuck up here, 
but you are always welcome in the Alamo City to El Paso.
    Secretary Carson. Thank you.
    Mr. Hurd. And I think the visit went really well. And 
speaking of El Paso, I recently met with some of the Native 
American Tribes in my district, the Tiguas in El Paso, and 
during the conversation they brought up the Native American 
Housing Assistance and Self-Determined Nation Act and, you 
know, this authorizes and administers Indian housing programs 
within HUD.
    This hasn't been reauthorized since 2013, right? This is 
responsibility of this body, and I would welcome your thoughts 
on this program, and is this something that you think Congress 
should reauthorize?
    Secretary Carson. I think of that as a tremendous program. 
I first heard about it 3 years ago, when I entered this, and I 
was wondering why it was being re-upped at that. We would very 
much support the effort, and willing to work with you in 
fashioning whatever legislation is necessary, because it has 
provided a lot of flexibilities for the tribes, and tremendous 
progress.
    Mr. Hurd. Just to be clear. You are for it?
    Secretary Carson. Absolutely.
    Mr. Hurd. All right. Mr. Chairman, I am looking forward to 
working with you on this as well too. It is a program that not 
only helps the tribes in my district, but across the country, 
and I appreciate your support. Something, Mr. Secretary, I know 
you believe in stable housing as a prerequisite for economic 
mobility, and we know student achievement is maximized when 
people go to a good, stable home.
    You know, younger, low-income children and families that 
use housing vouchers in neighborhoods with better opportunities 
earn more in their lifetime, and the housing choices we make 
today are going to have generational impacts.
    With that in mind, I am curious to the administration's 
position on eliminating housing programs like HOME, and CDBG, 
in cutting the housing choice voucher program and whether that 
is a wise decision.
    Secretary Carson. Well, first of all, the Housing Choice 
Vouchers are not being cut. What you are probably looking at is 
last year's enacted amount which was $23 billion 824, and then 
you look at this year's and it said $18 billion 833.
    What you need to know is that $5.185 billion has shifted to 
the Moving to Work tranche. So, when you add those two 
together, just taking care of the same number of people, that a 
much greater emphasis on self-sufficiency type programs. When 
you add those two together, it is $24 billion and $68 million, 
which is actually $194 million more than enacted last year for 
the same people.
    Mr. Hurd. And that is why we have these hearings. So, 
Rental Assistance Demonstration, the RAD Program that 
prioritized the redevelopment of public housing properties that 
are located in the opportunity zones. And could you expand on 
how HUD will work with cities like San Antonio and El Paso, to 
advance the construction of new units of affordable housing 
inside the opportunity zones.
    Secretary Carson. Yes. Yes. Thank you for asking that. 
Obviously the opportunity zones themselves, have provided a 
tremendous opportunity to develop areas that have been 
traditionally neglected. And what we are going is trying to 
incentivize some of the construction by providing our senior 
administrators to help facilitate the program by reducing the 
application fees when they are done in opportunity zones, 
multi-family housing, but allowing mixed use facilities to have 
certain tax advantages. All of those things will facilitate 
affordable housing.
    And also recognize that, you know, we elicit from the 
people in those zones. There are 35 million Americans that live 
in opportunity zones, 2.4 million of them are HUD-assisted 
individuals. We elicit information from them about what kinds 
of projects would be helpful to them. And people can also go to 
OpportunityZone.gov to gain a lot more information about what 
is available.
    Mr. Hurd. That is helpful, Secretary. And what is your kind 
of philosophy on how do we ensure that we don't inadvertently 
lead to displacement of low-income residents from these 
opportunity zones? That is a question I get asked a lot, and I 
am sure it is a topic that you have put your considerable 
intellect onto.
    Secretary Carson. Absolutely. And it is something that we 
pay a great deal of attention to, that is one of the reasons 
that our Executive Director of the White House Opportunity and 
Revitalization Council, Scott Turner, visit so many places as 
the various projects are being carried out, and that will 
continue to be the case.
    Mr. Hurd. We copy. Thank you. Mr. Chairman, I yield back.
    Mr. Price. Thank you. Here, at the midstream point, before 
we turn to Ms. Torres, I want to just interject a couple of 
items that I believe will be helpful in terms of earlier 
exchanges. First of all with respect to Mr. Rutherford, and his 
indication that his grantee was having trouble with the Fiscal 
2019 continuum of care process.
    And your answer, Mr. Secretary, was to object to 
constraints that have been placed on you.
    Those constraints did not apply to that NOFA. The process 
Mr. Rutherford is referring to, you were free to write in any 
way you wanted. The bill language that you were objecting to, 
and we will save that discussion for another day, but the bill 
objections that you were objecting to applied to the 
requirements that had been in the NOFA for 2018, and then were 
applied from 2020 forward.
    So, I believe you may want to check and supply information 
for the record, and deal with Mr. Rutherford, in terms of that 
response. I believe you did have full flexibility in the 2019 
process.
    Secretary Carson. All right. Thank you.
    Mr. Price. And then as regards the confusion about cuts in 
the Homeless Assistance Grants budget, your budget 
specification shows a $4 million cut from the level this 
committee provided in fiscal 2020. So, again, there may be some 
confusion here.
    I believe what you are doing is comparing your request from 
last year's budget request, which indeed is an increase. But 
compared to the funds we provided it is a cut. I think that 
also will prove to be the case for homelessness.
    Secretary Carson. For Homeless Assistance grants?
    Mr. Price. That is right.
    Secretary Carson. But for homelessness, the entire package 
of homelessness, 2.8 is more than what was granted last year. 
Last year it was like 2.6-something.
    Mr. Price. All right. We probably will need to clear this 
up for the record. But the appropriations for 2020 was 2.777, 
the 2021 request is 2.773, close, but not an increase.
    Secretary Carson. I think I have to go back and look at the 
numbers that I have because they are little bit different.
    Mr. Price. All right. We will clear it up for the record. 
Ms. Torres?
    Ms. Torres. Thank you, Mr. Chairman. And thank you, 
Secretary Carson for being with us today, and for visiting the 
district. I am going to associate myself with several comments 
that the 3 Mayors, Former Mayors have made here, including 
myself.
    This is the fourth time that you have here before our 
Committee, and each time, you know, you have defended budgets 
that drastically cut critical housing benefits that help 
millions of Americans, Americans in my community and everywhere 
in the U.S.
    Each and every time Congress has rejected those cuts in a 
bipartisan way, each and every time, so it is insanity that we 
would continue to push against what Congress has already been 
very, very clear about, that we do not support those cuts. For 
example, this budget eliminates the Public Housing Capital 
Fund. The first new housing resource in decades, exclusively 
targeted to build and preserve affordable housing.
    It also eliminates the Choice Neighborhoods Program, which 
provides resources to communities to build and rehabilitate 
affordable housing, and eliminates the HOME Investment 
Partnership programs, the largest Federal program dedicated 
exclusively to increasing the availability of adequate 
affordable housing for a very, very low-income families.
    In the Department's own budget, you cite a woman from 
Georgia, and I have blown up a printout of it for you. In your 
own words, you know, you talk about how this very successful 
story, how she transitioned from assisted housing, and 
highlight, you know, her success of becoming a homeowner, which 
is what we all strive to.
    The problem is that while you are promoting the story, and 
promoting the great work that all of you did helping her, your 
budget completely cuts this program. Given all the cuts, how 
can this Committee, and more importantly, the American people, 
take this administration seriously? That you really want to 
deal with homelessness in our community? That you really 
believe that helping our local cities, and counties, and local 
jurisdictions; that they can do better when you are failing to 
provide the proper funding that they need?
    You know, as a Former Mayor, City Councilwoman and State 
Legislator, I take this seriously. And I also believe that the 
Federal Government has a role to play.
    Let me give you an example why we need to have some 
oversight, and ensure that we are providing assistance to our 
communities. Not in, you know, words, but actual funding. All 
of our communities are strapped for funding. They are working 
really hard to try to balance their budget every single year.
    In the city of Los Angeles, they had an issue with 
asbestos, inner flooring. Now, the city under OSHA, CAL OSHA, 
because they were exposing their workers, children, and the 
people that lived in those communities, and they refuse to stop 
issuing work orders, enforcing their employees to remove the 
asbestos flooring.
    They were given a LOFA violation. So in cases like this, of 
gross negligence, of gross incompetence, there is a need for 
the Federal Government to step in and say, we need to do 
better. And where are the funds to ensure that we are improving 
these housing units, so that children can grow up in an 
environment that is healthy for them?
    So, I would like for you to address some of the comments 
that I have as it relates to these horrific cuts that you are 
proposing.
    Secretary Carson. It is very difficult to get the concept 
across that I like those programs. I think they are good 
programs. Can we afford them when we continue to create the 
kind of debt that we are going to pass on to the next 
generation and ruin their lives.
    Ms. Torres. I agree with you 100 percent. I was in a State 
Legislature when we shut down California for 6 months. We had a 
$15 billion deficit. However, the Republican Congress has 
proven that they are not serious about doing that. When they 
gave those tax cuts for the top 1 percent, and put us trillions 
into--added trillions to our deficit. So how can you say that?
    Secretary Carson. Well, I am not saying that you should get 
rid of the program. I am saying that the program should be 
funded by the State. Not necessarily by the Federal Government. 
We have already demonstrated that these programs work, OK, that 
was good. But can you continue to do something, can you sail 
toward an iceberg that you know is going to kill you? Well, 
maybe you should change your direction.
    Ms. Torres. Maybe we should stop helping the top 1 percent, 
and start helping the poor working-class communities across 
America that are the backbone of our economy.
    And I yield back.
    Mr. Price. Thank you. Mr. Quigley?
    Mr. Quigley. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. I guess for us round four, I just feel 
obliged. Ms. Clark referenced the nondiscrimination guidance 
for LGBT individuals under the Equal Access Rule. Again, we 
have been talking about this for some time. Where we left it 
last year, you were not going to replace the guidance that 
instructs providers how to do this. And I want to paraphrase, I 
want to make it right. He said I wouldn't like the guidance you 
put up, and I believe presumably because in my mind it would 
allow or promote discrimination against LGBTQ, particularly the 
trans community. It is still not up. How does the program 
operate, how does the law that requires equal access work 
without guidance?
    Secretary Carson. Appropriate guidance is going to be put 
up, it is being worked on. But the reason that I said --
    Mr. Quigley. For your reference, that is the third year in 
a row you have said that, sir.
    Secretary Carson. The reason that I said that, the reason I 
said you probably wouldn't like it, is because from what you 
have said in the past, you don't agree with my statement that 
everybody gets equal rights, but nobody gets extra rights.
    Mr. Quigley. Who gets special rights in non-discrimination?
    Secretary Carson. Well let's put it this way----
    Mr. Quigley. You will find it is someone they have to get 
special rights just to use the shelter?
    Secretary Carson. I can tell you the answer. When you have 
a single sex shelter and it is there specifically for women who 
are abused, and then people come in who do not appear to be 
women but they say they are women and you have to accept them, 
does that impinge upon the rights of those women? We have a lot 
of documentation from those women that says it does impinge 
upon their rights. So if you can give, and I said this when I 
came to Chicago and spoke with your group, which I enjoyed 
being with them, I thought they were great people. But I said 
this, if you can show me how you take care of that individual 
who, the only thing you want to do is go on the basis of what 
they say their gender is, you can show me how to be fair to 
them and at the same time be fair to those women who are saying 
they are very uncomfortable with that, I am all ears.
    Mr. Quigley. You are the only person I have ever heard 
bring up that issue. And in 3 years, first of all, in 3 years 
we don't have the guidance, which belies any credibility you 
have that, respectfully, that this is ever going to happen. So 
that means in 3 years the protections haven't been in place. 
You have never documented what you just talked about and the 
extraordinary, I cannot even begin to imagine how people feel.
    So you are telling the trans community that because of how 
you perceive how some people react to them, it is OK to 
discriminate against them?
    Secretary Carson. I have lots of letters from women's 
groups. It is not just how I perceive it.
    Mr. Quigley. So let's just assume for a second that there 
is some people out there who object to this. You are saying 
that because some people think it is OK to discriminate, that 
you have to go along with that too, despite the law.
    Secretary Carson. That is not what I am saying at all.
    Mr. Quigley. But you are saying that if someone doesn't 
like someone else in that shelter, for whatever reasons, that 
you can allow discrimination against those people.
    Secretary Carson. No, what I am saying is we have to take 
everybody's feelings into consideration. You cannot just select 
a group and say that their feelings trump everyone else's 
groups.
    Mr. Quigley. It goes back to the basics. There have always 
been people who discriminate against others. What you are 
saying is those people have the right to do that and therefore 
the Federal Government can back up that right to discriminate. 
And let us understand----
    Secretary Carson. That's not true.
    Mr. Quigley [continuing]. these are people who are going to 
be on the street. Is this discrimination that you are hearing 
about, is this based on, what, their notion of what their faith 
tells them it is OK to hate other people?
    Secretary Carson. I want everybody to be taken care of, and 
I have suggested----
    Mr. Quigley. But they are not if they are not being allowed 
to participate because somebody else thinks it is OK to 
discriminate.
    Secretary Carson. I suggested that there are ways to do 
that. There are----
    Mr. Quigley. And you are telling the trans community that 
they cannot make a decision as to what they are, that they are 
not best----
    Secretary Carson. I am saying that no one's rights get to 
obliterate everybody else's rights.
    Mr. Quigley. You are pretty well obliterated when you are 
on the street and you are not allowed to be in the facility, 
you know, that's the fundamental right that is being taken care 
of, not your notion that someone else feels it is OK to 
discriminate.
    Secretary Carson. Can you do this for me? Can you, because 
I know you are passionate about this issue. Can you come up----
    Mr. Quigley. I am as passionate as the people on the 
street.
    Secretary Carson. Can you come up with a way that is fair 
to all the different groups that are involved?
    Mr. Quigley. Yes. There is no discrimination. You cannot 
discriminate because there are some people who you tell us say 
they don't like other people because of the way they look.
    Secretary Carson. We agree on that. I am still asking you--
--
    Mr. Quigley. We do not agree. First of all, I want to make 
clear we do not agree on any of that.
    Secretary Carson. I am asking you to come up with a 
solution that takes into consideration----
    Mr. Quigley. The law says you cannot discriminate, that's 
my solution.
    Mr. Price. We will begin our second round of questions. And 
I want to start with an example that is very close to home for 
me. And I am sure you know about it already.
    The Durham Housing Authority has had well publicized 
problems involving carbon monoxide exposure, lack of heat, and 
numerous other issues. The development we are talking about is 
called Mcdugal Terrace. It received failing inspection scores 
for years, and that was not because of carbon monoxide. Carbon 
monoxide testing was not part of that process, but they still 
failed.
    Hundreds of residents, including families with small 
children, had to be evacuated due to high levels of carbon 
monoxide. And the housing authority is currently conducting 
emergency repairs and moving people in as fast as they can.
    It has become painfully obvious that our public housing 
stock has deteriorated to the point of mortal danger for 
residents.
    I want to thank your field office, the Greensborough HUD 
field office, the people who have assisted our housing 
authority. I understand that Durham is requesting funding from 
the Public Housing Emergency Capital Fund to reimburse some of 
these repair expenses.
    So I first of all want to ask for your commitment that HUD 
will continue to work collaborative with Durham during this 
crisis, and that you will ensure the delivery of any and all 
Emergency Capital Funds that Durham is eligible to receive.
    Secretary Carson. We have been working very closely with 
them, we want to make sure that they are taken care of.
    Mr. Price. So you are giving me that commitment today?
    Secretary Carson. Absolutely.
    Mr. Price. All right. Thank you, I appreciate that. I want 
to now broaden this a bit to recollect that deaths due to 
carbon monoxide poisoning were reported at South Carolina last 
year. And in that context, you indicated that you planned to 
move forward with the rule to require PHAs to install carbon 
monoxide detectors in certain units. And you referred earlier 
today to grants that you have released to purchase and install 
carbon monoxide detectors, but no rule has been issued yet as 
far as I know. So let me ask you a few related questions with 
regard to that.
    First of all, can you update us on the progress you are 
making in terms of releasing a proposed rule?
    And then the inspection process, if you could also respond 
to that. Last year you said you had just included in the 
inspection process a requirement that inspections check for 
working detectors. Is that still being done, and what results 
are you getting from it?
    And when you talk about inspecting and checking, are you 
not just checking about whether detectors are there, but what 
the carbon monoxide levels in the units might be?
    Secretary Carson. OK. Well obviously, like everyone else, 
we were devastated by the news about the people who died. And 
obviously that sparked a lot of activity. And that's why we 
went back and looked at the rules that were in place and 
enhanced those rules.
    But, you know, we want an actual law to be put in place so 
we are working with legislatures to actually put a law in place 
because that can be done a lot faster than the rule making 
process, and maybe some----
    Mr. Price. Mr. Secretary, let me just interject that we 
passed such a bill in the House. The sponsor was Representative 
Chuy Garcia, passed in September, sitting on Mitch McConnell's 
desk.
    Secretary Carson. Well the Senate, as you know, is working 
on the bill as well, right?
    Mr. Price. You tell me. I hope that you are pushing them to 
do just that. We have had limited success.
    Secretary Carson. Yeah. Senator Scott and one of the 
Democrats is working with him on that.
    Mr. Price. Good. Well that is good to know. And we, as I 
said, passed that law here because we agree with you that a law 
would be helpful. But I wouldn't be quick to assume that you 
don't have the authority you need already. We are talking about 
very serious matters here, I think it is fair to characterize 
it as an emergency.
    You have a statutory mission to ensure that housing is 
safe, decent, and sanitary.
    Secretary Carson. I agree.
    Mr. Price. So my own view would be, and you said yourself a 
year ago that you planned to proceed with the rule.
    Secretary Carson. And we are doing everything we can but we 
want to get an actual law on the books regarding it. You know 
we have communicate with all of the public housing and assisted 
housing projects, we have made it clear to them that we expect 
that the carbon monoxide detectors to be in place and expect 
them to be working. We have made it part of the inspection 
process. As you know, we are revamping the entire inspection 
process with the ISPIRE system, National Standards for the 
Physical Inspection of Real Estate. And we have tightened that 
up. We have gotten rid of inappropriate inspectors, we have 
retrained inspectors to bring consistency to the process. This 
is a matter that is very, very important, and it has been going 
on for decades, and it is unacceptable.
    Mr. Price. Good. It has, and you are of course right that 
it is urgent. And I am trying to get as specific as I possibly 
can in getting your answer on this.
    Is there a rule in process, as you suggested a year ago, 
that we can expect you to be promulgating about this?
    Secretary Carson. We are working on a rule simultaneously 
as the Senate is working on the law.
    Mr. Price. All right. And then your inspections, I 
understood you just now to say your inspections do at this 
moment include inspections for the presence of detectors?
    Secretary Carson. That's correct. Not just the presence, 
but they have to be functional.
    Mr. Price. Functional detectors, that's what I mean. And 
carbon monoxide levels, that would be the way you test whether 
the detectors are functional, right?
    Secretary Carson. I don't know that the inspectors go in 
with some type of monitor to find out what the carbon monoxide 
levels are.
    Mr. Price. Would that be desirable?
    Secretary Carson. I am not sure that that's practical 
because----
    Mr. Price. I believe that it is quite practical. In Durham 
just now we have been doing it in every single unit, and the 
results have not been happy ones. So it is a question of course 
to whether the detectors are functioning.
    Secretary Carson. Well the inspectors themselves. Maybe the 
public housing authorities might be able to do that. The 
inspectors themselves would be tremendously slowed down if they 
are going to go in and do a carbon monoxide evaluation on each 
unit.
    Mr. Price. All right. There are sampling techniques and 
other ways that one might approach some aspect to this, 
although every single apartment should be inspected for the 
presence of detectors.
    Secretary Carson. I agree.
    Mr. Price. I think we can agree on that.
    Secretary Carson. And it has to be functional.
    Mr. Price. All right. We are going to pursue this. We want 
to be kept apprised of the progress toward a rule being 
promulgated. We of course will work jointly on legislation, and 
the inspection protocols, of course. If you want to furnish any 
information for the record to clarify that, that would be 
helpful as well.
    Secretary Carson. I appreciate your interest in that. We 
are every bit as interested.
    Mr. Price. Thank you, sir. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Mr. Secretary, I 
am pleased that you have again placed priority on homelessness, 
the issues of homelessness and homeless programs in your 
budget. Again, you requested I believe $2.8 billion for 
homeless assistant grants, again showing this commitment.
    There has been, as you know, Mr. Secretary, some 
significant progress done. But there have been some new 
challenges that have emerged. And according to HUD's most 
recent point in time count, homelessness increase in 2019 over 
the previous year with a particularly sharp spike in 
California, California cities and there's been some talk about 
that during this hearing.
    So can you describe HUD's strategy to address this sudden 
increase in homeless in some areas of our country now? While I 
ask that, let me just throw some thoughts out there. Obviously 
as we look at this challenge in some parts of the country, we 
shouldn't lose sight, as you know, Mr. Secretary, that there 
are some areas that have been real successes.
    Secretary Carson. Yes.
    Mr. Diaz-Balart. In Miami, Miami-Dade County has made great 
strides in reducing homelessness.
    Secretary Carson. Absolutely.
    Mr. Diaz-Balart. And you were down there when, in essence, 
to announce that great milestone, right, and basically nearly 
eliminating homelessness among Veterans in Miami-Dade County. 
So while we deal with some of the spikes, will you commit to 
working with a broad range of stakeholders to pursue, you know, 
policy changes in those areas that are not working?
    Secretary Carson. Right.
    Mr. Diaz-Balart. While still making sure that we, you know, 
we recognize that there some areas and some parts of the 
country where some really good things are happening.
    Secretary Carson. Absolutely. And, you know, you look at 
the areas where it is not working, you know, you are not taking 
care of mentally ill people, you are not taking care of drug 
addicted people. And sometimes there is a distorted view of 
what compassion is. They think it is compassionate to let 
people be on the street with filth, with feces, with urine, 
with needles, with people attacking them with all kinds of 
dangers. That's not compassion at all. Real compassion is 
getting those people into a place where they have a safe bed to 
sleep in, where they have those drug problems taken care of, 
where their mental issues can be dealt with, where their 
physical issues can be dealt with, and where you can provide 
the kind of wrap-around services that get them back on their 
feet. And that is what we are planning.
    Mr. Diaz-Balart. Let me talk again about an issue that we 
have had multiple conversations over the past, about CDBGR, 
right? This certainly does it but it hasn't been authorized. 
And so last, when was it, it was not this Congress, there was a 
bipartisan bill, the Wagner-Green bill, which would 
reauthorize, or actually not reauthorize, authorize, CDBGR, and 
it would in essence do two things. It would establish a 
permanent consistent guidelines for the program, which 
obviously potentially reduce the time that it takes for those 
dollars to get out. So I know what you would like, as we have 
had that conversation.
    Secretary Carson. Right.
    Mr. Diaz-Balart. And the second thing it would permanently 
establish a mitigation program, something that this 
subcommittee obviously I guess was on the forefront of 
creating. Again, to make our communities more resilient.
    So this bill is in the Senate. You know the old adage, Mr. 
Secretary, the other party may be the advisory, but the Senate 
is the enemy, right, of the House. But is that something that 
you support, that bill, and to have an authorized program as 
opposed to having to go through this process every time?
    Secretary Carson. I like the concept, and it is something 
that we have been proposing. Because it takes way too long 
after disaster to get aid to people. And if we can codify a lot 
of the things that are commonly done with all of these grants, 
we can start somebody on second base instead of home base in 
terms of getting around. And absolutely that is something that 
we support.
    Mr. Diaz-Balart. I actually wanted to talk a little bit 
about your self-sufficiency, which has been a cornerstone of 
your, I think as your time as Secretary. And your life story, 
obviously, I think gives some added legitimacy to this issue.
    In your budget you provide significant new funding for 
programs to help families achieve economic security. I guess 
you are proposing $90 million for Family Self-Sufficiency 
Programs.
    Secretary Carson. Actually $190 million.
    Mr. Diaz-Balart. What was that?
    Secretary Carson. $190 million.
    Mr. Diaz-Balart. $190 million. I stand corrected. And my 
time is running out, but I'd like to follow up with you on 
that, you know, what are the benefits, what are you looking at 
there? Because obviously you have, that's an area that I 
believe is something you are----
    Secretary Carson. It is big for me because you know our 
people are our most precious resource and we are going to have 
to compete with places that have 4 times our population, China 
and India. If we don't develop our people, we are not going to 
be able to do it. It is as simple as that.
    Mr. Diaz-Balart. I look forward to working them, Mr. 
Secretary. Thank you.
    Mr. Price. Thank you. Ms. Torres.
    Ms. Torres. Thank you, Mr. Chairman. Secretary Carson, I 
want to talk to you about the mix status rule as it relates to 
families whose children may be citizens, the parents of those 
children may be legal residents, but grandma may be 
undocumented.
    HUD has regulations already to deal broadly with 
prohibiting housing assistance to non-citizens. Despite this, 
last year you decided to propose a change that if a family in 
Federally assisted housing has one person in the household who 
was not a citizen or without certain legal status, that the 
entire family would be kicked out of their housing unit. This 
rule could potentially put 55,000 children, throw them out into 
the street.
    I cannot imagine the compassion that you talked about 
earlier in dealing with drug addicts. I cannot imagine where 
the compassion would come from where we would write a rule that 
would put 55,000 children, kicked them out into the street. 
What type of an environment, a healthy environment, could they 
grow up in? Do you think a child living in the street today 
could accomplish as much as you have accomplished in your life 
career? I am trying to understand why we have a need to add 
more stricter regulations or, frankly, to be so mean spirited 
to families here in the U.S.
    Secretary Carson. Well let's talk about compassion. What 
about those hundreds of thousands of American families who have 
been on the waiting list to get assisted housing for years.
    Ms. Torres. But these people did not jump a list. These 
people were also part of that wait list.
    Secretary Carson. The Housing and Community Development Act 
of 1980, Section 214, specifically says that the Secretary of 
HUD may not grant assistance to them. And a subsection says it 
may not grant assistance to those who are aiding people who are 
not here legally. So as I said last year, and it stands today, 
if we don't like that, change the law.
    Ms. Torres. Well we can only do so much as far as changing 
the law. But you continue to push rules that are frankly 
kicking children and families into the street. I am not here to 
say you shall house people that don't have legal status, I'm 
talking about citizen children, children that have been born 
here that you will kick out into the street as a result of this 
rule.
    We already have regulations dealing with mixed status 
families. And the current regulations, what it does is it says 
that anyone living in that household should pay their fair 
share of that expenditure. So if the rent is $100 and four 
people live in that household, and one of them is undocumented, 
then the rent that we could help subsidize is $75; correct?
    Secretary Carson. Well that was not the original intent of 
the law or the way it was written, that was a loophole that was 
placed because they had difficulty determining who was here 
legally and who was not. That is no longer the case, you now 
have the same system and it's very easy to make that 
determination and therefore the law should be carried out as it 
is written.
    However, we have provided a 6-month deferral which can be 
reupped two additional times, 18 months. That's plenty of time 
to change the law if the body of Congress feels that it should 
be changed.
    Ms. Torres. There's no need for this regulation when we 
already have strict rules that address the concern.
    I want to move on to CDBG and elimination of community 
block grants. It's another elimination. These funds are 
critical to communities like my home city of Pomona, working 
class community.
    I think I've said this to you before, I can sit on my bed 
in my bedroom and hear gunshots every single day across the 
freeway from where I live. CDBG funds help our communities 
ensure that we are targeting very, very poor communities to 
ensure that the children have access to quality of life 
programs to help them succeed. So why would we cut those 
programs?
    Secretary Carson. Well, you know, I have explained it 
several times before but I will do it one more time.
    Ms. Torres. But I don't think you understand how critical 
they are. That's why we continue to bring this to the table.
    Secretary Carson. I have not said that they are not 
critical. What I have said is there may be better ways to fund 
them. I have also said that we are working on a revision of the 
rule and we are very close to completing that, it is going to 
be going back and forth to OMB and you will be seeing that very 
soon.
    Ms. Torres. Thank you, and I yield back.
    Mr. Price. Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. Mr. Secretary, our 
last get together, the same theme but different topic. I am 
looking at two studies that analyze the data collected by the 
Home Mortgage Disclosure Act. And they found widespread 
discrimination, again, against same sex couples in the mortgage 
industry.
    One of the studies specifically examined loans insured by 
the Federal Housing Administration, or HUD, and found that gay 
male couples, especially those including a person of color, 
were significantly less likely to have their loans approved 
than white heterosexual couples with similar profiles.
    What is your department doing to address discrimination 
against LGBDQ people, especially people of color, in the 
mortgage industry?
    Secretary Carson. You know, we get about 8,000 complaints a 
year of discrimination against one of the protected classes. We 
have not received a lot in that particular category. Obviously 
I would detest such a thing. And if you know of specific cases, 
please let us know, our FHEO office is very active in pursuing 
such things.
    Mr. Quigley. Have you let it known within the Agency that 
you won't tolerate this especially relating to these issues?
    Secretary Carson. Absolutely. I have made it very clear.
    Mr. Quigley. We will pass these two studies on to you.
    In a related matter, your department has proposed rules 
that change the information that faith-based housing providers 
are required to provide the clients they serve. Imagine, I 
guess, individuals or families dealing with mental illness, 
substance abuse disorder, HIV/AIDS or homelessness seeking 
assistance. And what happens is the change that is being 
proposed by HUD, these people could be forced to receive these 
services from a faith-based provider, even though the 
beneficiaries know that this provider condemns them for who 
they are.
    The current regulation that you are seeking to change 
requires that the agencies inform them of their right to 
request an alternative provider. Your proposed rules give them 
no notice of this ability and no help with finding an 
alternative. These people possibly were getting absolutely no 
services. How does providing the beneficiaries with just a 
notice of their alternatives and their rights become a burden?
    Secretary Carson. As long as it is applied equally to every 
provider, it is not a problem.
    Mr. Quigley. But what you are saying is you are not letting 
the beneficiaries know that they have an alternative to go to a 
provider that doesn't discriminate against them.
    Secretary Carson. If no one else is required to do that, a 
faith-based organization should not be, everybody should be 
required to do the same thing is what I am saying.
    Mr. Quigley. Then my strong suggestion is that you change 
what you are modifying here and tell them that the rules apply 
to all providers. But if they are not faith-based, that the 
possibility that their objectives in their by-laws 
discriminate, you don't have the same problem. So what you are 
saying is fine, but you're not telling the faith-based people, 
providers, that they have to provide alternatives and let 
people know of their rights to alternatives under what you are 
proposing now.
    Secretary Carson. I would say if everybody has to say what 
all the alternatives are, I don't have a problem with it. If 
you are only selecting out faith-based organizations and saying 
they have to do it, that's discrimination.
    Mr. Quigley. Well, no, but we are talking about faith-based 
organizations that condemn the LGBTQ community in particular 
for who they are. And under the current rules that we are 
living under, that they have alternatives and here is what they 
are. That is not what you are talking about here.
    Secretary Carson. If they are faith-based organizations and 
their faith is based on the Bible, then they certainly should 
not be condemning anyone.
    Mr. Quigley. But they do.
    Secretary Carson. And I am saying that we are not getting 
those----
    Mr. Quigley. Telling them it is OK. What we have been 
talking about for 4 years.
    Secretary Carson. We are not getting those complaints. 
Where are they going, who are they complaining to?
    Mr. Quigley. There is a reason that all these rules got put 
in place. With all due respect, if you don't understand that 
the trans community and the LGBTQ community as a whole haven't 
been discriminated against, the person who believes that has 
been living under a rock.
    Secretary Carson. I am not saying they are not 
discriminated against, I am saying we are not getting the 
complaints. Where are they going? Can you help me understand 
that?
    Mr. Quigley. Well, we are past our time, but we obviously 
need much longer time to talk about the fact that these rules 
allow this discrimination to take place, and people, as a 
result, won't be provided these services.
    But my time is up again.
    Mr. Price. Thank you. Mr. Secretary, let me return to the 
public housing maintenance needs and the capital fund. We 
discussed the situation in Durham. It is the tip of the iceberg 
I am afraid in terms of the deterioration of public housing 
stock.
    This subcommittee has provided sizeable funding increases 
in the last three fiscal years, but we recognize that we are 
still falling short of what is required.
    I am just puzzled by this budget request at exactly how we 
are supposed to interpret your approach to this. It looks like 
a shell game, and I hope you can show me why it isn't, you 
know, how this all adds up. But just indulge me a minute here.
    You first of all eliminate the Public Housing Capital Fund.
    Now you move some funds to a new Public Housing Fund which 
is really what's now called the Operating Fund, but then you 
proceed to cut that fund by $977 million. You move funds into a 
Moving to Work account with tenant based rental assistance, but 
this is not new money. You seem to want to eliminate public 
housing and move everyone into voucher programs via RAD 
conversions.
    So a certain amount of the public housing is going to be 
converted, and that is taking place in Durham and other places, 
we know that it has some promise. But an immediate conversion, 
universal conversion, that isn't going to happen. And even when 
it does happen, it would require a corresponding increase in 
voucher programs and the rental assistance. But you are cutting 
that too. You cut voucher renewals in TBRA by $371 million, end 
up a billion short of what is required just to cover current 
services.
    So I am just asking you, what's going on here? I mean I 
understand some of the proposals to move people out of public 
housing and to rely less on public housing, but then those 
alternatives are not funded. So how are we to interpret this, 
and where do we start?
    Secretary Carson. Well first of all let me just say that 
the vouchers have not been decreased, and there no people who 
are receiving vouchers now who are going to be eliminated from 
them secondary to this budget.
    Number two, you know, the budgetary process is a bilateral 
process. That means, you know, the President presents his 
budget, you know, Congress has their budget, the Senate has 
their budget. And after all is said and done then they arrive 
at a number. I understand that. And whatever that number is, 
obviously we will utilize it in a very most appropriate way.
    But just because the President's budget does not agree with 
the Congressional budget doesn't mean that we haven't taken 
into consideration all of these different people that we are 
trying to serve.
    But there are different ways to be able to handle these 
issues. The RAD program being an excellent example, and one of 
the reasons that we have requested $100 million to help, you 
know, bridge some of the gaps. Congress has not seen fit to 
provide that even though they agreed that the RAD program is a 
good program. They have not agreed yet to lift the cap on RAD. 
That's a problem because many of the revitalization programs 
don't occur next year or the year after that, they occur 4 or 5 
or 6 years down the road. People need to have the assurance 
that the program is going to be there when they are trying to 
create these revitalization programs.
    So, you know, we are looking long term at these things and 
that is why the proposals are the way they are, not just for 
next year.
    Mr. Price. Well once again we seem to have a disagreement 
as to what the budget actually contains. I think there are two 
aspects of this if I may break it down this way.
    One is the prospect of immediate and universal RAD 
conversions. You seem to be assuming that in budgetary terms 
you seem to be assuming that.
    Secretary Carson. Not at all. I know that it cannot happen 
immediately. But it could help tremendously if the $100 million 
was provided.
    Mr. Price. Well the RAD conversions on any scale are going 
to require more in the way of section 8 assistance. I mean that 
is the whole idea of RAD is that these become subsidized rental 
units. And as I said, that is not by any means totally a bad 
idea.
    Secretary Carson. Right.
    Mr. Price. It may not be the silver bullet, but----
    Secretary Carson. But it is a conversion from tenant based 
to project based.
    Mr. Price. All right. So I don't see the increase in 
tenant-based rental assistance that that would require. In fact 
what I see here, and I am looking at this budget line, tenant-
based rental assistance goes from fiscal 2020 enacted is $21 
billion 502 million, your fiscal 2021 request is $21 billion 
131 million. That's a substantial hundreds of millions of 
dollars of a reduction in the program as it now stands, let 
alone any kind of increase that large scale RADS would require.
    Secretary Carson. If you want to send in your budget people 
over to talk to my budget people, they can show you where there 
is no one who is going to be negatively impacted by this.
    Mr. Price. Well all right. That would appear to be 
budgetary magic because just on the face of it the rental 
assistance is, we----
    Secretary Carson. I have insisted that we make sure that we 
don't penalize any of the people that we are supporting.
    Mr. Price. All right. Well we certainly share that 
objective, and we will see what the numbers require. We have 
written numbers into our budget for the last 3 years, Mr. Diaz-
Balart did the same thing to ensure that we could cover all the 
current contracts and it certainly was nothing like what you 
are proposing.
    But my main point here is that the absence of this public 
housing support is not accounted for anywhere else in the 
budget, that's why I call it a shell game. And I would welcome 
a demonstration as to where this money is in your budget 
proposal. It just seems like everything is cut and you say they 
are going to move to this but then that's cut.
    Secretary Carson. Well the people who have been impacted by 
the cut from $23 billion to $18 billion, those are the same 
people who are going to be assisted in the $5 billion that was 
put in the Family Self-Sufficiency Program.
    Mr. Price. All right. We will work with you on getting 
these numbers clarified. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you very much, Mr. Chairman. Mr. 
Secretary, I think some of the most exciting activities taking 
place in our public housing authorities is through the rental 
system demonstration. And obviously, you know, when capital 
funds there is never enough, right? When capital funds are 
squeezed I know that innovative PHAs can turn and use this 
tool, frankly, to make improvements, right, in their housing 
stock.
    So I have heard that to, and I represent 3 counties in 
Florida, and I have heard that particularly from the director 
of the largest PHA that I represent is Miami-Dade County. And I 
know they use it rather effectively, but I also have other 
areas that have smaller housing authorities.
    And so are there ways that we can help those smaller 
authorities that are not as big as, for example, Miami-Dade to 
also utilize that tool, which I think they have a more 
difficult time to do, right?
    Secretary Carson. Well the key is giving them the ability 
to have fungibility, you know, with the operating and the 
capital funds. And to be able to use them in an unrestricted 
way. And that makes a big difference.
    And then, you know, also recognize that many of these 
places are in opportunity zones where there are opportunity 
funds. We haven't even begin to talk about how opportunity 
funds are utilized to help to create economic activity.
    Mr. Diaz-Balart. Mr. Secretary, the time that I have left, 
let me just, I happen to be a big fan and I mean this 
sincerely, in this area of, you know, the fact that you are not 
supposed to say anything nice about anybody from the other 
party. But I happen to be a big fan of Congressman Quigley, he 
is a brilliant guy, he is an active guy, and he is a legitimate 
fighter, and very effective. And so I wish he was here because 
I greatly respect and admire, and he has always been, I 
consider him a freedom fighter, right.
    But I just want to kind of throw something at you in a 
different way, referring to the conversation that you and him 
were having back and forth.
    You were born in 1951, I believe.
    Secretary Carson. Right.
    Mr. Diaz-Balart. And you weren't born with a so-called 
white privilege I believe. You know, the United States has 
changed a lot, I think for the better in so many ways, and 
particularly when you talk about discrimination, all right. So, 
this job, you are not doing it because it has been a pay 
increase for you? Or maybe it is because it is less stressful 
than other things that you have done in the past. I know that 
brain surgery has got to really stressful.
    So, I just want to kind of, in this time that I have left, 
describe a little bit why. Why is it that you have, and I think 
I know the reason because I have gotten to know you, but why is 
it that you have taken a huge pay cut, this is--you get 
criticized every day. So, why is it that you decided to take 
this job when the President called you to be Secretary of HUD? 
It is not exactly the most--you know, the least stressful or 
the easiest job in the world.
    Secretary Carson. I will tell you, it is very easy. It is 
because I saw that it was going to be a terrible thing for me 
to do, but I realized that there are a lot of people who came 
before me. And if they all took the easy road and the relaxing 
road, we wouldn't have the country that we have today.
    Mr. Diaz-Balart. But you have never taken the easy road.
    Secretary Carson. No.
    Mr. Diaz-Balart. I mean, you have never had it given to 
you.
    Secretary Carson. That is for sure.
    Mr. Diaz-Balart. So, is that why, though, your commitment 
to those who are least fortunate is so----
    Secretary Carson. That is why, you know, I recognize that 
with some opportunities, some changes, and some help climbing 
that ladder, it is an enormous amount of potential and we just 
can't afford to waste that potential.
    Mr. Diaz-Balart. Mr. Secretary, I will tell you, you have 
been accessible to me. You have made your staff accessible to 
me. I think you took a department that had great people but had 
some issues and you have turned it around. And so, I just for 
one will tell you that I am glad that you took this slight pay 
cut and have decided to take on a very difficult task. But I 
think you have done a job that, again, merits our respect, our 
admiration.
    Secretary Carson. Thank you.
    Mr. Diaz-Balart. And I don't think anybody would disagree 
with that, so thank you, sir.
    Secretary Carson. Thank you.
    Mr. Diaz-Balart. Thank you.
    Secretary Carson. And thanks to you all for what you did, 
too, because it is a big pay cut, too, and a lot of criticism.
    Mr. Diaz-Balart. And Mr. Chairman, again, I think as 
always, you have led this hearing like you lead all the 
hearings, with fairness and thoughtfulness, so thank you sir.
    Mr. Price. Thank you, appreciate that. And we will move to 
the conclusion here with what I think will be a quick question. 
But I do want to get one more thing on the record if we can all 
just hang in here a few more minutes. And it does have to do, 
Mr. Secretary, with what you referenced in your opening remarks 
about the appointment of Mr. Couch as the Federal financial 
monitor for disaster recovery funds for Puerto Rico and the 
U.S. Virgin Islands.
    I appreciate his qualifications and I take it at face value 
what you said about your desire to expedite this process. But I 
do have to say that the evidence is a little mixed so far and I 
want to just ask, I hope, some helpful questions about it.
    On January 22, we requested basic information on the 
monitor. We haven't received any answer to that request. So, we 
could--we would like to know what the duties of that monitor 
are going to be, the authorities the monitor has, and from what 
statute are those authorities derived. And then, for the 
record, if you could provide perhaps an organizational chart of 
the reporting structure of the monitor, including who is 
supervising above and what the staff looks like below.
    I say it is not particularly reassuring to not be able to 
get those basic questions answered. We want to make sure that 
what you stated turns out to be the case, that he is not a 
hindrance, this isn't just another bureaucratic layer.
    Secretary Carson. That is fair.
    Mr. Price. But that actually it is a constructive partner, 
he is a constructive partner, and that this appointment is 
helpful in moving forward these recovery efforts in both Puerto 
Rico and the Virgin Islands.
    Secretary Carson. We will get that for you.
    Mr. Price. Perhaps today you could just lay out the answer 
to those basic questions as to what those duties look like and 
where the authorities come from.
    Secretary Carson. I can tell you that very quickly. The 
authorities come from the Secretary. We give him the authority 
to monitor the grant agreement, make sure that it is carried 
out appropriately, to look at the procurement sources to make 
sure that they are in alignment with the requirements. And this 
individual is weekly meeting with our senior staff that is in 
concern with that particular endeavor and once a month, meets 
with me as well.
    And the monitor really is sort of a consolidation of lots 
of different areas that we control and it makes it very easy 
for the governor, for the head of Vivienda to get answers and 
to get results by having just one person that they have to go 
to.
    Mr. Price. So, as I understand your answer, you are not 
citing any particular statutory basis for this appointment. You 
are saying that the monitor is acting as an extension of your 
administrative responsibility and the reporting structure is to 
you personally.
    Secretary Carson. The reporting is to the head of CPD. That 
is the way it is set up.
    Mr. Price. All right. I think we do need some 
clarification. I would still like to see that organizational 
chart.
    Secretary Carson. We will have that sent to you.
    Mr. Price. All right. And a more precise indication, if you 
will. It is the question of what kind of authority this 
official has and this is not just an informational position 
presumably or an oversight position. What kind of authorities 
are located in this position and how does it operate up and 
down the line? That is what we are looking for.
    Secretary Carson. OK, we will give the whole organizational 
chart. Not a problem.
    Mr. Price. All right, I appreciate that. We will look for 
that. And with that, we thank you again for appearing and for 
your work and that of your associates at HUD. We look forward 
to continuing to confer on these matters raised today and I am 
sure much, much more in putting together a first rate workable 
budget for 2021.
    Secretary Carson. Thank you so much.
    Mr. Price. You will have questions for the record probably 
from a number of our members. If you would return the 
information, the answers to those questions, information for 
the record within 30 days from this Friday, that will let us 
publish the transcript of today's hearing in a timely fashion.
    Secretary Carson. Sounds good.
    Mr. Price. Any final comments, Mr. Diaz-Balart?
    Mr. Diaz-Balart. No, thank you very much, Mr. Chairman.
    Mr. Price. Thank you. With that, the hearing is adjourned.
    Secretary Carson. Thank you.
    [Material submitted for inclusion in the record follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

   
                     Wednesday, March 11, 2020
                              ----------                              


             FEDERAL AVIATION ADMINISTRATION BUDGET REQUEST

                                WITNESS

STEVE DICKSON, ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION
    Mr. Price. The hearing will come to order. Good morning, 
everyone. Welcome to our third Subcommittee hearing of the 
season. Today we'll examine the proposed fiscal year 2021 
budget for the Federal Aviation Administration.
    We are pleased that for the first time ever before this 
subcommittee to have Administrator Steve Dickson on hand to 
testify and answer our questions. We appreciate you being here.
    The FAA provides critical services on behalf of the 
traveling public every day. Millions of flights, both scheduled 
and unscheduled, must safely navigate our national airspace, 
the most complex in the world.
    This year's FAA budget request, $17.5 billion in budgetary 
resources, a decrease of about $96 million compared to last 
year's enacted level. Overall, the request is essentially flat, 
it eliminates $400 million for supplemental airport grants, and 
then increases funding for the operations account, by $372 
million, mostly to cover salary and retirement benefits.
    Funding for the facilities and equipment account and the 
research engineering and development account, see modest 
reductions.
    FAA identifies about $1 billion in proposed NextGen 
investments in their budgetary request. That would allow the 
agency to continue efforts to modernize the air traffic control 
system, improve efficiency, and transition legacy equipment to 
new platforms.
    Emerging technologies including unmanned aerial systems and 
a burgeoning commercial space industry hold great promise to 
revolutionize the national airspace and boost our economy, but 
they do pose challenges to the existing regulatory framework. A 
total of about $144.5 million is requested for UAS programs, 
and another $44 million for commercial space activities.
    Yesterday was the 1-year anniversary of the Boeing MAX 
tragedy in Ethiopia which killed 157 people. This Friday will 
mark the 1-year anniversary of the FAA order that grounded the 
MAX indefinitely.
    These two anniversaries do remind us that safety must be 
the FAA's highest priority. The public and the Congress expect 
complete transparency, as the FAA works to safely return the 
MAX to service, and evaluate outside recommendations to reform 
their oversight procedures and the certification process.
    Numerous committees and expert review bodies have 
identified various areas of potential improvement for FAA's 
regulatory procedures. Some recommendations such as bolstering 
human factors and system safety expertise, are about acquiring 
new skills and incorporating this knowledge into the 
certification and flight standards process.
    Others are specific to Organization Designation Authority, 
or ODA, which has come under scrutiny in the wake of the Boeing 
disasters. Initial reports suggests that private sector 
employees who possess this delegated authority may face undue 
pressures from management to prioritize production timelines, 
over the safety of the traveling public. That is never 
acceptable.
    FAA oversight of ODA must extend not only to ensuring a 
workable division of labor between the agency and private 
firms, but also, above all, to ensure there is no slippage, 
with regard to relentless attention to safety, in the 
maintenance of a safety-first culture.
    I would like to underscore that the recently-enacted Fiscal 
2020 Omnibus package, directed FAA to respond to each 
recommendation and report to the Appropriations Committee about 
any resource or funding needs.
    The agreement also included targeted investments to 
jumpstart this process including $6.8 million for salaries and 
expenses of additional staff with expertise and human factors, 
system safety engineering, software, data analytics and other 
valuable skills, $6.2 million to cover the cost of technical 
training and credentialing for flight operations, aircraft 
certification, and other specialties that support aviation 
safety, $3 million for FAA to provide guidance and training to 
international civil aviation authorities, foreign air carriers 
and other stakeholders to better understand U.S. safety 
standards, and how to integrate U.S.-manufactured aircraft into 
their own regulatory frameworks.
    I am glad to see the FAA's budget request proposes $70 
million above the enacted level for the Office of Aviation 
Safety, and other staff offices to improve FAA's safety 
oversight.
    I look forward to learning more about the activities 
described in the request and how they complement these 
investments, ongoing investments that I just described.
    Of course we know that funding isn't everything, resources 
must supplement the right policies, the right people with the 
right skills, and again, a culture that prioritizes safety 
above all else.
    We are closely following the work of Chairman DeFazio and 
our authorizing partners, on the Transportation and 
Infrastructure Committee. Last week they released preliminary 
recommendations from their Boeing investigation. We look 
forward to reviewing legislative proposals that emerge from 
their extensive inquiry, and working with them to ensure that 
FAA has appropriate funding to make any necessary changes.
    Finally, I hope we can spend some time today, understanding 
the FAA's role with respect to the public health threat posed 
by the coronavirus.
    Are you working with CDC, for example, to get guidance to 
airports, airlines and the traveling public? What role is the 
FAA playing in the administration's taskforce? What should the 
American people know about their health risk if they choose 
right now?
    Administrator Dickson, the FAA and its dedicated employees 
have an exceptionally challenging mission, one that is vital to 
our safety, economic well-being, and international 
competitiveness. I look forward to your testimony today, and 
working with you to ensure that FAA has the resources required 
to carry out its considerably responsibilities.
    I would now like to recognize my partner and fried, 
Representative Mario Diaz-Balart, the ranking member of this 
subcommittee, for any remarks he might have.
    Mr. Diaz-Balart. Mr. Chairman, thank you very much for 
recognizing me, and far more importantly for holding this 
important meeting.
    Administrator Dickson, welcome to your first appearance 
before this subcommittee; I was struck, Administrator, by 
frankly your unique qualifications for this job. I don't know 
if there is anybody that we have had, who has been more 
qualified for the job that you are now holding.
    So, 10 years you served as an Air Force Fighter Pilot, then 
spent another three decades working for major airlines as a 
commercial pilot, and I noticed a number of different 
aircrafts, also as an executive.
    I know this background is serving you well, as you lead the 
FAA at a particularly challenging time as Mr. Chairman just 
mentioned. It has been a year since the Boeing 737 MAX was 
grounded, and following the tragedies in Ethiopia and 
Indonesia, and I know you are hard at work in dealing with 
those issues.
    I look forward to hearing about the status of that review, 
and how you plan to take the lessons learned from this review 
to improve the certification, and other processes, safety 
programs at the FAA.
    The FAA is, and must continue to be a world leader in 
aviation and safety, and I am proud of the work that Chairman 
Price and I have in the subcommittee, and done over the years 
to support your agency to make sure that you maintain that 
global leadership role. We have done so through supporting air 
traffic controller and safety inspector workforces, along with 
investment in NextGen technologies.
    I am pleased to see that in the Fiscal Year 2021 request 
for the FAA, and you provide full funding for the controllers 
and inspector workforce, we have also targeted investments for 
safety initiatives. Again, very pleased to see that.
    The budget request also includes good news for the NextGen 
programs, something that the Chairman and I have, frankly, 
spent a lot of time on. With almost 3 billion in the facilities 
and equipment account to both maintain our current 
infrastructure, and obviously also to invest in new 
technologies.
    Mr. Administrator, I will tell you, you may not know this, 
but it is the first budget request in years that does not 
include a number of budget gimmicks. And so, that has happened 
for years. I was almost taken aback that you didn't do that, 
but I am very grateful that your budget recommendation does not 
do that.
    And so again, I congratulate you for this common-sense 
approach, especially when our focus must be to maintain the 
global leadership in aviation, and also supporting the talented 
workforce, that so many of us, by the way, meet as we go back 
and forth to the various airports around the country.
    Mr. Administrator, I also want us to not lose sight of the 
important work that the FAA is doing to foster innovation in 
the airspace, while you work to establish new, efficient routes 
based on satellite technology, you are also dealing with new 
entrants into the airspace.
    Again, technology is changing rapidly. And so that includes 
unmanned aircraft in commercial space vehicles, and that 
obviously is a challenge, but it is also a great opportunity. 
So these technologies present an almost, frankly, 
incomprehensible number of opportunities, and we want to make 
sure that you have the tools to meet those challenges.
    And finally, as the Chairman mentioned, my friend mentioned 
that the coronavirus is obviously something that is on 
everybody's mind, it is an all-of-government approach to 
dealing with this, and as it needs to be. And I know that you 
have some key responsibilities, helping to facilitate 
communication with the aviation industry, and also, as we were 
talking about briefly before the meeting, making sure that your 
folks, are safe and available to do the very important job that 
they have to do.
    So, just know that we are here to provide you all the 
support that you need, all the help that you need to fulfill 
this role. And we look forward to your update today, and to 
continue working with you. And so, again, thank you for being 
here.
    And with that, Mr. Chairman, I yield back.
    Mr. Price. Thank you. Mr. Administrator, we are happy to 
have you proceed now. Your full testimony will be put into the 
record. We are inviting you to speak for 5 minutes or so, and 
then we will have lots of questions. Thank you.
    Mr. Dickson. Thank you, and good morning, Chairman Price, 
and Ranking Member Diaz-Balart, and members of the 
subcommittee. Thank you again for the opportunity to discuss 
the administration's fiscal year 2021 budget request for the 
FAA.
    Before I begin, I would like to say a few words about the 
737 MAX. As you know, our international air transportation 
network is a tightly woven fabric. It is vital to the world's 
economy. When that fabric rips, we feel the impact globally. We 
have to look no further than the Lion Air and Ethiopian 
Airlines Boeing 737 MAX crashes to understand this.
    On board Ethiopian Airlines Flight ET302, which as noted 
did crashed 1 year ago, yesterday, were the citizens of 35 
countries, and on behalf of everyone at the FAA, I would like 
to, once again, extend our deepest sympathy and condolences to 
the families of the victims of both accidents.
    We will honor the memory of those who lost their lives by 
working tirelessly every day to ensure the highest possible 
margin of safety in the global aviation system.
    The administration's $17.5 billion request also honors 
those on board by funding a broad array of new safety 
enhancements, while maintaining the day-to-day operations of 
the safest, most efficient and complex aerospace in the world.
    The budget includes $15 million for the staffing and 
infrastructure enhancements we need to begin implementing the 
various recommendations we received following the MAX crashes.
    That input, which we welcome, includes moving toward a more 
holistic versus transactional, item-by-time approach to 
certification, integrating human factors considerations more 
effectively throughout the design process and finally, 
promoting an environment of just culture and Safety Management 
Systems for all industries involved in the aerospace system.
    To support these themes we are requesting $5 million to 
recruit additional specialized skills, such as more human 
factors experts and software engineers, and $5 million for a 
new system that tracks employee training, qualifications and 
certifications to ensure our aviation safety workforce has the 
skills and knowledge required to execute our programs.
    We are requesting $7 million to stand up a new office to 
oversee all Organization Designation Authorities or ODA in line 
with congressional direction.
    The budget includes almost $5 million in new funding to 
support improvements to several safety oversight systems such 
as Aviation Safety Information Analysis and Sharing, or ASIAS, 
and the Aviation Safety Reporting Program. We are requesting an 
additional $13 million to safeguard against internal and 
external cyber threats as well as to protect our new 
technologies against the threat of cyber-attacks.
    Along with investments in aviation safety, the budget will 
fund efforts to integrate new entrants into the national 
airspace system. It will also operationalize new technologies 
and systems to modernize how we manage traffic and make 
important investments in our Nation's aviation infrastructure.
    We will provide nearly $1 billion for NextGen investment 
supporting the NextGen Advisory Committee's priorities, 
including initiatives for traffic flow and metering tools. 
These efforts will continue the operationalization of NextGen 
to unlock benefits for all the users of the National Airspace 
System.
    We will also invest in innovation with $144 million for 
work related to unmanned aircraft system, or UAS, nearly one-
third of which will be used to further develop an unmanned 
aircraft system traffic management solution commonly called 
UTM. UTM is a critical enabler of the more advanced uses of UAS 
such as package delivery and urban air mobility.
    For commercial space activities, our request of more than 
$44 million will speed the processing of licenses and approvals 
and streamline regulatory requirements. These funds will also 
help the FAA continue to advance the integration of space 
operations into the National Airspace System via automation 
tools such as the Space Data Integrator or SDI.
    Our $3.35 billion request for Airport Improvement Program 
grants reflects the FAA's commitment to our Nation's 
infrastructure and provides the funding needed to ensure 
safety, capacity and efficiency at our Nation's airports. It 
supports our continued focus on safety related development 
projects including projects to reduce runway incursions and to 
reduce the risk of wrong surface takeoffs and landings.
    In conclusion, this budget is a reflection on the 
importance of aviation to our Nation's economy and the work the 
Agency needs to continue to pursue in order to continue to 
enhance safety and stimulate innovation. Through the continued 
investments in this budget, the FAA will remain the world's 
aviation leader. And now sir, I am happy to take your and the 
Committee's questions.
    Mr. Price. Thank you. I will start and we will focus in on 
the Coronavirus situation that you are confronting. Your 
regulatory and oversight responsibilities are----take place at 
several levels. I want to concentrate on the possible 
transmission of contagious diseases on commercial flights. 
Health screenings prior to boarding aren't fool proof as we all 
know. Once on board, both passengers and crew members are 
breathing in recirculated air, are in close proximity and so 
forth.
    So, could you tell us what the FAA requires with regards to 
the quality of the air circulating inside airplanes and the 
cleanliness of the surfaces inside those airplanes and what you 
are doing to enhance both of those situations. What guidance 
are you giving? Is the CDC giving you with regard to 
transporting and tracing sick passengers and can you also 
clarify the FAA's role with regards to the White House task 
force? The overall task force overseeing the effort.
    Mr. Dickson. There are several aspects I will undertake 
just in broad terms. As was mentioned earlier, we have a whole 
of government approach working within the task force. The 
Department of Transportation is part of the task force and the 
FAA is supporting those efforts.
    The lead agencies are CDC and Homeland Security. But as the 
focal point for aviation, the FAA has played a key role in 
ensuring that CDC guidance and information is provided in a 
timely fashion both of the traveling public, to flight crew 
members and to all stakeholders in the aviation system 
including our own employees in the FAA as well. Today alone, I 
believe we have 12 to 14 scheduled contacts and a number of 
offline conversations as the situation continues to evolve.
    In terms of your question on air quality, there are 
specific standards that regulate the quality of air on 
aircraft. Specifically, there has to be sufficient ventilation 
and lack of contaminants in the air in terms of noxious fumes 
and things like that. Also, the cabin air altitude cannot be 
above 8,000 feet and air carriers are required to report any 
deficiencies in terms of air quality on aircraft in terms of 
smoke and fume events.
    Working with the CDC and also the process by which aircraft 
are designed and have been studied over the years, the air 
quality within commercial aircraft is on par with what we see 
in public buildings and also within homes. And so, the risk to 
the public is no higher than it would be in any area where you 
have folks gathered. So, the same criteria really apply in 
terms of considerations the CDC is providing.
    In addition to that, all the air carriers have reviewed 
their cleaning protocols, the substances they are using both on 
the flight deck and back in the passenger cabin. Those 
requirements, the CDC has updated them within the last week and 
we have provided that information to air carriers. I have 
several examples I can share with the Committee if you would 
like on additional measures that the passenger carriers are 
taking to ensure sterile surfaces on the aircraft.
    Mr. Price. I think there is a good deal of public, 
certainly apprehension, maybe misunderstanding about this air 
quality question. How is it that that degree of purity, freedom 
from contaminants can be maintained? Is there a way of 
enhancing that and as a generalization you just made that does 
apply to pathogens, to airborne pathogens? That one is to 
conclude by virtue of what you just said that that risk is no 
greater than it is in normal public places?
    Mr. Dickson. Yes, sir. The ventilation requirements as 
aircraft are designed and certified require that they meet 
certain standards in terms of adequate ventilation on the 
aircraft. Specifically, if you have an issue with fumes, 
pollen, those types of things, these things are required to be 
reported by the airlines. And if there is any indication that 
there is a problem with the system on the aircraft, they have 
to report that.
    But we do see that the research that has been done over the 
years is that there is really not any significant difference in 
what you would have in a building such as we are sitting in 
today in terms of air quality.
    Mr. Price. Thank you. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Mr. Chairman. Sir, I understand 
that the FAA is about to undertake an airspace Metroplex 
redesign in south Florida with obviously potential airplane 
noise impacts for individuals in communities close to Miami 
International Airport. As you know, Miami International Airport 
is almost in the middle of town, right, and there is not a lot 
of flexibility. So, let me throw a couple questions at you, let 
me throw them all at the same time and you can answer them as 
you see fit.
    What is that schedule for the airspace redesign? What are 
the FAA's plans to engage the community as far as noise impacts 
of the redesign? And I know that there already have been, I 
guess, some public hearings and meetings already took place. 
Will there be a dedicated staff group or people to engage with 
the community?
    And I think a key one too is having you considered putting 
one person who is the go to person as opposed to just having, 
you know, people's complaints are always, you know, who is in 
charge, who is accountable. I think that would be very helpful 
as well. So, those are the issues I wanted you to kind of 
discuss with me.
    Mr. Dickson. Well, thank you for the question. As you 
noted, there is an ongoing project to redesign the airspace in 
central and south Florida that is underway. There have been a 
number of workshops, I believe 20 workshops within the last 
year in terms of engaging congressional staff and local 
officials as well. There are another 17 that are planned for 
this year and we have scheduled public meetings. We have 
another 20 scheduled.
    In terms of the--where the process itself stands, we are 
undergoing the draft initial environmental review of the 
project. Which we expect to be completed sometime later this 
spring. And then there will be a comment period and that will 
be finalized this fall. The actual flight procedures themselves 
will be implemented as we move forward in the calendar year 
2021 probably between the spring and the fall in several 
tranches of improvements.
    In terms of a single point of contact, we use our regional 
administrators as the point of contact. In addition to that, we 
have currently 8 noise community engagement officials. We are 
asking for three additional ones. And we deploy those around 
the system wherever the need is. Because as we have various 
projects that are implemented, they are subject matter experts 
but they are not tied to a specific geographical area because 
we have projects going on in various parts of the country where 
we can use those resources.
    Mr. Diaz-Balart. Good. Let me, in the same vein but the, 
what is it called, the CLEEN program, whatever it actually 
stands for, Continuous Lower Energy Emissions and Noise 
Program. We have invested, the subcommittee has invested about 
$125 million in that program since 2010. And again, to help 
industry develop more efficient and quieter engines because 
that would be--that would go a long way to solving the issue, 
right? So, if this succeeds, it would obviously again, cut down 
on a lot of the concerns that most people have is noise 
related.
    And so, what progress has been made by this program to 
reduce potential to make quieter engines? And what further 
progress do you expect, you know, within the next 5 or 10 
years? Is this something that you think has promise?
    Mr. Dickson. Well, thanks for the question, it is a great 
point. The newer generation jet engines are quieter than we 
have ever seen and more efficient frankly and more 
environmentally friendly than we have ever seen before. And the 
CLEEN program over the years has allowed us to bring industry 
together to pursue those design concepts.
    In fiscal year 2021, we are asking for an additional $18 
million to keep the project going. And you have also seen 
tremendous fleet renewal by the large U.S. carriers over the 
last 5 or 6 years as they have been financially able to replace 
older aircraft. So, we have seen hundreds of narrow body orders 
that also are our highest frequency and highest cadence users 
of domestic U.S. airspace. So, that has been a benefit because 
it has also brought on more efficient air frames as well as 
more efficient and lower noise profile engines as well.
    Mr. Diaz-Balart. So again, they are quieter and more 
efficient and cleaner. You may not have to eliminate aircraft 
travel after all, Mr. Chairman. I yield back. Thank you.
    Mr. Price. Thank you. Ms. Lawrence.
    Ms. Lawrence. Thank you. Mr. Dickson, since arriving in 
Congress it has been a passion of mine to fight for women's 
rights and increasing women opportunities in what some would 
consider untraditional fields of study. That includes numerous 
positions within the aviation industry. As you know, throughout 
history, women have been grossly underrepresented in the 
aviation industry. Accounting for only 6 percent of pilots and 
4 percent of flight engineers.
    As co-chair of both the women's caucus and the skilled 
American workforce caucus it is my responsibility to ensure 
that every little girl that aspires to be the next Amelia 
Earhart or Betsy Coleman has the proper resources to do so. And 
as the administrator of FAA, I would argue you you have that 
same responsibility as I do.
    In 2010, the FAA established the Educational Partnership 
Initiative. A program meant to focus on the relationships 
between institutions representing underserved groups in diverse 
populations such as aerospace studies, science engineering, air 
traffic control.
    In particular, this is the exact type of program that the 
government should be prioritizing. But unfortunately, I am 
uncertain whether that is happening. So, could you please 
provide me today with the status of the educational partnership 
initiative and how the Department looks to build upon the 
program.
    Mr. Dickson. Well, thank you for the question. And I am in 
the strongest agreement I can possibly be. That we need to 
eliminate barriers to women and underserved portions of our 
population to show them what great opportunities there are in 
aviation. Because it is a tremendous career and I think that a 
lot of times young people don't see it as something that they 
can do.
    I will have to get back to you on the specifics of the 
program that you mentioned. But we do have a number of 
initiatives working with the Department of Transportation, 
other Federal agencies, academia, the private sector, to 
promote aviation careers and eliminate barriers to those who 
want to take advantage of those opportunities.
    [Mr. Dickson responded for the record:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    Ms. Lawrence. So, Mr. Dickson, please provide and if you 
don't have, I think there should be a dedicated study on how 
you can include and embrace and do programs to introduce more 
women into your work force.
    In my district over the past few years, thousands of 
families have been exposed and impacted by PFAS contaminants. 
The toxic substance is included in firefighting foam which 
commercial airports are mandated to use throughout their 
operations.
    Under the 2018 FAA reauthorization bill, however this 
mandate changed. The 2018 bill provided that commercial 
manufacturers are no long required, aircraft manufactures are 
no longer required to use PFAS chemicals in their fighting 
foam. Can you, as you know, PFAS is extremely dangerous. Can 
you please discuss when the FAA expects the final--to issue the 
final regulations provision that exempts commercial airports 
from using the toxic PFAS in firefighting?
    Mr. Dickson. Well, thank you for the question. And there is 
a lot of work going on in this particular area. In fact, we 
opened up at our tech center in New Jersey, in January, we 
opened up a new $5 million facility that is designed to do this 
testing. And we are doing baseline testing of the existing 
products out there now. And we are working very closely to do 
this work with the Department of Defense which does the initial 
certification. And a very similar product that we use for civil 
aviation in airports.
    So, we are in the process of determining what alternatives 
are available out there. That will take some time. In the short 
term, what we have done is we have made available airport 
improvement grants for airports to be able to purchase with 
that grant money equipment that when they are required to test 
their firefighting equipment, it doesn't actually discharge 
anything onto the ramp or onto the airport property. So, that 
will mitigate many of the short term effects of what we see 
because they will be able to keep all of that contained within 
the unit. And that is a brand new capability.
    Ms. Lawrence. So, my last question, I am glad you are 
working on it. Do you have a timeline when we can expect that 
you will be in compliance with eliminating PFAS from the 
firefighting?
    Mr. Dickson. It will take a while to do the research. At 
this point, there has not been a substitute out there that has 
the effectiveness in putting out an aircraft fire that we have 
seen. So, it will take some time to conduct the research but we 
will get back to you with a specific time. We are moving 
forward though very aggressively on this point.
    [Mr. Dickson responded for the record:]

          Timeline for the Implementation of Section 332 of the 
2018
                            Reauthorization Act
    <bullet> LAs of March 6, 2020 the FAA has completed 
baseline fire testing with a military-spec (C6) aqueous film 
forming foam.
    <bullet> LThe current project schedule has fire testing of 
five commercially available Fluorine Free Foams (FFF) using 
military-spec test protocol completed by the of June 2020.
    <bullet> LConcurrently, the FFF's will be tested for a 
chemical make-up and properties by the end of June 2020.
    <bullet> LFrom July 2020 until December 2020 the FAA plans 
to test non-commercially available foams for both fire tests 
and chemical tests.
    <bullet> LConcurrently, we will perform ICAO level C fire 
testing of the five commercially available FFF's and any non-
commercially available foams.
    <bullet> LThe final research report is expected to be 
provided to the FAA Office of Airports by April 2021.

    Ms. Lawrence. Thank you and I yield back.
    Mr. Price. Thank you. Mr. Womack.
    Mr. Womack. Thank you, Mr. Chairman and thank you 
Administrator Dickson for your testimony here today and your 
service to the country. I don't know if Ms. Lawrence was 
referring to the section in the Reauthorization Act of 2018, 
section 625 on the $10 million that was authorized for 
primarily pilots and maintainers. This is an education process. 
But what are you doing to implement because it has been fully 
funded. What are you doing to implement that?
    Mr. Dickson. Yes, sir. $5 million each. As you noted, $5 
million for pilots and $5 million for maintenance technicians. 
We are in the process of working through I believe those funds 
became available in December and we are working through the 
process right now.
    We expect to have the grant applications out there within 
the next few months. And it will, that will all take place this 
year to get those programs up and running.
    Mr. Womack. When Secretary Chao was here a couple of weeks 
ago, I asked her about contract towers. I am going to ask you 
basically the same question. Of course, I have got a parochial 
interest because I have got several contract towers in the 
State of Arkansas, certainly 4 of them are in my district.
    Can you comment briefly as to where you see this contract 
tower program going? Which I consider to be a pretty good 
partnership that the FAA has that helps to ensure safety.
    Mr. Dickson. Yes, Congressman, thank you for the question. 
Contract towers are an extremely important part of our aviation 
infrastructure, particularly when it comes to airports in 
smaller communities, making sure that we've got the appropriate 
margin of safety there.
    I believe we've have currently approximately 250 contract 
towers and we are requesting funding for those operations of 
$172 million.
    We do have a benefit cost analysis process that we have to 
go through to ensure that we are putting towers in the 
locations where there will be enough traffic so that there is 
as safety benefit. But we will, I see us continuing to support 
the contract tower program.
    Mr. Womack. I don't want to get too down into the weeds on 
the benefit cost analysis but when that happens, is that a 
snapshot of a like a certain period of time in a given day that 
may or may not reflect the ongoing need?
    Mr. Dickson. My understanding is the benefit cost analysis 
is, uses a 2018 baseline and there is a tenth of a point 
increase that was put into the authorizing legislation that 
allows us to essentially if it's a close call to put a 
particular airport over the bar.
    Mr. Womack. I see. I got a, in my remaining time, I got a 
couple of questions about the Max program, and you may have 
covered this in your opening and I got here a little bit late.
    As you look at our current aircraft certification system, 
do you see any changes on the horizon that would make to ensure 
a more sound safety regulatory system?
    Mr. Dickson. Well, the short answer is yes. Essentially we 
have a number of recommendations from various reviews that have 
been done, all of which have a slightly different perspective 
and those are all very helpful.
    They, it really comes down to addressing three particular 
issue and that is making the oversight process more holistic 
and more focused on system, the safety of the system as 
designed, rather than complying with individual rules which is 
you would hope that those rules would look that together, would 
provide the level of safety and they have over the years that 
we want.
    But I think we are in a world now where we really need to 
look at the interdependencies in a more sophisticated way that 
we have had to in the past.
    We also need to introduce human factors considerations into 
design. It has been a part of the design criteria before but 
that needs to be more integrated.
    And we also need to develop safety management systems which 
will actually allow us to oversee the manufacturing process 
much more effectively because it requires data and 
communication that doesn't necessarily exist in with the level 
of detail that it needs to now.
    Mr. Womack. Yeah. I am about to run out of time so I am 
going to let you take these for the record. And that is on this 
max reports that I have read that suggest that there may be a 
rewiring of the entire 737 max requirement, I would like to 
know a little bit more about that and what is driving the 
potential need to do that.
    But again, won't require you to go through that here today 
because I am out of time and take that for the record. And, Mr. 
Chairman, thank you for the time and I yield back.
    Mr. Price. Thank you. Ms. Torres.
    Mrs. Torres. Thank you, Mr. Chairman, and thank you, Mr. 
Dickson for being here.
    For the past 20 years, the FAA air traffic controllers and 
technicians have relied upon the integrated control and 
monitoring systems to monitor and control all critical 
electronic systems operating the 16 major airports in the U.S. 
Yet, despite pleas from members of Congress on both sides of 
the aisle, and from air traffic controllers to refresh the 
software of these systems, which is long overdue, the FAA has 
refused to act.
    I would like to point out that this committee in the fiscal 
year 2020 funding bill, included language highlighting this 
very issue as it would impact air traffic operations in the 
traveling public, it is my understanding at the FAA has still 
not acted to refresh the system.
    Could you please explain why this is the case and if, you 
know, what you plan, what the status report is?
    Mr. Dickson. Thank you for the question. The systems that 
you're referring to actually don't monitor all of the critical 
systems, they monitor specifically the navigational aids around 
the airport.
    Mrs. Torres. Which is critical.
    Mr. Dickson. Absolutely. And so we are, we continually 
along with all of our technology we will continually evaluate 
what the risk is of doing or not doing a tech refresh. And this 
is an area that we are currently evaluating and we will address 
moving forward.
    Mrs. Torres. The technology is ancient technology and it 
continues to age and the refreshment part of it is, you know, 
soon not going to be a reliable source for pilots to utilize or 
air traffic controllers to utilize. So, you know, I hope that 
you would see the urgency to this.
    It is also my understanding that FAA is in the process of 
evaluating the implementation of the National Aerospace System, 
NASS, program designed to enhance NAVID Vis Aids control and 
monitoring capabilities in air traffic control towers.
    And the FAA is considering either expanding the use of the 
integrated control and monitoring systems, a system designed 
and manufactured by a minority owned small business group from 
southern California, or upgrading and expanding the universal 
interlock control, a system that is designed and manufactured 
by the FAA in competition with a minority owned firm in 
southern California.
    Can you clarify for me whether or not the FAA has been in 
competition with any private company regarding the UIC NAV aid 
or VIS aids monitoring efforts?
    Mr. Dickson. Well, thank you for the question, ma'am. The 
UIC capability that you spoke about, my understanding is that 
was undertaken in 2009 at some airports that did not have the 
system that you're talking about. And it's even more narrowly 
focused.
    We will review our acquisition protocols to make sure that 
we comport with the acquisition guidelines in terms of the 
competition issues that you raised.
    Mrs. Torres. So as you respond to me, I hope that you would 
justify why this is taking place given that OMB guidelines are 
prohibiting that you are in direct competition with small 
minority businesses.
    Secondary, Administrator, as you know, Congress included in 
the last FAA bill a strong, clear, and legally binding mandate 
that the FAA require all new aircraft to have secondary 
barriers starting in October of 2019.
    This is a safety and security mandate that dates back to 9/
11. And that Congress could not be any more clearer, a direct, 
you know, clear and direct about this.
    You are now past due and have full legal authority to 
implement this requirement today. Just as you did last October 
when you were supposed to issue this order but instead you have 
created a working group to study the issue further delaying 
this much needed safety enhancement. When do you intend to 
comply with the law?
    Mr. Dickson. Well, ma'am, we are moving forward on this 
issue. It is a very high priority for me. We are moving forward 
on this issue as quickly as we can. They converse on a regular 
basis.
    Mrs. Torres. How often does the study group meet? 
Quarterly, monthly, weekly, daily?
    Mr. Dickson. In person, I would have to get you the 
schedule. I know that we are expecting a report from them later 
this month and that will give us the technical details that we 
need to provide the manufacturing, the manufacturer's 
guidelines that we can actually enforce. And that's what has 
been missing.
    [Mr. Dickson responded for the record:]

             Flightdeck Secondary Barrier Working Group 
Schedule

    <bullet> LSeptember 5, 2019: Working Group formed
    <bullet> LOctober 3, 2019: Initial Teleconference of the 
Working Group
    <bullet> LNovember 4, 2019: Sub-working Groups formed & 
Sub-working Group Leads/members notified
    <bullet> LNovember 4-12, 2019: Sub-working Group activities 
lead by the sub-working group leads
    <bullet> LNovember 13-14, 2019: First face-to-face meeting 
(Washington, DC)
    <bullet> LNovember 29, 2019: Teleconference with FAA Office 
of Budget Costing
    <bullet> LDecember 20, 2019: Report writing subgroups 
provide first draft
    <bullet> LJanuary 21-23, 2020: Second face-to-face meeting 
to review draft report (Tysons, VA)
    <bullet> LJanuary 31, 2020: All recommendations formalized
    <bullet> LFebruary 20, 2020: Final report submitted for TAE 
comment
    <bullet> LFebruary 25, 2020: TAE call for review draft of 
final report
    <bullet> LFebruary 27, 2020: Final report with TAE comments 
incorporated submitted
    <bullet> LMarch 19, 2020: Presented final report to ARAC

    Mrs. Torres. My time has expired, sir. But I hope that I am 
being very, very clear to you that these are critical safety 
measures for the flying public and that we expect you to follow 
the law.
    Mr. Dickson. I understand.
    Mrs. Torres. I yield back.
    Mr. Price. Ms. Clark.
    Ms. Clark. Thank you, Mr. Chairman, and thank you for 
joining us today. First, I want to also thank you for your 
support of the Aviation Sustainability Center known as ASCENT. 
It has brought researchers at Boston University, MIT, and 
others together to quantify the impacts of air quality in 
affected communities. We look forward to our ongoing 
partnership.
    I want to ask you also about in the fiscal year 2018 THUD 
report, this committee directed the FAA to report back on sound 
installation, installed prior to 2007. And examine the 
effective lifespan of mitigation treatments and make 
recommendations.
    This report was released last year and in addition, MASS 
port, the Massachusetts Port Authority sent a letter to you at 
the end of January regarding the retreatment of homes that were 
sound insulated during the early years of the sound proofing 
program.
    FAA's current policy does not allow for retreatment of 
homes. What is your plan for replacing the equipment that has 
lost its effectiveness? I know the FAA has acknowledge that 
current window and door treatment are far more effective and 
durable and are you open to revisiting this policy so 
homeowners can take advantage of those efficiencies?
    Mr. Dickson. Well, thank you for the question. And the 
short answer is yes. The standards for insulation were actually 
established in 1993, although there had been work--that type of 
reimbursement occurred prior to that. At this point, our 
research has not shown or indicated that there is any 
deterioration in those measures.
    But, because of the fact that there were no standards 
established prior 1993, we are looking very seriously at 
allowing AIP funds to be used. Now the airport that's 
requesting the funds would have to essentially prioritize that 
with other safety and efficiency projects that they have along 
with noise issues in the adjacent local communities.
    But it is something that we are looking at very closely and 
we will certainly be happy to work with you on that.
    Ms. Clark. So when you say you are looking at it very 
closely, does that mean you are changing the policy or you are 
still examining it?
    Mr. Dickson. We are in active discussions to change the 
policy. But to my knowledge, as of sitting here today, I can't 
tell you that it has changed but we are in active discussions 
to do that.
    Ms. Clark. Do you have any sort of timeline on a final 
decision?
    Mr. Dickson. I would have to get back to you the specifics 
but it is, it would be in the very short term.
    Ms. Clark. OK. We will look forward to a very short term 
answer because I think there are homeowners, not only in my 
district, but across the country that really need to be able to 
update the sound proofing that has been offered.
    Mr. Dickson. I understand.
    Ms. Clark. I would also like to talk about in light of the 
Boeing 737 crashes sometime on your human capital needs to 
ensure that there is an adequate level of oversight in both 
aircraft certification and flight standards, particularly for 
companies like Boeing that have organization designation 
authorization. Which basically means they are allowed to self 
inspect and regulate, is that right? Is that a fair 
characterization?
    Mr. Dickson. I would not use the term self-inspection or 
regulation. The FAA is required to oversee those processes and 
an ODA is a privilege. They have a very high level of 
responsibility in terms of producing safe products and that 
process has, that delegation process has produced safe products 
for many decades but as with any process as we have said, it 
can certainly be improved.
    And I think the FAA's ability to oversee the process 
currently has areas that need to be improved and that is what 
you're seeing in our budget request.
    Ms. Clark. And is that a part of the additional staffing is 
to help you in this area?
    Mr. Dickson. Yes, ma'am.
    Ms. Clark. OK. And could you continue to update us on the 
status of hiring the new technical employees and the type of 
capacities that these employees are going to fulfill?
    Mr. Dickson. Of course. In the current year, we are in the 
process of recruiting and hiring additional human factors 
experts. And also, software engineers, systems engineers, those 
who have the capability, technicians to or specialists to 
perform system integrated system safety assessments.
    All of those are areas that will improve the level of 
sophistication of the FAA's oversight. And in addition, on the 
fiscal year 2021 budget request, we are asking to add an 
additional 50 on top of the 34 that we will bring on this year 
and then an additional 13 for our ODA office that was stood up 
from the 2018 reauthorization.
    Ms. Clark. Thank you.
    Mr. Price. Mr. Hurd.
    Mr. Hurd. Thank you, Mr. Chairman. Administrator, it is 
good to have you here, you have had an interesting year. I know 
we talked a bit bit about COVID-19 already. Can you take 30 
seconds and just describe FAA's role in dealing with COVID-19 
and maybe larger scale crises like this?
    Mr. Dickson. Yes, Congressman. Thanks for the question. The 
FAA has been involved from the very beginning. Of course, we 
are a part of the Department of Transportation which is 
actually on the President's task force and we have been 
supporting, acting as really an honest broker between the 
Federal Government and all elements of the aviation industry, 
whether it's airlines or airports or crew members and 
passengers.
    And so we have been making sure that when we have been in a 
containment posture up to this point, that we are putting--
helping to put processes in place for passenger screening and 
contact tracing when that's warranted and essentially 
supporting the CDC's efforts.
    Within the FAA itself, we have, for the last 8 weeks or so 
we have essentially had three lines of effort. The first line 
of effort is our internal coordination. It's a process that we 
use for hurricanes and other contingencies that happen. That 
group has been stood up and operating continuously since about 
the middle of January.
    We have also been working as part of the interagency 
process which I just discussed. And then about three to four 
weeks ago, we began to pivot to attention to our own operations 
plans in terms of mission assurance because we need to be able 
to continue to take care of our own people and manage the air 
traffic control operations as well as enable our safety, 
aviation safety inspectors and technicians to be able to make 
sure the system continues to run.
    Mr. Hurd. Right now today, how do you characterize 
traveling by air?
    Mr. Dickson. I would say that as I mentioned in response to 
the chairman's question earlier, that the considerations that 
the CDC has put out in terms of those who are at risk or and 
should look at large gatherings or traveling on long flights.
    But other than that, there aren't any significant 
restrictions or considerations beyond what we would have in any 
work place or public gathering.
    Mr. Hurd. Sure. Got you. I represent San Antonio. I am one 
of the five that represent San Antonio. Lackland Air Force Base 
is there, HHS is involved in taking folks from the, excuse me, 
the Grand Princess cruise ship to Lackland Air Force Base.
    Would you agree hat in the interest of public safety, those 
chartered flights that HHS is doing, having them land directly 
on a military facility like Lackland would be the preferred 
route or the preferred practice?
    Mr. Dickson. I believe that's pretty much been the 
practice. The repatriation flights and these repositioning 
flights are actually either State aircraft or public aircraft 
operations under the State Department. And they have to comport 
with since they're flying in the civil aviation system, they 
have to comport with the FAA's regulations.
    But in terms of passenger facilitation and management, 
that's really is the responsibility of HHS, CDC and CBP. And my 
observations up to this point is they are managing that process 
appropriately to make sure that there is no elevated risk of 
any transmission.
    Mr. Hurd. Good copy. Switching to a new topic, unmanned 
aerial systems. The budget has $144 million in it for this 
program and $2 million for working with law enforcement 
partners on counter UAS and protection at these airports. Is 
that enough?
    Mr. Dickson. I would say it is a continuing, developing 
challenge for our aviation system. But I believe that our 
request for this coming fiscal year is enough to do the 
research that we need to do to continue to improve our 
capabilities in these areas.
    The FAA's primary emphasis here in working with our law 
enforcement partners and airports primarily, is to ensure that 
we deal with unauthorized, clueless, and careless, and then 
also anyone who wants to do harm that we actually have the 
rulemaking and the detection processes in place to be able to 
address those issues. That's where our focus is.
    Mr. Hurd. And in your--in my final 30 seconds, your opening 
remarks, you talked about how the, excuse me, the low altitude 
authorization and notification capability was a success story 
in automation and partnership with industry and government. 
Why?
    Mr. Dickson. That's a great question. I think what it has 
done is that it has provided the foundation for which we will 
be able to build an unmanned traffic management system with the 
private sector to be able to deconflict UAS from each other as 
we continue to integrate them in our system.
    Our strategy really is to integrate UAS in the coming years 
rather than segregate them to specific geographic areas or 
routes and LAANC is really the first capability where we are 
seeing the ability to be able to begin to manage what that 
process could look like in the coming years.
    Mr. Price. Mr. Quigley.
    Mr. Quigley. Thank you, Mr. Chairman. Thanks, sir, for 
being here. In 2015, OBM greenlighted a study, the DNL on my 
urging to reexamine day night level metric use to measure 
aircraft noise pollution. May 2018, the FAA said it is really 
close and since that time it has been delayed 22 months.
    We have heard from multiple sources that it was delayed 
because of methodology issues. Is that true? Is the study 
close? Were there issues with how it was conducted?
    Mr. Dickson. So thanks for the question. DNL currently as 
you know, is the only metric that we have that takes into 
account all of the criteria in terms of measuring the impact of 
noise on our communities.
    And we continue to do research on what other methodology--
methodologies would capture time and place and duration as 
well. And so far there hasn't been anything that has replicated 
that.
    If you're referring to the noise annoyance study which is, 
that is due out in October, and we expect to meet that 
deadline.
    Mr. Quigley. Were you aware of any problems with the 
methodology in the study?
    Mr. Dickson. I'm not personally aware.
    Mr. Quigley. Could you find out and let this committee 
know?
    Mr. Dickson. Absolutely.
    [Mr. Dickson responded for the record:]

    The FAA is confident in the rigor and methodology used to 
conduct this study and will publish the study consistent with 
section 187 of the FAA Reauthorization Act of 2019.

    Mr. Quigley. Ask them, I have problems with the word 
annoyance because as you know these public health studies are 
talking about far more than annoyance, they are talking about 
real public health risk. I certainly appreciate that. And I 
hope we are talking about the same study.
    Second, this past summer, the FAA worked with local 
authorities in New York to adjust flight patterns and 
procedures to help limit noise around JFK. But in a letter to 
the Congressional Quiet Skies Caucus, the Administrator 
Dickson, you stated that FAA's review process for these changes 
has been quote irregular and had serious flaws in it including 
not consulting with the JFK tower.
    Obviously those are big red flags and it is good that they 
were caught, but why is it that internal communication at the 
FAA let this happen? That the agency can agree to significant 
changes in flight operations and then go back on it, really on 
what it said it was going to do, when it realizes its own 
integral procedures were violated.
    Mr. Dickson. Well, it's a great question, thanks for the 
opportunity to respond. It's really important that when we look 
at noise issues, that we realize that it's an entire community 
issue and we want to make sure that the entire community is 
engaged and that we are not just moving noise arbitrarily 
between one community and an adjacent community for example.
    This inquiry was made to the approach control which did not 
consult with the tower. This is why it's really important, as I 
mentioned to Congressman Diaz-Balart, that we work through the 
regional administrator to make sure that we can bring these 
issues forward and have them addressed on a holistic basis, 
rather than just to solve one issue.
    I will say that the altitude request for operating above 
3,000 feet on the arrivals, that actually was executed and was 
part of my response to the inquiry from the caucus----
    Mr. Quigley. Sir, is it safe to say that the problems that 
took place here won't be replicated, that working in around 
O'Hare and other airports we are not going to have these same 
issues?
    Mr. Dickson. We will not as long as we are able to 
understand that the appropriate point for us to engage with you 
and your staffs is through the regional administrator, then we 
will be able to make sure that that process is appropriately 
managed.
    Mr. Quigley. Sir, my friend and colleague, Mr. Swayze is 
interested as his constituents are as to this correction has 
been made as to how it was moved forward.
    Now how long might they have to wait to find out what if 
any other corrective measures can be taken to adjust to the 
noise?
    Mr. Dickson. Well, as I said, the altitude portion has 
already been addressed. The runway usage again, that's 
something that we would have to work through the New York 
roundtable to make sure that we are not changing----
    Mr. Quigley. Is that process going on? We can report back 
to the Congressman that it is being worked on soon?
    Mr. Dickson. Yes.
    Mr. Quigley. Thank you.
    Mr. Price. Mr. Administrator, I want to return to the 
safety lessons from the 737 max disasters, matters raised by 
Mr. Womack and Ms. Clark and others. I want to drill down a bit 
on 2 aspects of this and I'll ask both questions at once.
    First, has to do with the manufacturer's role in the ODA 
process. There is some of course, widespread misgivings about 
that process but having said that, the FAA does not have the 
capacity to inspect every aspect of every plane in U.S. 
aviation.
    So if ODA is necessary at some level, how can you improve 
it? That is the big question. How can the FAA ensure that the 
ODA employees are acting in the best interest of the FAA and 
not their employer.
    What could the FAA do to protect ODA employees from undue 
pressures? And then perhaps most importantly, what can you do 
to ensure that the same culture of safety that you aspire to at 
the FAA permeates this process? I know that is difficult, but 
that is important.
    Second, having to do with the human factors. The 
investigations into the FAA certification process have 
identified that the FAA made some incorrect assumptions about 
pilot responses and that the agency needs to integrate human 
factor analysis into the certification process more 
effectively. Of course, you have a myriad of circulars, orders, 
notices, related to human factors that date back to the 1990's.
    So what are we to conclude? That you haven't been 
successful in following your own guidance or that the guidance 
is unenforceable or that the guidance needs to be revised? I 
mean, can you update us on this?
    And then, and this particularly came out in the oversight 
hearing we held in this subcommittee some months ago. What 
about the variation of experiences of foreign pilots and 
mechanics? The international aspect of this. Are you modifying 
or do you need to modify that guidance when you consider the 
variants of international experiences?
    Mr. Dickson. Well, thank you, I'll try to address those in 
sequence. With respect to, I think the first issue, I would 
just put it under the broad topic of how do we manage and make 
sure that there is not undue pressure or conflict of interest 
in the, among the ODA members.
    And with any manufacturing process, any private company, 
even an airline, there are always going to be mission 
pressures, you know, a captain wanting to get the airplane to 
its destination on time. In this case getting a design project 
completed.
    There are going to be schedule pressures that the safety 
process need to be able to stay intact and be of primacy but 
also, the leadership, both at the FAA and at the manufacturer 
need to make sure that they continuously message and are 
listening for indications that that may not be the case.
    And for example, you know, when I was leading my pilots at 
the airline, I always told them, you know, sometimes you're 
your own worst enemy. You know, you really want to get your 
customers to their destination, but don't ever hesitate if 
you've got any concern at all to pull off to the side of the 
taxiway, let's set the parking brake and get everything sorted 
out. That's always going to trump being on time and being 
efficient if you need to.
    The same is true in the manufacturing sector. And there are 
some structural things that some companies have done that I 
think are best practices in terms of separating the safety 
chain from the manufacturing chain to make sure that quality 
and safety is emphasized throughout the process.
    We also need to recognize there is a lot of flexibility in 
the ODA system where it really is a privilege for a company to 
have ODA as a program. And I think it is a more effective way 
for the FAA to manage a manufacturing process, rather than 
trying to manage individual designees but the process has to be 
robust, and it has to have safety as its primary consideration.
    And I think some of the resources that we are asking for in 
terms of system safety analysis and effective oversight tools, 
I have a big emphasis at the agency on data and the ability to 
be able to look at the data as the project is proceeding for 
the FAA is going to be extremely important in this process.
    Mr. Price. Thank you. I am going to ask you to defer the 
answer on the human factors. I do want to hear that, defer that 
though until the next round since my time has expired. Mr. 
Diaz-Balart.
    Mr. Diaz-Balart. Thank you Mr. Chairman. In the same vein, 
Administrator, I would like to first thank you for putting the 
safety first as to the review of the max. We know that you 
won't certify this aircraft until you are certain that it is 
safe.
    I guess I read or heard that you personally are going to 
fly the airplane before it is certified. Is that correct?
    Mr. Dickson. That's correct.
    Mr. Diaz-Balart. So all indications that I hear are that 
you are making good progress on the review and that obviously 
we look forward to the day that that airplane can safely return 
to our airspace.
    Would you give us a sense how thorough your review has been 
and what steps still remain before the plane can be 
recertified?
    Mr. Dickson. I would say that that is the most thorough 
review that any airplane has ever had throughout the history of 
aviation. And that we are leaving no stone unturned and we 
have, we have essentially reallocated resources within the 
agency to make sure that we have the resources to continue to 
make sure that every step of the process is followed.
    The next major milestone is the certification flight and we 
have, there were a number of--several software changes that 
were recently made to address some issues that had come up and 
it remains to be seen whether we have to reaccomplish the audit 
associated with those changes.
    But after that work is completed then we will, that will 
lead us to the certification flight. It's impossible to say 
exactly when that will occur but when it does, we will then 
take some time, a matter of a few days I think to review the 
data from the certification flight and then that will enable us 
to bring in the 16 airline pilots, both U.S. and international 
pilots of various experience levels to complete the training 
that Boeing has recommended which includes simulator modules as 
well.
    My deputy administrator is going to complete that training 
alongside that process and then once this process is completed 
I will complete the training and then conduct a certification 
flight.
    In parallel with those training requirements, there are 
some technical steps that have to be taken to make sure the 
airplanes have all the upgrades and maintenance work completed 
on them. And then there will be an airworthiness directive and 
the ungrounding order after that.
    Subsequent to the ungrounding, then we will--also the 
certificate management offices in the U.S. will then work with 
their individual airlines that they oversee to approve their 
specific training programs for their operations.
    Mr. Diaz-Balart. All right. There have been several studies 
and investigations of the certification of the max, of the 
process both from inside and outside of the FAA.
    Can you just talk about some of the findings in those 
reviews, particularly those findings that may be critical to 
the FAA's role.
    Mr. Dickson. That's a great question. We have had the Joint 
Authorities's Technical Review, we have had the Technical 
Advisory Board which we are specifically paying attention to 
with respect to the Max itself. The Secretary's Special 
Committee on Aircraft Certification. The National 
Transportation Safety Board recommendations. We have the 
accident investigations from the two accidents and we also have 
Congressional investigations as well.
    All of those have resulted and will result in a number of 
recommendations but they're generally falling along the themes 
that I mentioned earlier, the three themes that I mentioned in 
my opening statement.
    Having said that, we don't want to lose the granularity of 
the individual recommendations so we are mapping them together. 
They intend to--in many cases get at the same issues, utilizing 
slightly different wording or maybe a little different 
emphasis.
    And remember, we are talking about a process that isn't 
specific to Boeing, we are talking about 79 ODA's around the 
country that we need to have a process that we will be able 
support.
    And so the funding that we are asking for in terms of the 
improvements to aviation safety and safety systems, will enable 
us to move along the path towards meeting those 
recommendations.
    Mr. Diaz-Balart. Thank you. Thank you, Mr. Chairman.
    Ms. Clark. I switched up on you. Thank you so much. Just 
briefly, when I was a law student I got to take part in a case 
against Morton-Thiokol, looking at how the O rings had been 
developed in the shuttle disaster, a preventable disaster. And 
it really was pressure to meet contract, to raise the bottom 
line that did it.
    With the coronavirus, the airline industry, airline 
manufacturers are going to be under increasing stress. And I 
just want to implore you as the FAA I know that you are 
committed to this, but you are what stands between protecting 
passengers, their families, the networks that love them and 
support them and a race for a bottom line that can cause 
disaster in the air.
    So we appreciate what you are doing and just feel that role 
of protecting safety is always foremost for the FAA, but it is 
going to be challenged in new ways.
    I want to go back to a specifically a question that the 
chairman asked about the investigations into the certification 
process where the FAA made incorrect assumptions about pilot 
responses and needing to integrate the human factor analysis 
into the aircraft certification process.
    The FAA has a myriad of circulars, orders, and notices 
relating to human factors analysis dating back to the 1990s. Is 
the FAA not following its own guidance or is the guidance 
unenforceable?
    Mr. Dickson. Well, thank you for the question. First of 
all, with respect to the, your first point, that's absolutely 
our focus to make sure that we have the highest margin of 
safety in the system and the--we have processes for--in place 
of increased surveillance on areas where--that we think might 
be under stress if that proves to be necessary financially.
    With respect to we have a number of advisory circulars and 
guidance material that some of it dates to the 90's but there 
have been more recent with respect to flight deck architecture 
considerations that have been developed and we use. Some of the 
assumptions about human performance are not only what we use in 
the U.S. but they are what other authorities, other states have 
designed have used and they are essentially globally accepted 
criteria.
    And, I think, one of the benefits that we have and I think 
it has been a strength of the United States going through this 
process is our openness and transparency and our willingness to 
accept critique throughout this process. It will make the 
process stronger.
    And I would expect that working with the other states of 
design, primarily the Europeans, the Canadians and the 
Brazilians, our coordination, our cooperation is really 
stronger than ever. And we will be looking at all of these 
elements in terms of human factors and things like the Change 
of Product Rule and what those improvements will look like 
going forward.
    Ms. Clark. Do you anticipate you will be modifying your 
guidance to consider the variance of experience of foreign 
pilots?
    Mr. Dickson. Well, I think you can see that we are already 
taking actions. We are not waiting to rewrite guidance. The 
fact that we are including, I mentioned the joint operations 
review that is going to evaluate the training proposal from 
Boeing. This is the first time that any authority has used 
line, airline pilots from various international countries. We 
have used pilots from other aviation authorities but never 
pilots from various experience levels to complete a process to 
validate a training proposal.
    Ms. Clark. Great, thank you. On that note, with the sort of 
global aviation using foreign pilots, do you think the ICAO is 
still an effective body for globalizing aviation standards?
    Mr. Dickson. Well, there is no organization in the world 
that has done more to promote aviation safety than the FAA. And 
one of the ways we do that, but not the only way, is through 
ICAO. The ICAO process can take some time, as you noted, but we 
have to be there because that is how we can exercise influence 
globally.
    The FAA devotes a number of people and quite a bit of 
attention to what is going on at ICAO. But in addition to that, 
we work bilaterally with many authorities. We also work 
regionally in areas where it makes sense.
    Most recently, I was out at the Singapore air show, for 
example, and worked with five of the aviation authorities in 
South Asia on exactly the issues that you are talking about 
with respect to pilot training and qualification. So, we will 
continue to take a multifaceted approach.
    Ms. Clark. Thank you. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. Actually, on 
that note, how do we--how do I say this kindly? I want to be 
diplomatic about this. But look, other certifying international 
agencies have, may have potentially, and I am thinking about 
China, for example, you know, may not be as transparent as the 
FAA as to what their--how do you make sure that political 
reasons, because they may have ties with manufacturers or 
whatever are not--don't come between the certification of the 
MACs? Not for safety reasons but because of other reasons. So, 
I am trying to be diplomatic but I think you know what I am 
saying here.
    Mr. Dickson. Sure. Well obviously, the you know, again, 
these airplanes will be operated around the world as are many 
U.S. produced products. And so, that is why it is very 
important that I think the FAA takes a leadership role as the 
most influential in really many would say the gold standard for 
aviation safety in the world.
    That may look a little different now than it might have 20 
or 25 years ago because there are other competent authorities 
out there that we can work with and that have very 
sophisticated capabilities themselves. So, that is an answer to 
Congresswoman Clark's question, it really is a situation where 
yes, we work through ICAO but we also work in a different way 
depending on what the aviation authorities are. Whether it is 
China or EASA or Singapore, whoever it is. That engagement and 
that level of assistance and mentoring may look a little bit 
different.
    Mr. Diaz-Balart. Let me change subjects entirely. In 
December, I joined my two Florida Senators raising concern 
with, at Miami International Airport. I don't know if you are 
aware of this, regarding the potential purchase of the 
passenger boarding bridges from a Chinese state backed 
enterprise.
    Now, this subcommittee started through, I think it was 
actually Congresswoman Granger who started showing concern 
about, for example, Chinese involvement in rolling stock, 
Chinese state enterprise in rolling stock. And the NDAA, that 
was actually, there was a halt put to that in a bipartisan way 
on that, on rolling stock.
    So, I have been concerned with the anti-competitive nature 
of bids from these stated controlled, state run or tied with 
state enterprises in China dealing with, again, these, I don't 
know what you call these things. The, you know, the, I guess 
the boarding bridges, passenger boarding bridges.
    And so, the concern is not only the anti-competitive nature 
but the fact that it could potentially pose a security threat. 
Because these companies then could be used to potentially 
exploit our aviation and national security network. So again, 
it is also a national Security issue.
    I just, I just want to make sure you are familiar with that 
and a lot of those funds are not federal funds, I get that. But 
I just want, Mr. Administrator, I just wanted to kind of put it 
on your front burner to make sure that the FAA does whatever we 
can, it can so that Federal funds are not used to support these 
Chinese backed companies which is, again, I think anti-
competitive but also a national security issue.
    So, I am not asking for an answer but I just wanted to make 
sure that you are aware of that and that I can't speak for 
anybody else but there was very strong bipartisan concern about 
rolling stock. I think this is even more dangerous. So, I just 
want to put it on your radar.
    Mr. Dickson. Understand and there are Buy American 
requirements for AIP funds which would certainly be looked at 
if Federal money was used for these systems. And also, with 
respect to cyber-security in particular, that is something that 
we are focused on. We work very closely with Homeland Security 
and DoD as part of the aviation cyber initiative.
    We are also requesting an additional $13 million to make 
our own systems more robust and also ensure that the aviation 
system is appropriately protected.
    Mr. Diaz-Balart. And I appreciate that. I just want to make 
sure, Administrator, that the passenger boarding bridges 
doesn't, bad pun, fly under the radar. But with that, that is 
all I have. Thank you, Madam Chairwoman.
    Ms. Clark. Thank you. I have to remember to hit that 
button. But we do truly thank you for your time today. And the 
Committee staff will be in contact with your staff regarding 
any questions for the record. If you would please return the 
information for the record to the Committee within 30 days from 
next Wednesday, we will be able to publish the transcript of 
today's hearings. With that, Mr. Diaz-Balart, any final 
comments?
    Mr. Diaz-Balart. No, thank you.
    Ms. Clark. With that, the hearing is adjourned.
    [Material submitted for inclusion in the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
  
</pre></body></html>
